<html>
<title> - CROSSING THE BORDER: IMMIGRANTS IN DETENTION AND VICTIMS OF TRAFFICKING PART I AND II</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
CROSSING THE BORDER: IMMIGRANTS IN DETENTION AND VICTIMS OF TRAFFICKING
                             PART I AND II

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2007

                               __________

                           Serial No. 110-16

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                   U.S. GOVERNMENT PRINTING OFFICE
35-275 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009



                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

JANE HARMAN, California              MARK E. SOUDER, Indiana
ZOE LOFGREN, California              BOBBY JINDAL, Louisiana
SHEILA JACKSON LEE, Texas            DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      MICHAEL T. McCAUL, Texas
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
AL GREEN, Texas                      PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                         Alison Rosso, Director

                         Denise Krepp, Counsel

                       Carla Zamudio-Dolan, Clerk

        Mandy Bowers, Minority Senior Professional Staff Member

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page
Part I:..........................................................     1

                               STATEMENTS

The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     3
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas........................................    49

                               Witnesses
                        Thursday, March 15, 2007
                                Panel I

Mr. John P. Torres, Director, Office of Detention and Removal 
  Operations (DRO):
  Oral Statement.................................................     5
  Prepared Statement.............................................     6

                                Panel II

Mr. Richard P. Seiter, Executive Vice President and Chief 
  Corrections Officer, Corrections Corporation of America:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Michelle Brane, Director, Detention and Asylum Program, Women's 
  Commission for Refugee Women and Children:
  Oral Statement.................................................    26
  Prepared Statement.............................................    29
Ms. Christina Fiflis, Member, Commission on Immigration, American 
  Bar Association:
  Oral Statement.................................................    36
  Prepared Statement.............................................    39
Mr. Michael Cutler, Fellow, Center for Immigration Studies:
  Oral Statement.................................................    42
  Prepared Statement.............................................    44
Part II:.........................................................    57

                        Tuesday, March 20, 2007
                                Panel I

Mr. Gabriel Garcia, Program Manager, Human Smuggling and 
  Trafficking Unit, Office of Investigations, Immigration and 
  Customs Enforcement (ICE):
  Oral Statement.................................................    60
  Prepared Statement.............................................    62

                                Panel II

Mr. Victor X. Cerda, Partner, Siff & Cerda LLP:
  Oral Statement.................................................    88
  Prepared Statement.............................................    90
Ms. Ann Jordan, Program Director, Initiative Against Trafficking 
  in Persons, Global Rights:
  Oral Statement.................................................    79
  Prepared Statement.............................................    81
Lt. Derek Marsh, Co-Director, Orange County (CA) Human 
  Trafficking task Force:
  Oral Statement.................................................    73
  Prepared Statement.............................................    74

                                Appendix
                             For the Record

Prepared Opening Statements:
  Thursday, March 15, 2007
    Hon. Sheila Jackson Lee......................................   101
    Hon. Bennie G. Thompson......................................   104
  Tuesday, March 20, 2007
    Hon. Sheila Jackson Lee......................................   105
    Hon. Mark Souder.............................................   106


CROSSING THE BORDER: IMMIGRANTS IN DETENTION AND VICTIMS OF TRAFFICKING



                                 PART I

                              ----------                              


                        Thursday, March 15, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border, Maritime,
                               and Global Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:20 a.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Jackson Lee, Thompson, 
Souder, and McCaul.
    Ms. Sanchez. [Presiding.] The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony on 
``Crossing the Border: Immigrants in Detention and Victims of 
Trafficking, Part I.''
    Good morning, everyone. Thank you for being with us today.
    Today's hearing is the first in a two-part series that will 
examine the issues surrounding the treatment of migrants by 
Immigration and Customs Enforcement. And the first of the 
series, this hearing today, we will have two panels, which will 
primarily focus on the issue of detention.
    I would like to begin by thanking our witnesses: Mr. John 
Torres, Mr. Richard Seiter, Ms. Michelle Brane, Ms. Christina 
Fiflis, and Mr. Michael Cutler. And thank you for joining us 
today to discuss these important issues.
    With the end of the ``catch and release'' program, the 
Department of Homeland Security faces a daunting challenge: how 
to deal with hundreds, perhaps thousands, of migrants that have 
been detained in recent enforcement actions.
    But the challenge is not only for law enforcement. It is 
also a humanitarian challenge. Our goal must not only be to 
detain migrants, but also to make sure that their detention is 
humane. And at the same time, we must explore alternatives to 
detention that meet our law enforcement goals and that may 
provide more humane conditions for these detainees.
    Recently, reports have signaled that detention conditions 
and the treatment of detainees in administrative immigration 
detection have not been acceptable. I have found these reports 
very disturbing, and so have many of my colleagues. And I hope 
that this hearing will shed some light on the situation and 
lead to action points by which we can improve the conditions of 
these detainees.
    And I am particularly interested in learning more about the 
Immigration and Customs Enforcement standards for care and 
custody of these detainees. These standards need to include a 
guarantee for detainees to be treated humanely and, of course, 
to have access to counsel.
    It is also critical that the subcommittee gain a better 
understanding of how ICE and their detention contractors work 
together to meet these minimum standards. In addition, I am 
looking forward to hearing about alternatives to detention that 
can appropriately monitor individuals but ensure that they show 
up to all the necessary hearings.
    As a nation, we must be committed to treating detainees 
appropriately, with respect for their dignity as fellow human 
beings and in accordance with our laws, our traditions, and, 
quite frankly, the idea of this great country.
    Recent reports indicate that we have some work to do before 
we achieve all of this, and I hope this hearing gives us some 
sense of the progress that we have made on these issues.
    And I would like to thank Ranking Member Souder for his 
interest in this topic, and I look forward to working with him 
on this and on other issues of importance in the future.
    Thank you.
    And now the chair will recognize the ranking member of the 
subcommittee, the gentleman from Indiana, for his opening 
statement.
    Mr. Souder. Thank you very much, Madam Chair.
    And I appreciate that this is our third hearing of this 
subcommittee already this Congress, all of which have focused 
on border security, gaining operational control over the 
borders of the United States, land, air and coastal is 
essential for national security, as it is ensuring that 
individuals who enter the U.S. illegally or bringing narcotics 
or other contraband traffickers are held accountable and 
removed as quickly as possible.
    I would also like to thank our witnesses for being here 
today. I look forward to receiving an update from the Office of 
Detention and Removal Operations on what is needed to maintain 
the end of ``catch and release'' and the response, as well as 
from Mr. Richard Seiter from Corrections Corporation of 
America, to recent criticisms of detention standards.
    I would also like to thank Michelle Brane and Christina 
Fiflis for being here, and I look forward to hearing more about 
the concerns your organizations have raised.
    I would also especially like to welcome Mr. Michael Cutler 
and express my appreciation for your presence here today. I 
think you will add important insight and context to this 
discussion, based on your wealth of experience in the legacy 
Immigration and Naturalization Service and current work with 
the Center for Immigration Studies and other security advocacy 
groups.
    The ability to detain illegal aliens prior to removal or 
admittance to the United States has proven to be a successful 
and critical homeland security tool. With the additional 
funding provided by Congress, DHS has been able to end the 
``catch and release'' program along the border, where illegal 
aliens were released into U.S. communities because there was no 
available bed space. More than 90 percent of these people never 
appeared for their court dates, and we have no idea where they 
are or what they are doing.
    In fiscal year 2007, the Office of Detention and Removal 
was able to detain about 27,000 illegal aliens each day. 
Congress needs to conduct careful oversight over the available 
bed space to make sure that the DRO has the capacity, now and 
in the future, to continue to detain all aliens apprehended.
    Additionally, I think we need to carefully consider options 
to further deter Mexican citizens from illegally entering the 
U.S. And while more physical border security will help, we may 
need to consider some detention possibilities.
    The knowledge that they would not be detained actually led 
to non-Mexican illegal aliens to actually seek out Border 
Patrol agents and declare their illegal status. They were 
picked up, processed, given a notice to appear before an 
immigration judge at some later date, and then taken to the 
nearest bus stop to go wherever they want in the U.S.
    In addition to the increase in detention bed space, DHS is 
finally taking advantage of the available enforcement tools 
that have been in the law for years. The expedited removal 
program, utilized by DHS for the past 2 years, allows illegal 
aliens not seeking asylum or expressing credible fear to be 
placed in immediate detention proceedings.
    This program has allowed DHS to reduce the average 
detention stays for non-asylum seekers from 90 days down to 
about 20 days. The bottom line is that detention has proven an 
effective and critical tool in deterring aliens from illegally 
entering the United States, because they know they will be 
detained, pending removal.
    Some concerns have been expressed about individuals with 
legitimate asylum claims being overlooked and mistakenly placed 
in expedited removal. This concern is something that must be 
continually reviewed to ensure that our border agents are well-
trained to understand their responsibility to identify 
individuals with claims of fear.
    There has recently been criticism of detention standards in 
DHS facilities. I believe that we have several witnesses here 
today to speak to these criticisms. There is no argument that 
we need to ensure that our detention facilities are secure, 
provide adequate nutrition, access to legal services where 
applicable, and run efficiently to process people through to 
either legal status within the U.S. or removal.
    I look forward to hearing from our witnesses about how the 
detention system works, how it is being used to enhance Border 
Patrol, and where improvements are needed.
    Thank you, Madam Chair, for your leadership. And I yield 
back.
    Ms. Sanchez. Thank you.
    And the chair now recognizes the chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Thank you very much, Madam Chairman.
    I am pleased that the subcommittee is holding the hearing 
today on an issue that has been of a great deal in the news 
lately.
    I have long supported ending the policy of ``catch and 
release,'' under which non-Mexicans who entered the U.S. 
without proper documentation were issued a notice to appear at 
a future hearing and then released. Of course, the overwhelming 
majority of these people did not appear for their hearing, but 
instead made their way to the interior of the country and 
disappeared into American society.
    It is clear that ``catch and release'' was a failed policy. 
However, I am deeply concerned about the consequences of the 
department's new policy, often called ``Catch and Return.'' 
Under this policy, virtually all other-than-Mexicans are being 
detained at facilities, either operated by or under contract to 
ICE, until they are returned to their country.
    One of the issues I am concerned about, Madam Chairman, is 
the fact that, you know, families with children are also being 
held in these facilities. And I want to know from our first 
witness today what measures are being taken when children are 
involved in this situation, also, because, as you know, there 
are potential civil rights and civil liberties issues 
associated with it, as well as the general welfare of the 
children who are detained.
    So I intend to work with my colleagues to ensure that, as 
the department implements tougher border enforcement and 
detention policies, we do so in a way that honors the rights 
and values that make our country great.
    Mr. Thompson. So I look forward to the testimony, Madam 
Chairman, and I yield back.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Other members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    So I welcome our sole witness on our first panel, Mr. John 
Torres, who is the director of the Office of Detention and 
Removal Operations of Immigration and Customs Enforcement. As 
director, Mr. Torres oversees 6,700 employees, including nearly 
6,000 sworn law enforcement officers assigned to 24 field 
offices, and manages an operating budget of nearly $2 billion.
    Prior to his appointment as director, he served as the 
acting DRO director for 15 months, overseeing unprecedented 
expansion of this program. Mr. Torres previously served as 
deputy assistant director for smuggling and public safety in 
the ICE Office of Investigations and as a special-agent-in-
charge of the Newark ICE office, where he oversaw ICE's 
participation in several major multi-agency investigations.
    Mr. Torres began his law enforcement career with the former 
Immigration and Naturalization Service in 1986.
    And so, without objection, the witness's full statement 
will be inserted in the record.
    And I now ask you, Mr. Torres, to summarize your statement 
for 5 minutes or less.

STATEMENT OF JOHN P. TORRES, DIRECTOR, OFFICE OF DETENTION AND 
 REMOVAL OPERATIONS (DRO), IMMIGRATION AND CUSTOMS ENFORCEMENT 
                             (ICE)

    Mr. Torres. Good afternoon, Madam Chairwoman Sanchez and 
Ranking Member Souder, Congressman Thompson and distinguished 
members of the subcommittee.
    My name is John Torres. I am the director of the Office of 
Detention and Removal Operations at Immigration and Customs 
Enforcement. And it is my privilege to appear before you to 
discuss the enforcement mission of Detention and Removal 
Operations, or DRO.
    Our office is responsible for promoting public safety and 
national security by ensuring the safe and efficient departure 
from the United States of all removable aliens through the fair 
enforcement of our nation's immigration laws. As such, our core 
mission is the apprehension, detention, and removal of 
inadmissible and deportable aliens.
    The Office of Detention and Removal employs a number of 
tools to accomplish this mission. Using these tools, we have 
achieved considerable success in executing our mission. Some of 
the successes I will describe as follows.
    We have increased detention capacity, thanks to Congress 
and the administration, with added resources. Since 2006, ICE 
has increased detention capacity by more than 7,500 beds in 
Alabama, Arizona, California, Georgia, New Mexico and Texas.
    We have improved detention management. In addition to 
adding detention resources to prevent the release of illegal 
aliens, ICE has achieved a number of important successes in 
appropriately deploying this added capacity, such as utilizing 
larger regional detention facilities, creating a Detention 
Operations Coordination Center at our headquarters, and 
restructuring the detainee transportation system, and also 
expanding the use of alternatives to detention.
    We have expanded the use of our legal authority. In 2006, 
the Department of Homeland Security utilized expedited removal 
authority under the Immigration and Nationality Act to 
streamline the processing of aliens arrested at the border.
    We have also made numerous technological enhancements. In 
addition to increased detention capacity, improved management 
of that capacity, and mechanisms to improve removal and 
transportation processes, DRO has also used technological 
tools, such as an electronic travel document system and video 
teleconferencing capability, to streamline the removal process 
and reduce the number of days that people spend in detention.
    Combined these tools have allowed DRO and DHS to realize 
significant and concrete gains in the detention and removal of 
illegal aliens, ultimately ending the practice of ``catch and 
release'' along the borders, something that people did not 
think could be done a year and a half ago.
    The one loophole that remained, as we were ending ``catch 
and release,'' was the practice of ``catch and release'' for 
families arrested on the border. This former ``catch and 
release'' practice created a border vulnerabilities that 
encouraged families to smuggle their children across the 
border, knowing that they would be released into the community.
    In my 20-year career, I have seen too many pictures of 
children that have died in the back of 18-wheelers, vans and 
railroad cars while being smuggled into this country at the 
hands of callous smugglers who are driven by profits.
    To deter this activity and to end ``catch and release'' at 
our borders, ICE created a family residential center in Texas, 
and it allows families to stay together in an appropriate 
setting.
    In addition to adding detention space, we also expanded our 
alternatives to detention program to add enrollees to the 
program and reduce the costs of monitoring these enrollees 
under supervision. Under this program, the electronic 
monitoring program uses radio frequency ankle bracelets and 
telephonic reporting systems to remotely manage detention 
cases.
    In addition, our intensive supervision appearance program 
utilizes home and office visits, mandatory curfews, as well as 
radio frequency ankle bracelets as an effective alternative to 
case management techniques.
    In addition to these gains, and consistent with DRO's 
mission to promote public safety and national security, DRO has 
committed significant resources to the apprehension, detention, 
and removal of criminal and fugitive aliens.
    With our criminal alien program, for example, ICE has 
worked very aggressively to transition that program from our 
Office of Investigations over to the Office of Detention and 
Removal Operations, where we can make the most of our 
specialized administrative immigration processing capabilities 
and expertise the streamline these removals.
    In June of 2006, DRO established the National Detention 
Enforcement and Processing Offenders by Remote Technology, or 
the DEPORT Center, in Chicago, that supports the screening, 
interviewing, and removal processing of criminal aliens that 
are federally detained at our Bureau of Prisons facilities 
across the country.
    Our national fugitive operations program, established in 
2003, targets aliens who have been ordered removed by an 
immigration judge but have failed to comply with those orders. 
We currently have 53 teams nationally, and we plan to expand 
those teams to 75 by the end of the year.
    The integrity of our immigration system requires fair and 
effective enforcement of our nation's immigration laws. By 
aggressively enforcing these laws, we seek to deter criminal 
and terrorist organizations who threaten our very way of life, 
and we seek to strengthen the legal immigration process for 
worthy applicants.
    I would like to thank you, Madam Chairwoman and members of 
the subcommittee, for this opportunity to testify today on 
behalf of the men and women of DRO. And I look forward to 
answering any questions you may have.
    [The statement of Mr. Torres follows:]

                  Prepared Statement of John P. Torres

                             March 15, 2007

INTRODUCTION
    Good afternoon, Chairwoman Sanchez, and distinguished Members of 
the Subcommittee. My name is John Torres, and I am the Director of the 
Office of Detention and Removal Operations (DRO) at U.S. Immigration 
and Customs Enforcement (ICE). It is my privilege to appear before you 
to discuss the enforcement mission of DRO.
    DRO is responsible for promoting public safety and national 
security by ensuring the safe and efficient departure from the United 
States of all removable aliens through the fair enforcement of the 
nation's immigration laws. As such, DRO's core mission is the 
apprehension, detention, and removal of inadmissible and deportable 
aliens, the management of non-detained aliens as their cases progress 
through immigration proceedings, and the enforcement of orders of 
removal.

DISCUSSION
    DRO employs a number of tools to accomplish this mission. Using 
these tools, DRO has achieved considerable success in executing its 
immigration enforcement mission.

    Increased Detention Capacity: Since 2006, ICE increased its 
detention capacity by more than 7,500 beds in Alabama, Arizona, 
California, Georgia, New Mexico and Texas.

    Improved Detention Management: In addition to adding detention 
resources to prevent the release of illegal aliens, ICE has achieved a 
number of important successes in appropriately deploying this added 
capacity:
        <bullet> In 2006, DRO deployed a strategy to realize cost 
        efficiencies, by relying more heavily on larger regional 
        facilities and thereby realize economies of scale while 
        relieving the burden on Field Offices facing detention 
        shortages.
        <bullet> ICE created the Detention Operations Coordination 
        Center (DOCC) in July 2006. The DOCC monitors DRO Field Office 
        detained dockets in order to coordinate movement of detained 
        aliens from Field Offices with detention shortages to Field 
        Offices with surplus capacity. The DOCC also actively ensures 
        that all enforcement efforts by DRO and other apprehending 
        entities are matched with adequate detention space. As a result 
        the average daily population has risen from approximately 
        18,000 in July, 2006 to approximately 28,000 today.
        <bullet> DRO began to restructure the detainee transportation 
        system in order to utilize ICE staff and transportation 
        resources as effectively as possible. In particular, DRO 
        expanded the use of ground transportation in order to minimize 
        inefficient and costly short-range Justice Prisoner and Alien 
        Transportation System (JPATS) flights and increase flight 
        service routes for longer, more cost-effective flights.
        <bullet> DRO expanded its Alternatives to Detention programs to 
        reduce the cost of monitoring aliens under supervision. Under 
        this program, the Electronic Monitoring Program utilizes radio 
        frequency ankle bracelets and a telephonic reporting system to 
        remotely manage detention cases. In addition, the Intensive 
        Supervision Appearance Program utilizes home and office visits, 
        mandatory curfews, as well as radio frequency ankle bracelets, 
        as effective alternative case management techniques.
        <bullet> As detention space is added, DRO continues to ensure 
        that all facilities comply with the 38 ICE National Detention 
        Standards. These standards were developed in partnership with 
        Nongovernmental Organizations, such as the American Bar 
        Association, and building upon standards established by the 
        American Correctional Association, meet or exceed correctional 
        industry standards.

    Expanded Use of Legal Authority: In 2006, the Department of 
Homeland Security employed Expedited Removal authority under the 
Immigration and Nationality Act to streamline the processing of aliens 
apprehended at or near the border. Under Expedited Removal, aliens who 
present no claim for asylum or other protection are removed under 
streamlined processes, which reduce both the period of time such aliens 
are detained and the enforcement resources necessary to secure orders 
of removal.

    Technological Enhancements: In addition to increased detention 
capacity, improved management of that capacity, and mechanisms to 
improve removal and transportation processes, DRO has also used key 
technological tools to further its mission. These tools include the 
Electronic Travel Document system and Video Teleconferencing 
capability.
                <bullet> The electronic travel document allows us to 
                work with cooperating foreign governments to process 
                and obtain travel documents required for removal 
                electronically, avoiding the need for slower, less 
                efficient, mail-based correspondence. This system has 
                reduced the processing times for travel document 
                issuance from weeks to days.
                <bullet> Video Teleconferencing capability allows DRO 
                to provide for remote interviews of detainees by 
                foreign consular officials, thereby reducing the need 
                for in-person interviews during the travel document 
                issuance process.
    Combined, these tools have allowed DRO and the Department of 
Homeland Security to realize significant and concrete gains:
                <bullet> For example, in 2006, DRO made record use of 
                JPATS. Compared to 10,352 movements in 1995, we moved 
                115,000 aliens in 2006. DRO is currently on pace to 
                move 170,000 aliens through the use of JPATS in 2007.
                <bullet> Also in 2006, DRO removed a record number of 
                aliens--more than 190,000, of whom nearly 90,000 were 
                criminal aliens.
                <bullet> In addition, through the expanded use of 
                Expedited Removal, DRO was able to decrease the time 
                aliens spend in custody, effectively increasing the 
                bedspace available for detention each year. 
                Specifically, while the average length of detention for 
                aliens in traditional removal proceedings is 89 days, 
                the length of detention for aliens removed under 
                Expedited Removal processing is 19 days.
                <bullet> Finally, through the increased and more 
                efficient use of bedspace, DRO now ensures that no 
                alien apprehended at the border is released for lack of 
                detention capacity, thereby effectively ending ``catch 
                and release'' at our borders.
    In addition to these gains, and consistent with DRO's mission to 
promote public safety and national security, DRO has committed 
significant resources to the apprehension, detention, and removal of 
criminal and fugitive aliens.

    Criminal Alien Program: ICE has worked aggressively to transition 
criminal alien enforcement efforts from its Office of Investigations, 
while making the most of DRO's specialized administrative immigration 
processing capabilities and expertise.
                <bullet> Most recently, 2007 began with an aggressive 
                push to transition all remaining Institutionalized 
                Criminal Alien Operations from the Office of 
                Investigations to DRO. This transition is scheduled to 
                be completed by June 1, 2007. Currently, 11 out of 24 
                DRO Field Offices have fully transitioned.
                <bullet> In June 2006, DRO established the National 
                Detention Enforcement and Processing Offenders by 
                Remote Technology (DEPORT) Center, a Chicago-based 
                center that supports the screening, interviewing, and 
                removal processing of criminal aliens detained in 
                federal custody throughout the United States.
                <bullet> Since its inception, DEPORT has screened 
                nearly 10,000 cases, issued over 7,100 charging 
                documents, located almost 100 alien absconders, and 
                lodged more than 2,600 detainers.

    National Fugitive Operations Program: Established in 2003 and 
tasked with locating, apprehending, and effecting the removal of 
fugitive aliens, the ICE National Fugitive Operations Program within 
DRO has been working aggressively to reduce the number of fugitive 
aliens.
        <bullet> DRO has currently deployed 53 teams, nearly tripling 
        the number of teams in 2005, and continues to work on deploying 
        the additional 22 Fugitive Operations Teams funded by Congress.
        <bullet> Team enforcement activities prioritize alien absconder 
        cases in the following order: aliens identified as threats to 
        national security; those who pose a threat to the community; 
        those convicted of violent crimes; those with criminal records; 
        non-criminal absconders.

    State and Local Responses: In addition to partnerships with state 
and local law enforcement agencies under section 287(g) of the 
Immigration and Nationality Act ICE is taking steps to explore 
increasing responsiveness to state and local law enforcement agency 
requests for assistance. One example of these exploratory efforts is 
the creation of a pilot program in the Phoenix, AZ, metropolitan area 
to service such requests.
        <bullet> Under this pilot program, which began in September 
        2006, ICE created a dedicated unit in DRO's Phoenix Field 
        Office, called a Law Enforcement Agency Response Unit, to 
        provide primary rapid response to law enforcement agency 
        requests for assistance in immigration-related cases on a 24-
        hour-per-day, 365-day-per-year basis.
        <bullet> From September 4, 2006, through March 4, 2007, this 
        unit received 468 calls for assistance from state, local, and 
        federal law enforcement agencies in the Phoenix area, 
        encountering over 2,700 aliens.
        <bullet> ICE will continue to study the successes of this pilot 
        program and the feasibility of adopting similar programs in 
        other localities.

        CONCLUSION
    The integrity of our immigration system requires fair and effective 
enforcement of our Nation's immigration laws. By aggressively enforcing 
these laws, we seek to deter criminal and terrorist organizations who 
threaten our way of life, and we seek to strengthen the legal 
immigration process for worthy applicants.
    I would like to thank you, Ms. Chairwoman and Members of the 
Subcommittee, for the opportunity to testify today on behalf of the men 
and women of DRO, and I look forward to answering any questions you may 
have.

    Ms. Sanchez. Thank you, Mr. Torres. I thank you for your 
testimony.
    I remind each member that he or she will have 5 minutes to 
question the witness. And I will now recognize myself for 
questions.
    Mr. Torres, as you know, there have been a lot of recent 
reports in the newspaper and other news media and a great 
concern about the conditions of detention centers and the 
treatment of detainees at these centers. So my first question 
is: What are the government standards for care and custody of 
detainees?
    Mr. Torres. We actually have eight national detention 
standards, 36 of which were developed back in 2001 under the 
INS, in conjunction with nongovernmental entities and various 
organizations. A couple of years ago, we added two more 
detention standards. And, actually, right now, we are in the 
process of specifying those even more and adding family 
detention standards, in relation to the facilities that we have 
Berks, Pennsylvania, and down in Hutto, Texas.
    We have an inspections program, a trained cadre of about 
340 deportation officers across the country that are required 
to inspect all of our facilities, including those that are 
contracted through intergovernmental service agreements, once 
annually.
    And then we also have a separate program where that is 
overseen by our Office of Professional Responsibility, and so 
the recommendations of those annual inspections are forwarded 
to OPR and then over to us to make implementations if there is 
any determination that any of those standards are not being 
met.
    We also allow the Office of Civil Liberties and Civil 
Rights to review specific cases where there are allegations 
that we are not up to standards. And then we also allow, 
obviously, the inspector general and/or GAO can come in and 
take a look at some of these facilities, too.
    Ms. Sanchez. So the first line of looking at whether you 
are meeting the standards or what is going on in these centers 
is actually from within ICE?
    Mr. Torres. Yes, actually, we will do an inspection to see 
whether or not a facility--for example, if we were to lease 
space from a county jail, we would do an inspection of that 
jail first to determine whether or not it would meet our 
standards.
    If it does not meet our standards, we would go back to that 
county jail, advise them where it doesn't meet our standards, 
and to see whether or not they are willing to make improvements 
or modifications so that they would be up to our standards. If 
not, then we cannot contract with them.
    Then, the second one is we inspect it just before it opens.
    Ms. Sanchez. Just before it opens.
    Mr. Torres. Right.
    Ms. Sanchez. And then when is the next time you would 
inspect it? Would you do random inspections from the people 
that are within ICE to go and take a look?
    Mr. Torres. Yes, from those that are trained within ICE, 
then it is required that, once it is opened, the facility is 
open, then there has to be at least one annual inspection. And 
if there were an incident to take place, for example, whether 
there was an allegation of a beating or a detainee were to pass 
away, then we can do spot checks, we can do special 
assessments, and we will send a team within 48 hours to do an 
assessment.
    Ms. Sanchez. But these are all within the Department of 
Homeland Security and specifically within ICE?
    Mr. Torres. Those are done within ICE DRO. And then the 
reports are now forwarded over to the Office of Professional 
Responsibility within ICE, yes.
    Ms. Sanchez. And when you talk about having the Office of 
Civil Liberties and Civil Rights take a look, how often have 
they come in to take a look at, let's say in the last year, to 
take a look at one of your detention centers?
    Mr. Torres. I don't have specific numbers on that. I am 
aware of at least a handful off the top of my head where there 
were specific incidents or, for example, they say, ``We would 
like to go take a look at one of your facilities.'' And so I 
know there are several assessments ongoing.
    Ms. Sanchez. And when you look at your facilities, do you 
contract out, so you don't run your facilities? You have a jail 
or something in the area where they are performing this 
function for you?
    Mr. Torres. Yes, to a certain extent. We have eight service 
processing centers which we own. We contract out fully another 
seven. And then the remainder--there is a total of about 330, 
give or take a few, that are contracted out to 
intergovernmental service agreements, either run by a county 
jail or run by a specific corporation specializing in 
detention.
    Ms. Sanchez. So if you are contracting out and you are 
contracting out to local agencies, but they contract out to 
private people to run their jails, is that the way you get to 
the private sector? Or do you also make contracts specifically 
to the private sector contractors?
    Mr. Torres. We will go through the local governments, for 
example, and then the local government may enter an agreement 
with a private contractor in many of the cases. And regardless 
of whether we are contracting through the governments or with a 
county, for example, all of our facilities have to meet those 
standards.
    Ms. Sanchez. And would you give those standards to the 
private contractor? Or what kind of guidelines do you give 
them? Do you say, ``These are the 38, and you must meet each 
and every one of these''?
    Mr. Torres. It actually goes beyond the 38. We have our 38 
standards posted on the ICE Web site. They are made available 
publicly. Anyone who is interested in doing business with DHS, 
ICE specifically, DRO for detention purposes, are made aware of 
what those standards are.
    And then, within those standards, we have various 
checkpoints, anywhere from 200 to 400 checkpoints within each 
of those standards so that, when our officers go do an 
inspection, they perform an inspection in the field of a 
facility, they are required to submit their reports back into 
headquarters, now to OPR.
    Last year, they were sending reports internally within 
Detention and Removal Operations. We changed that this past 
year, this fiscal year, and now those reports go to the Office 
of Professional Responsibility for review and recommendations 
for us and DRO to act upon.
    Ms. Sanchez. And we have one vote on the floor right now, 
so I don't know how you all want to handle--do you want to try 
to roll, and I will go vote, and Mr. Thompson stays, or do you 
want to just go up for 10 minutes, then break, go over, take 
the vote and I will come back?
    You want to recess for the 10 minutes and try to take your 
questions now, then recess for--and then we will break, and 
then we will come back. We have got a vote on the floor, and it 
is just one, so I think--and unless you all are going to play 
games after today.
    Okay, I will now recognize the ranking member for 5 
minutes.
    Mr. Souder. Thank you.
    Mr. Torres, do you know what percent of the people in your 
detention facilities are from people from countries on our 
terrorist watch list?
    Mr. Torres. Actually, Congressman, I don't have that 
percentage handy, but we can definitely get that for you. We 
have a breakdown by nationality of everyone we detain.
    Mr. Souder. Do you keep a fairly good--do you get a fairly 
good data entry system on each person you do? And do you work 
with ICE about that data?
    Mr. Torres. Well, that is actually relative, sir, in the 
extent that our deportation software, our data system, that was 
developed probably about 25 years ago, and we are still 
operating under that system. One of our priorities this year is 
what we call DRO modernization, to actually make that more of a 
current type of database, where we can actually have management 
tools built in to do assessments, reviews.
    So if you were to ask me today, ``Can you tell me how many 
people you have that are a certain age, from a certain 
nationality in your detention?'' It would probably take us 
about a week to pull that number down for you, because we would 
actually have to go in and reprogram the system to do that.
    What we are striving to get is towards a better reservation 
system, better transportation system, real-time access so that 
we can tell you where everyone is today, where they are 
tomorrow, where they are in immigration process, as 
instantaneous as possible.
    Mr. Souder. Part of this is a day-to-day management system, 
but part of it is to try to get to networks and smuggling 
organizations. And you have the best kind of information with 
which can be mined. Where did people get false IDs? Who did 
they arrange their transportation through? Who are their 
contacts inside the United States?
    And the ability to get that information in a timely 
fashion, so we don't just take down individuals who are 
wandering in, but rather get to the systems would seem to be 
very closely correlated with your ability to have adequate 
software and programs that could pull the questions down, 
because--do you have a figure on how many have committed 
crimes, other than immigration-related crimes?
    Mr. Torres. Yes, we can get that. I don't have that off the 
top of my head, but you are exactly right, sir. We have an 
Office of Intelligence, where we work very closely within ICE 
and develop what we call Operation Last Call.
    In effect, we work with other law enforcement agencies so 
that people that they may have interest in, we can come in and 
do interviews before we place them on planes or buses, to 
deport them from the country.
    Mr. Souder. There have been some cases--do you know how 
many cases of individuals may--or is this prevalent, just a 
few, is it expanding--have, in effect, rented children or used 
children to come in as a family person when, in fact, they 
aren't?
    Mr. Torres. We actually receive reports from the Border 
Patrol, from Customs and Border Protection, before we open the 
family facility that indicated--and they didn't have numbers. 
And we are working closely with the Border Patrol and our 
detention facilities. Corrections Corporation of America, for 
example, may have statistics, and we are working with them to 
get those specifically.
    But what we saw before we opened the family facility is 
that there were rent-a-family schemes, not just families that 
were bringing their children in knowing that they were not 
going to be detained, but we had families that either rented 
out their children, especially those who are younger that 
aren't easily interviewable, but also smugglers that would pay 
to bring a child, make it appear that a family was being 
brought into the country. And then, when they were arrested, 
they were released on their own recognizance, given a notice to 
appear before the court.
    Mr. Souder. And to clarify here, we are here not talking 
about Mexican nationals. We are talking about OTMs?
    Mr. Torres. That is exactly right.
    Mr. Souder. So they are bringing children from far away 
from the border?
    Mr. Torres. From far away from the border and also renting 
children from Mexico to pass them off as their own, yes.
    Mr. Souder. Is there any additional penalties if you are 
caught doing that? It seems to me that would be a fairly 
significant crime in and of itself.
    Mr. Torres. Not specifically for that crime, sir. There are 
enhancements within the smuggling penalties themselves, under 
Title 18, 1324, for smuggling, transporting, harboring. There 
are aggravating conditions where the sentences may be longer, 
if you were to place someone's life in danger or the smuggling 
resulted in injury or death.
    Mr. Souder. Prior to detention facilities, roughly 90 
percent of OTMs weren't showing up--that is an estimate, 
obviously--to their hearings. Were there any differences in 
statistics between families or non-families? Or if, in fact, we 
released families, is it likely to be equally as prevalent 
there?
    Mr. Torres. The Executive Office of Immigration Review 
maintains those statistics, and that is where we received them 
from. It was roughly 90 percent of those that were not detained 
absconded ultimately. But those statistics were not broken down 
by individuals versus families.
    But because that was occurring, those statistics were 
broadly applied across all of those different--whether they 
were individuals or families, and so working on that assumption 
that families were absconding as well as everyone else.
    Mr. Souder. If it is 90 percent, presumably a fair 
percentage were.
    Mr. Torres. Presumably, yes, sir.
    Mr. Souder. Thank you.
    Ms. Sanchez. Thank you, Mr. Torres. You will do us a favor 
and we will give you about a 15-minute break? Maybe staff can 
show you where to get a cup of coffee or something, and I hope 
you will be back when we come back.
    We have one vote on the floor, so we should be back 
shortly.
    Mr. Torres. I will be here.
    Ms. Sanchez. Thank you. We stand in recess.
    [Recess.]
    Ms. Sanchez. The subcommittee is now back in order. And Mr. 
Thompson had to go and give a speech somewhere, and I don't see 
Mr. McCaul back, but maybe he will return.
    In the meantime, I have some more questions I would like to 
ask you, Mr. Torres. And I am sure my ranking member may have 
some, also.
    Mr. Torres, I have heard reports that a substantial number 
of the ICE detainees who do not have criminal records are being 
held in detention areas or centers with people who are more of 
a criminal population. Are you concerned that this--first of 
all, does that happen?
    Secondly, are you concerned that this type of detention 
arrangement could endanger the non-criminal population? And 
what is the policy on whether criminal or non-criminal 
detainees are detained together and treated the same.
    Mr. Torres. Thank you, Madam Chairwoman.
    As one of our detention standards and within our policies, 
we have a classification system where we use objective measures 
to assess the classification of each person that we take into 
detention. And we will take into account whether or not that 
they are a criminal or whether or not they are a risk to our 
officers or to the other inmates.
    And, if they are determined to be a criminal or of risk to 
the general population or the officers, they are ranked at the 
highest level, which would be level three. Levels one and two 
are less dangerous, level one being the non-criminals, for 
example.
    Our policies are that we don't mix the criminal level 
three, for example, with level one. And that is spelled out. 
That is part of our training curriculum, and also we use that 
as part of the inspections process, when we are doing our 
facility reviews. So we do not?
    Ms. Sanchez. So you would say that non-criminals or people 
who you think are non-criminals would never be put in the same 
detention area as somebody who has got some sort of a criminal 
background?
    Mr. Torres. Correct. And if that is brought to our 
attention later--for example, we would not have murderers with 
non-criminals, people that have been convicted of murder on 
state statute, for example, then house at the same level of 
classification with those that are non-criminals.
    If somebody were to be brought to our attention later, 
like, for example, the person had been convicted of a crime 
internationally that we were unaware of and is later brought to 
our attention, we can reclassify that person and have them 
moved to an appropriate setting.
    Ms. Sanchez. Great. I also recently learned that ICE has 
190 staff assigned to the Willacy County Detention Center in 
Raymondville, Texas, but that only 20 of those are actually on 
staff. Can you tell me, is this reflective of staffing issues? 
Are you having trouble filling spots? Are you contracting spots 
out? Are there different classifications of staff that would 
make that seem that there is only 20 while there is supposed to 
be 109 there?
    Mr. Torres. There is a couple of different staffing models 
that we use, and I don't have the specific numbers for Willacy. 
But generally what I can speak to is that, under normal 
detention, under the traditional immigration 240 process, 
immigration removal before an immigration judge, we would have 
additional staff at those particular facilities to manage the 
case work, to manage the detainee docket, to arrange through 
obtain travel documents from a foreign government so that we 
can return that particular person.
    In facilities such as Willacy, where we developed initially 
to use as an E.R. setting and then it eventually does evolve, 
there is a need for less staff because they are not going 
through the traditional immigration 240 process.
    As we then bring on--well, what we have seen is that there 
is a level of deterrence that kicks in. And then we have to 
open up that facility to utilize it to its capacity to the non-
expedited removal classification of detainee, and that is where 
we turn around and hire more staff, so that we can have it 
appropriately staffed by the correct amount of employees that 
we feel is necessary to manage that caseload.
    In many instances, we do an assessment to see what is 
inherently governmental and then attempt to contract out the 
remaining positions, such as just security or transportation or 
those that would cook the meals, for example.
    Ms. Sanchez. So if 190 staffers are supposed to be assigned 
to that facility, what does that mean, in your opinion?
    Mr. Torres. Without knowing the specific staffing of 
Willacy, in which we can get for you, what that tells me, 109 
is going to be based on the number of detainees that are 
actually housed at a facility, how many employees it would take 
to manage that facility for case docket purposes. Also, we need 
a law enforcement officer, for example, to verify the 
departure, when you are actually removing somebody for future 
testimony purposes.
    Ms. Sanchez. He would be within that 109 assigned?
    Mr. Torres. I would have to take a look and see if they are 
talking about 109 employees and contractors or just the 109 
government employees.
    Ms. Sanchez. And so when someone said to me that there were 
only 20 there on staff, do you think that that--and without 
knowing the specifics--
    Mr. Torres. It doesn't sound accurate, but that is 
something I would definitely--when we walk out of here, I will 
follow up on it.
    Ms. Sanchez. If you could get that information for me, 
because, if, in fact, you have 109 slots but you have only got 
20 people actually hanging out there, but you have determined, 
as you told me, the 109 slots, depending on the population, the 
detainee population, then it seems a little--something is not 
straight there.
    Mr. Torres. And if I may, in several of the facilities that 
we have opened over the past year, knowing that the hiring 
process and the background clearances take a certain amount of 
time, what we do is send in staff from other facilities.
    For example, in Georgia, we have brought staff down from 
Buffalo, New York, for example, to staff it on a temporary 
basis, until we could get the correct complement of hiring 
completed and the background clearances approved. So we will 
staff a facility, for example, with TDY, temporary duty 
employees, for a significant amount of time, until we have the 
permanent staff come onboard.
    So maybe there is a nuance there of permanent employees 
that are onboard versus how many there are actually allocated.
    Ms. Sanchez. If you could get that information for me or 
try to figure out that one out, because that was a big concern 
when that was brought to my attention.
    Let me just ask you a series of very quick questions. You 
have probably read all the newspaper accounts with respect to 
in particular the family retention facilities that we have, the 
one in Texas. In your opinion, are people mistreated in your 
facilities?
    Mr. Torres. No, they are not mistreated in our facilities.
    Ms. Sanchez. In your opinion, are people getting the 
medical services that they need?
    Mr. Torres. Yes, in my opinion. Yes, they are.
    Ms. Sanchez. On a timely basis?
    Mr. Torres. Yes.
    Ms. Sanchez. What about the ability to speak the different 
languages that some of these detainees may have? Do you feel 
that you are adequately staffed to do that at this point?
    Mr. Torres. What we have is a contract that allows us to 
employ the interpreter's services through the telephone. We can 
call and operator for those languages that our officers don't 
speak so that we can then communicate effectively with the 
detainees.
    Ms. Sanchez. Are you facing challenges in recruitment and 
retention of your agents that work in your detention 
facilities?
    Mr. Torres. I can't speak specifically to the detention 
facilities, and that would be something that we would 
definitely take a look at. But overall, within detention and 
removal operations, the morale overall from the officers that I 
visited over the past year and a half and the feedback that we 
are getting from those officers is that it is very positive, 
and that they feel the program is going definitely in the right 
direction, and that we are seeing very good recruitment lists 
for hiring of positions, I would say probably in the last 9 
months for jobs that we have posted.
    And so, within detention and removal operations, I would 
not say that that has been a problem for us.
    Ms. Sanchez. Your detainees, do they have access to 
counsel?
    Mr. Torres. Yes, they do.
    Ms. Sanchez. If I went there and asked them, did they get 
their access to counsel in a pretty straightforward, within a 
timely matter, would they say yes to that?
    Mr. Torres. Well, I can't anticipate what a person that is 
in our detention is going to say. Obviously, people that are in 
detention are not necessarily happy that they are in detention, 
and so there are a lot of things they could potentially say.
    Ms. Sanchez. How long would you say that a detainee has to 
wait until he has access to counsel, he or she have access to 
counsel?
    Mr. Torres. Actually, upon arrest, they are provided with a 
list of services. When they are processed, they are again 
provided with a list of services. And then, when they are 
brought into our detainee facility, we provide them with--that 
list is posted again in some of the facilities or handed out. 
And then they are free to make telephone calls to anyone on 
that list that provides the free legal services.
    Ms. Sanchez. They are free to make telephone calls? Does 
that mean they have--you have a telephone there, they can dial 
anywhere? Or does that mean they have to have, I don't know, 75 
cents in their pocket to make that call?
    Mr. Torres. For those that are indigent, those calls can be 
free, yes.
    Ms. Sanchez. And last question. How many children do you 
think you have in your detention center in the Texas family 
center?
    Mr. Torres. The numbers I saw about a week ago were about 
176 to 180. And that fluctuates daily.
    Ms. Sanchez. And that would be age levels 1 through under 
18?
    Mr. Torres. Under 18, correct.
    Ms. Sanchez. And how many of those children are going to 
school while in your facility?
    Mr. Torres. I don't have specific numbers who are going to 
school, but we do offer 7 hours a day of educational classroom.
    Ms. Sanchez. In the detention facility?
    Mr. Torres. Yes, in fact, we are in the process right now 
of building out a couple--two additional trailers at the Hutto 
facility, in addition to the two that are already operating.
    The two new trailers, which would be completed by the end 
of the month, well, one is for junior-high-level training and 
classroom services, and one is for the high-school-level 
schooling. And so there are a couple of rooms within the 
facility itself that are used for classroom purposes.
    Ms. Sanchez. So you bring teachers in every day, Monday 
through Friday, to teach class?
    Mr. Torres. Yes, teachers come to the facility to teach.
    Ms. Sanchez. And is it optional for the student to go or is 
it mandatory for the student to go to school?
    Mr. Torres. Actually, I am not sure if that is mandatory or 
optional. I know that?
    Ms. Sanchez. I mean, it is mandatory in the United States 
for a child of that age to go to school, but I don't know if 
within your facility you mandate it.
    Mr. Torres. Yes, we can get an answer for you on that. I 
know that, when I toured the facility most recently, the 
classrooms had many children, all taking the classroom-level 
education appropriate to their age.
    Ms. Sanchez. Thank you, Mr. Torres.
    Does the ranking member have any questions?
    Mr. Souder. Thank you.
    I want to make sure for the record--in answer to the 
questions where there are specific problems, you are not saying 
there aren't any problems? You are saying that the bulk of the 
cases, you believe, are being addressed?
    Mr. Torres. That is correct, Mr. Souder. There are 
instances where issues could be raised to our attention or that 
a specific detainee may have a complaint. And we have a process 
put in place where they can pass those complaints to us, they 
can either tell us in person, they could drop them in a 
suggestion box. They can also write letters, and then we act on 
those complaints.
    And there are instances, for example, with hot water, where 
in the size of the facility, if you are closer to the hot water 
heater, the showers closer to the facility are warmer than if 
you are further away. And so we have taken measures to address 
that and place signs that say, ``If you are using a shower 
further away from the heater,'' at that specific shower, it 
will say, ``Please let it run for a few minutes and it will 
warm up,'' for example.
    Mr. Souder. In the OTMs that we are discussing here, how 
many of those--do you have any idea of the percent who seek 
asylum who actually get asylum?
    Mr. Torres. I don't have the percentage of how many 
actually seek asylum. I have seen any estimates that, for 
example, those that make a credible fear claim for all 
nationalities, that as many as 90 percent to 95 percent--and I 
don't have the specific number handy--actually are granted 
credible fear.
    And then the number drops dramatically for those that are 
actually granted asylum, based on those that were given a 
credible fear hearing.
    Mr. Souder. So about one out of every five who gets the 
hearing is the best estimate that you have, because this is the 
most problematic, because the fact is, everybody else in the 
detention center has committed an unlawful act, meaning we are 
separating degrees of unlawful acts. Unless you, in fact, have 
a legitimate asylum question, you have committed a crime.
    Mr. Torres. That is correct, sir, both under the 
Immigration and Nationality Act, they are here--people are 
illegally here in the United States. They are present without 
status, or they have also committed a crime that could be 
punishable under federal code, under Title 8, USC 1325, for 
example, is the illegal entry.
    While that is not actually prosecuted very often, the 
majority of people we house in detention are for violations of 
the INA.
    Mr. Souder. Now, among the asylum seekers that--ironically, 
every member has stories about his district. And one of my 
cases is people--I have the largest population of people from 
Burma who are escaping persecution. In fact, 500 of the 800 in 
the United States who are Mon Shan, they are not all Burmese, 
many of them are persecuted by Burmese.
    For asylum seekers, if they come in and wind up in the 
detention facilities, what protections are in place for them?
    Mr. Torres. They are allowed to have their hearings. They 
are detained in a setting that is consistent with our 38 
national detention standards. And they have the same 
protections as other people that are in detention.
    As soon as, you know, the decision is made whether or not 
they are granted asylum, if they are granted asylum, then they 
are appropriately released. What they can also do is have a 
hearing, a bond redetermination hearing, before an immigration 
judge. So just because we have them in detention, for example, 
they are entitled to ask through their counselor or through 
filling out a form, but for our detention officers, they can 
ask the judge to have their bond redetermined.
    And if the judge decides to reduce the bond or set a bond 
or release them on their own recognizance, that would be up to 
the judge.
    Mr. Souder. Now, one of the problems here are people who 
are claiming asylum and don't really deserve asylum. And they 
are backlogging the cases for those who really do deserve 
asylum.
    Have you seen a decline? Because, clearly, the data that 
you are suggesting in both your written and your verbal suggest 
that it is a much shorter stay if you don't claim asylum. 
Expedited removal is doing that. If you claim asylum, you have 
a longer stay.
    Has that seemed to have reduced the number of people who 
are claiming asylum?
    Mr. Torres. I don't have those statistics handy. Those are 
kept by the Executive Office of Immigration Review. The latest 
statistics we have from them indicate that 62 percent of those 
that apply for asylum are denied relief.
    So, for example, if there were a frivolous claim, the logic 
is that the deterrence to frivolous claims for asylum is that 
you are going to be detained and then ultimately removed.
    Mr. Souder. Is there an expedited process, because in 
certain countries, clearly persecution exists at a higher level 
for certain subgroups than individuals who may be pursuing some 
kind of individual angle? Do you look at logical clusters of 
people who are persecuted as part of a subgroup?
    I gave the example of Burma, but even it could be in 
certain areas--although we are not dealing with Mexico here--
but historically, El Salvador, or Guatemala, other countries 
around the world where a subgroup--I have a huge population 
from Chad. It may be the largest population of people now 
coming in from the Darfurian conflict. I have 1,500 Bosnians 
that have come into Fort Wayne.
    Is there a different process when you know that a 
particular region or subgroup in a region is under heavy 
duress?
    Mr. Torres. Well, the process itself is managed by 
Citizenship and Immigration Services. And they have a separate 
asylum division, which is another agency apart of ICE. When 
people come into the United States illegally, if they make that 
claim, we are the entity that detains them, but that is a good 
question.
    And that is something in our regular meetings with 
Citizenship and Immigration Services I can pose to them and 
maybe even use as an initiative that maybe we want to try in 
certain areas. I am not sure exactly whether they do that or 
not.
    Mr. Souder. One last question. Do you think it would be 
helpful if we established or funded specifically as a line item 
additional language training for agents so that--it wouldn't 
necessarily be State Department standards, which is one of the 
difficult--as I have heard in Border Patrol questions before, 
is you don't need to speak State Department language standards.
    But if we gave actual incentives to your agents, financial 
incentives to learn additional things, because, yes, you can 
call up on the phone, get somebody to come in who may or may 
not get there in a timely fashion. Meanwhile, if there were, in 
fact, chemical, biological, other types of things, it is not 
clear we could even read the package.
    Mr. Torres. That is a very interesting proposal. One of the 
things that we have done within our agency is we have re-
implemented the Spanish-speaking criteria. It is a requirement 
now for all new officers and agents that we are hiring in the 
Detention and Removal Operations program, and they have to pass 
Spanish.
    But for languages other than Spanish, we rely on that 
language interpreter service. I think that we would be more 
than willing to sit down with your staff and exchange some of 
those ideas so we can have that proposed language reviewed and 
vetted accordingly.
    Mr. Souder. Thank you.
    Ms. Sanchez. May I ask you one other question, Mr. Torres, 
since you are just a wealth of information, isn't he? I 
represent a large Vietnamese population, the largest one 
outside of Vietnam in the world, actually.
    And I know that, in my county jail--let's say we have a 
criminal from Vietnam, and maybe he is a resident, and he 
commits a crime in the United States, he serves his time. Then 
we are supposed to deport him back to Vietnam. Vietnam doesn't 
take them back, so these people sit in my jail indefinitely, 5 
years, 10 years.
    Lots of them have been there, and we have never released 
them, so we don't want to release them because of the law. We 
don't want to release them back into society, but yet their 
home country won't take them back.
    So my question to you is, what do you do if you have 
somebody that is in one of your detainee centers and you want 
to deport them, but their home country doesn't take them back?
    Mr. Torres. Very good question, Madam Chairwoman. The 
distinction for people that we detain while they are going 
through their removal process, they may be detained for 
extended periods of time, if they elect to appeal any decision 
and use all their appellate rights, on up through district 
court, all the way to the Supreme Court.
    That could be as short as several months; if they take it 
all the way to the Supreme Court, it could be a couple of 
years. In a case of a criminal, for example, statutorily, we 
are mandated to detain that person in our custody and don't 
have the discretion to release them into the community.
    Once they have been ordered removed by an immigration 
judge--there is a current Supreme Court decision known as 
Zadvydas that requires us to review the detention of every 
person that we have this order to remove at 90-day intervals.
    For example, the first 90 days, unless we have some sort of 
reasonable foresee ability that we can remove that person to 
their home country, if we don't have that, we have to release 
them. That is by the Supreme Court decision, regardless of what 
crimes they committed in the United States, and how heinous 
those acts may have been.
    If we think that we have an opportunity to remove them to 
their home countries, we can detain them for another 90 days, 
with 180 days being the limit. In very few instances where a 
person is such a threat to the community, we may use the 
authority of our assistant secretary or secretary to request to 
detain that person longer than 180 days, but that is not done 
very often.
    So we take measures and ensure and implement steps that, 
when we do have to release a person like that, we place them on 
some sort of monitoring requirements, reporting requirements, 
possibly even an ankle bracelet, for example, so that we can 
try to take as many steps as possible to assure that that 
person won't commit another crime or pose a recidivist threat 
to the community.
    Ms. Sanchez. So let me get this straight. You have got 
somebody who committed a crime, and you have got them in your 
detention center because they have come across the border or 
what have you. And so they are ready for deportation. Their 
country doesn't take them back. You review it 90 days later; 
the country doesn't take them back. You have to release them?
    Mr. Torres. That is correct.
    Ms. Sanchez. Unless it is so--unless they are the Sam the 
Killer or whatever?
    Mr. Torres. That is right. That was a Supreme Court 
decision, and that is how we operate. So on the one side?
    Ms. Sanchez. And what kind of status do they have in the 
country then?
    Mr. Torres. They don't have status. They are released--
their status is, they have been ordered removed from the 
country. And so they are now back in the community, under some 
sort of reporting conditions, which are appropriate to what 
their status is, for example.
    Ms. Sanchez. So they have to report into somebody every 6 
months, let's say, still here in this country, have no status. 
So we have them sitting here in this country with no status, so 
they can't work. They can't go to school.
    Mr. Torres. That is correct.
    Ms. Sanchez. They are just sitting there, because their 
country won't take them back, but we don't want to keep them in 
jail.
    Mr. Torres. That is correct. And so what we do is, on the 
other side of our Detention and Removal Operations, we have a 
unit that works--it is called a travel document unit. It 
liaisons internationally with foreign governments, and we seek 
to obtain agreements where we can remove people. And in certain 
instances, the secretary of state has the authority to impose 
visa sanctions on a country that refuses to take back their 
foreign nationals.
    Ms. Sanchez. So if I happen to come from a country that 
doesn't take people back, in effect, I could be an illegal 
immigrant in the United States legally?
    Mr. Torres. You could also be a criminal illegal alien, 
yes.
    Mr. Souder. One question on that. If the crime is committed 
in the United States, they would have to serve the sentence of 
that crime?
    Mr. Torres. That is correct, sir. If they committed the 
crime here and were sentenced to 25 years in prison, for 
example, they will serve the 25 years in prison, and they would 
be transferred to us.
    Mr. Souder. And if the country wants to maintain its visa 
status--so it is presumably the problem I have seen in Salvador 
and Guatemala. We have sent more gang kids back, who basically 
weren't gang kids necessarily when they came to the U.S., got 
involved in U.S. gangs, we sent them back, and apparently they 
have police forces in Guatemala right now, partly because of 
the historic persecution of police forces, but they are 
overwhelmed now with the gang problem.
    But because they want to keep the visa applications, they 
would have a reciprocal agreement. So, really, the biggest 
problem here would be countries that don't currently--which 
probably are the highest terrorist risk countries, that don't 
currently have or worry about whether their people can have 
visas.
    Mr. Torres. And there are some countries?
    Mr. Souder. Like Burma, for Burma, for example, we have 
sanctions on Burma. So Burma has no incentive to take anybody 
back. That would be correct?
    Mr. Torres. Well, I don't know that they don't have an 
incentive, but with some countries, there is definitely less of 
an incentive.
    Ms. Sanchez. Vietnam. Vietnam, we have visas with them, but 
they don't take their people back if they are criminals.
    Mr. Souder. So my understanding is we could deny Vietnam 
the ability then to travel, but we haven't?
    Ms. Sanchez. But we haven't.
    Mr. Torres. Well, for example, if a person who was granted 
a visa after a certain period of time in Vietnam, for example--
I can't remember off the top of my head the specific year--they 
will take nationals back to their country if they were 
recognized after a certain year. Before that year, they will 
not issue a travel document for us to send that person back.
    Ms. Sanchez. Thank you, Mr. Torres. Thank you so much for 
your enlightening information. And we will let you step down, 
and we will ask our second panel to come on up.
    Mr. Torres. It has been my pleasure. Thank you.
    Ms. Sanchez. I would like to thank our second panel for 
being here. I would like to welcome the second panel of 
witnesses.
    Sorry, I was looking for your resumes.
    Our first witness, Mr. Richard Seiter, is executive vice 
president and chief corrections officer of Corrections 
Corporation of America, or CCA, a position that he held since 
January 2005. Previously, he served in a variety of roles with 
the Federal Bureau of Prisons, including serving as the 
assistant director for industries, education and training from 
1989 to 1993.
    He was also the director of the Ohio Department of 
Rehabilitation and Corrections from 1983 to 1988. And most 
recently, Mr. Seiter served as an associate professor in the 
Department of Sociology and Criminal Justice at Saint Louis 
University. He has authored two textbooks on corrections, 
``Corrections: An Introduction'' in 2005 and ``Correctional 
Administration: Integrating Theory and Practice'' in 2002.
    Our second witness is Michelle Brane, director of the 
Detention and Asylum Program at the Women's Commission for 
Refugee Women and Children. The organization's mission is to 
improve the lives of refugee women, children and youth. She is 
co-author of a report released last month entitled ``Locking Up 
Family Values: The Detention of Immigrant Families,'' which 
focuses on some of her organization's concerns regarding 
immigration detention facilities, particularly with respect to 
children.
    Our third witness is Christina Fiflis of the American Bar 
Association's Commission on Immigration. And she received her 
B.A. from Scripps College in Claremont, California, in 1978 and 
her J.D. from Georgetown University Law Center in 1981.
    She is licensed to practice law in the state of Colorado, 
where she also has an immigration law practice, and is admitted 
to the United States District Court to the District of Colorado 
and the United States Court of Appeals for the 10th Circuit. 
She was appointed to the ABA's Commission on Immigration in 
August.
    And our final witness, Mr. Michael Cutler, a fellow with 
the Center for Immigration Studies. The Center for Immigration 
Studies is the nation's think-tank devoted exclusively to 
research and policy analysis of the economic, social, 
demographic, fiscal and other impacts of immigration on the 
United States. Mr. Cutler retired in 2002 after a distinguished 
career with the Immigration and Naturalization Service, a 
career that lasted over 30 years, and including 26 years of 
those years as a special agent.
    And in 1991, he was promoted to the position of senior 
special agent and was assigned to the organized crime drug 
enforcement task force. Mr. Cutler has testified before 
Congress on issues relating to the enforcement of immigration, 
and, of course, he has appeared on numerous television and 
radio programs--we see you quite often--to discuss the 
enforcement of the immigration laws.
    And so, without objective, I would like to submit the 
witnesses' full statements into the record.
    And I now ask each witness to summarize his or her 
statement for 5 minutes, beginning with Mr. Seiter.

 STATEMENTS OF RICHARD P. SEITER, EXECUTIVE VICE PRESIDENT AND 
 CHIEF CORRECTIONS OFFICER, CORRECTIONS CORPORATION OF AMERICA

    Mr. Seiter. Thank you. And good morning, Chairwoman 
Sanchez, Ranking Member Souder. I am pleased to be here.
    My name is Rick Seiter. I am executive vice president and 
chief corrections officer of Corrections Corporation of 
America. I am pleased to be able to be here and honored to 
appear before the committee to share with you some of my 
perspective, based on 30 years of experience in the corrections 
and detention field.
    My written testimony describes the history of our company 
and our participation in ICE, and I would like to address some 
of the specific issues of that partnership.
    First, I want to emphasize that CCA does not set 
immigration policy regarding who should be detained and on 
grounds. That responsibility is clearly and appropriately 
invested with Congress and the administration.
    Currently, CCA has seven detention facilities throughout 
the country for which we have ICE as our primary or exclusive 
customer. CCA's trained professional detention staff is 
responsible for the care of nearly 6,000 individuals who have 
been detained by ICE.
    At these seven facilities, CCA works closely with ICE staff 
to ensure that our contracted facilities are meeting all 
applicable detention standards. These standards include ICE 
detention standards, as Director Torres talked about, 
applicable federal and state laws, as well as nongovernmental 
professional accreditation standards.
    CCA is routinely audited by ICE to ensure contractual 
compliance. And CCA's ICE facilities are frequently accessed by 
federal, state and local government officials, as well as 
immigration attorneys and advocates. In short, the level of 
oversight and scrutiny of these facilities is extensive and is 
welcomed.
    One of our ICE facilities is the T. Don Hutto Family 
Residential Facility in Taylor, Texas. This facility was 
contracted to support ICE in May 2006 as a major component of 
the effort to end the practice of ``catch and release,'' while 
preserving the unity of alien families as they await the 
outcome of their immigration hearings or return to their home 
countries.
    Since the center opened, we have worked closely with ICE to 
develop policies and procedures to address the unique mission 
of this facility. We are keenly aware of and sensitive to the 
special needs of the families that reside there and have taken 
significant steps to create the best possible environment for 
those families for the short time they are in our care.
    In that regard, we have made major renovations to the 
facility. Housing areas were modified to ensure privacy and 
allow families the opportunity to socialize and interact with 
one another. Doors to individual family living areas provide 
ample privacy; however, are not locked to maximize freedom of 
movement.
    Carpeting, homelike furnishings, plants, curtains, 
televisions and video games were added to housing units and 
other areas of the facility. Highchairs, play pens, and 
children's toys are provided. Outdoor recreational areas were 
modified to allow for soccer, basketball, baseball, and ping-
pong. There is an outdoor covered picnic area, two large 
playgrounds, and an indoor gymnasium supplied with toys and 
sports equipment available daily.
    Families live and eat meals together. We are also very 
proud of the 7-hour day of educational classes and recreation 
provided for school-aged children. As well, recreation is 
provided daily for non-school-aged children and their parents.
    All families are together before and after the school day. 
Our school is staffed with 11 teachers, a principal, and other 
education staff to provide age-appropriate instruction. Medical 
services for the center are provided by the United States 
Public Health Service, in accordance with ICE standards.
    Since its inception, CCA and ICE have worked closely 
together to create an environment suitable for families. From 
the questions to Director Torres, it is obvious that the 
subcommittee is very interested in the inspection process. I 
would like to also point out that ICE maintains 33 staff at the 
facility, including a senior-level officer in charge. And so, 
in reality, they do continuous inspections.
    We recognize and welcome this level of oversight for 
management of Hutto, as well as all of our other ICE facilities 
around the country. The Hutto Residential Center is a new and 
evolving program. We have learned from and made adjustments to 
the needs of this unique population.
    We are proud of the partnership and professionalism 
demonstrated by our staff and the ICE counterparts who work on 
a daily basis in all of our facilities to meet the agency's 
critical mission. We value the confidence that ICE has placed 
in us for nearly 25 years and strongly believe that our work 
demonstrates the best qualities in public-private partnerships.
    I believe we provide ICE the flexibility to respond quickly 
to changing developments and to meet its increasing demand in a 
safe, caring, and cost-effective manner.
    In conclusion, I would invite all members of the 
subcommittee to visit Hutto or any of our other CCA facilities 
to see our operations first-hand.
    I appreciate the opportunity to appear before you today, 
and I look forward to responding to any questions that you 
have.
    [The statement of Mr. Seiter follows:]

                Prepared Statement of Richard P. Seiter

                             March 15, 2007

    Good morning, Chairwoman Sanchez, Ranking Member Souder and members 
of the Subcommittee. My name is Rick Seiter, and I am Executive Vice 
President and Chief Corrections Officer of Corrections Corporation of 
America. I am honored to be here today to testify on behalf of CCA, but 
I am also pleased to be able to share with you my perspective based 
upon 30 years of experience in the corrections and detention field. 
Prior to joining CCA in 2005, I spent most of my career in public 
service--working for 20 years with the Federal Bureau of Prisons in a 
variety of roles including warden at two facilities, and as Assistant 
Director of the Bureau's Industries, Education and Training Division 
during which time I served as Chief Operating Officer of Federal Prison 
Industries. Additionally, I was also the Director of the Ohio 
Department of Rehabilitation and Correction--a cabinet level position 
overseeing the operation of 18 facilities, a staff of 8,000 employees 
and an annual budget of $400 million. I further served as Associate 
Professor in the Department of Sociology and Criminal Justice at St. 
Louis University.
    As Chief Corrections Officer for CCA, I oversee the operation of 
all 65 facilities managed by the company and its 16,000 employees. As 
background for you, CCA is the sixth largest corrections and detention 
system in the country, public or private. We manage more than 70,000 
inmates and detainees and serve nearly half of all states, local 
governments and three federal agencies including the Federal Bureau of 
Prisons, ICE and the U.S. Marshals Service.
    For nearly 25 years, Corrections Corporation of America has 
provided safe, secure and humane detention services on behalf of the 
Department of Homeland Security's Bureau of Immigration and Customs 
Enforcement. In fact, our first contract as a company was with this 
agency (then INS) in 1983 at a CCA facility in Houston, Texas. That 
contract for the Houston Processing Center remains in place today--an 
example of the quality of service and reliability our company provides 
to our government partners.
    In my testimony I would like to provide members of the Subcommittee 
with an overview of our role in the immigration enforcement process. 
With that in mind, it is important for members to remember that CCA 
does not set immigration policy regarding who should be detained and on 
what grounds. That is a role that is clearly and appropriately vested 
with Congress and the Administration.
    Our mission as a company and as a service provider to ICE is to 
meet the agency's needs by safely, securely, and humanely managing a 
portion of their detention population as they await immigration 
adjudication and deportation proceedings in accordance with the law and 
ICE standards. Currently, CCA has seven detention facilities throughout 
the country for which the primary or exclusive customer is ICE. CCA's 
trained professional detention staff is responsible for the care of 
nearly 6,000 individuals who have been detained by ICE.
    At these seven facilities, CCA works closely with ICE staff to 
ensure that our contracted facilities are meeting all applicable 
detention standards. These standards include ICE detention standards, 
applicable federal and state laws, as well as professional 
accreditation standards such as those of the American Correctional 
Association (ACA) and the National Commission on Correctional 
Healthcare (NCCHC). CCA is routinely audited by ICE to ensure 
contractual compliance. In fact, a typical facility that we operate for 
ICE has between 30 and 80 ICE staff on site depending upon the size of 
the facility. CCA's ICE-contracted facilities are frequently accessed 
by federal, state and local government officials as well as immigration 
attorneys and advocates. In short, the level of oversight and scrutiny 
of these facilities is extensive and is welcomed.
    An example of this oversight and accountability can be found at the 
T. Don Hutto Family Residential Facility in Taylor, Texas. This 
facility was contracted to support ICE in May 2006 as a major component 
of the effort to end the practice of ``catch and release.'' It is our 
understanding that the Department of Homeland Security believes that 
this facility provides an effective and humane alternative to maintain 
the unity of alien families as they await the outcome of their 
immigration hearings or the return to their home countries.
    Since the facility opened in May 2006, we have worked closely with 
ICE to develop policies and procedures to address the unique mission of 
this facility. We are keenly aware of and sensitive to the special 
needs of the families that reside there and have taken significant 
steps to create the best possible environment for these families for 
the short time they are in our care. In that regard, we made major 
renovations to the facility, and many security measures, such as 
concertina wire atop perimeter fencing, have been removed. Housing 
areas were modified to ensure privacy and allow families the 
opportunity to socialize and interact with one another. Doors to 
individual family living areas provide ample privacy; however, as 
appropriate for the unique mission of this facility, these doors are 
not locked to maximize freedom of movement. Carpeting, homelike 
furnishings, plants, curtains, televisions and video games were added 
to housing units and other areas of the facility. Highchairs, play 
pens, and children's toys are provided. Outdoor recreational areas were 
modified to allow for soccer, basketball, baseball, and ping-pong. 
There is an outdoor covered picnic area, two large playgrounds and an 
indoor gymnasium supplied with toys and sports equipment available 
daily.
    Families live and eat meals together. We are very proud of the 
seven-hour day of educational classes and recreation provided for 
school-aged children. As well, recreation is provided daily for adults 
and children 4 years old and under. All families are together before 
and after school. Our school is staffed by eleven teachers, a 
principal, and other educational staff and is operated year round to 
provide age-appropriate instruction. Core curriculum instruction is 
provided for students in English language arts, math, social studies 
and science. Additional instruction is provided with enhanced 
curriculum subjects such as computer training, music, art and cultural 
activities as well as physical education. Medical services for the 
center are provided by the U.S. Public Health Service in accordance 
with ICE standards.
    Since its inception, CCA and ICE have worked closely together to 
create an environment suitable for families. All activities of the 
operation have been worked through ICE staff at the facility, at the 
San Antonio field office, and at Washington headquarters. In fact, ICE 
maintains 33 staff at the facility on a daily basis including a senior-
level Officer in Charge and deportation officers, immigration agents, 
and administrative staff that oversee removal proceedings and monitor 
the contract. In addition, 25 Public Health Service staff are at Hutto 
to provide medical services to residents.
    We recognize and welcome this level of oversight of our management 
of Hutto as well as our other ICE-dedicated facilities around the 
country. The Hutto Residential Center is a new and evolving program. We 
have learned and made adjustments over the past few months to meet the 
needs of this unique population. We are proud of the partnership and 
professionalism demonstrated by our staff and their ICE counterparts 
who work on a daily basis in all of our facilities to meet the agency's 
critical mission. We value the confidence that ICE has placed in us for 
nearly 25 years and strongly believe that our work exemplifies the best 
qualities in public-private partnerships. I believe we provide ICE the 
flexibility to respond quickly to changing developments and to meet its 
increasing demands in a safe, humane, and cost-effective manner.
    In conclusion, I would invite members of the Committee to visit the 
Hutto facility and any other CCA facility to see operations first hand. 
I appreciate the opportunity to appear before you today and look 
forward to responding to any questions you might have.

    Ms. Sanchez. Thank you, Mr. Seiter. Thank you for your 
testimony.
    I now recognize Ms. Brane to summarize her statement for 5 
minutes.

  STATEMENT OF MICHELLE BRANE DIRECTOR, DETENTION AND ASYLUM 
   PROGRAM, WOMEN'S COMMISSION FOR REFUGEE WOMEN AND CHILDREN

    Ms. Brane. Thank you. Thank you, Chairwoman Sanchez and 
Ranking Member Souder.
    As you mentioned already, my organization, along with 
Lutheran Immigration and Refugee Services, conducted a study 
and issued a report on the use of family detention by ICE.
    The Immigration and Customs Enforcement currently has the 
capacity to house up to 600 individual family members. This is 
a drastic change from what the situation was before the opening 
of the Hutto facility in 2006.
    DHS has presented this shift in policy as a response to 
their end of ``catch and release,'' but in reality the 
situation is a little more complex than that. And, in part, the 
opening of the Hutto facility was an effort to be in compliance 
with congressional directives.
    Before the opening of the Hutto facility, the majority of 
children and families--I am sorry, parents with their 
children--were either released as part of the ``catch and 
release'' program or separated. And the adults would be sent to 
an adult facility. The children, some as young as 6 months and 
nursing, would be sent to the Office of Refugee Resettlement, 
who is in charge of unaccompanied minors.
    Congress discovered this and took immediate action. In 
report language of the 2006 appropriations bill, Congress 
articulated concern over the ongoing separation of parents from 
the children during DHS detention. In House report language, 
the House of Representatives ``encourages ICE to work with 
reputable nonprofit organizations to consider allowing family 
units to participate in the intensive supervised appearance 
program where appropriate or, if detention is necessary, to 
house these families together in non-penal, homelike 
environments until the conclusion of their immigration 
proceedings.''
    Such congressional directives were intended to preserve and 
protect the role of the family as a fundamental unit of our 
society. However, ICE chose to develop a penal detention model 
for the detention of families with no criminal backgrounds that 
is fundamentally anti-family and, frankly, un-American.
    Let me tell you a little bit about the conditions we found 
at Hutto. And I will start by telling a story--some pieces of 
stories that some of the detainees told us.
    Dominica--and I have changed her name, because her case is 
still in proceedings--was pregnant when she arrived at Hutto. 
And she arrived with two children, age 3 and 9. She told us 
that she slept together with her two children in the bottom 
bunk of the prison cell, because they were afraid at night, and 
she didn't want them separated from her.
    When I asked about discipline procedures, her 9-year-old 
daughter told me that, if she didn't behave, she would be sent 
away and separated from her mother.
    Threats of separation are commonly used at these facilities 
as a way of encouraging compliance, and very often what we 
found was that the punishments imposed on these children--most 
of them actually seem to be under the age of 12--were 
disproportionate to the activities. And very often, it was 
regular childlike activities of running, being too loud, or 
jumping on furniture.
    Another woman, Carmen, who is also pregnant and arrived 
with her 5-month-old child, also an asylum seeker and a victim 
of trafficking, told us that she received no prenatal care for 
the several initial months that she was held at the facility.
    After being at the facility for 2 months, she fainted and 
was taken to the hospital. She was told that she had a kidney 
infection, but was given no antibiotics. She was told to drink 
more water. When she was 7 months pregnant, she finally 
received her first prenatal exam.
    Perhaps even more disturbing is the situation of her 
daughter. Five months old when she arrived at the facility, 
Lilly actually lost several pounds in the time that she was 
detained at Hutto. And while for adults or you and I, losing a 
few pounds might not be of concern, it might even be welcome, 
for a child under the age of 1, it is both dangerous and 
disturbing.
    This should not be happening in the United States, and it 
especially should not be happening for children who are in U.S. 
custody.
    Hutto is a former correctional facility. It still looks 
very much like a prison. And while changes have been made, such 
as paint and carpeting and disengaging the locks of prison 
cells, families still sleep in prison cells. Children as young 
as 6 years old are often separated from their parents at night.
    And while the doors to the cells are not locked, because 
the locks have been disengaged, they are, in fact, not allowed 
to leave, really, because there is a laser beam that trips if 
the doors open.
    Children at Hutto when we visited received only 1 hour of 
education a day, although I acknowledge that this has been 
rectified since our visit. Families receive no more than 20 
minutes to go through a cafeteria line, get their food, seat 
their children, feed their children, and feed themselves. Many 
families, many mothers, in particular, express dismay that this 
was just not enough time to feed their children and themselves.
    Families at Hutto receive only 1 hour of recreation, 5 days 
a week. And many of the children told us that they not been 
outside in months, even though there is quite a nice playground 
just outside of the gym area.
    And access to counsel is limited, primarily because of the 
remote location and lack of attorneys available to provide the 
representation that they need.
    Some changes have been made since media attention has been 
drawn to the Hutto facility. As mentioned earlier, children now 
receive more than an hour of education. They receive 7 hours of 
education a day.
    The razor wires have been removed. Children are no longer 
required to wear uniforms as they were, at least that is what I 
have been told. I don't know if that is true.
    And there have been some changes made to the cafeteria. 
However, these changes remain cosmetic and do not address the 
fundamental issue that the system of family detention is 
overwhelmingly inappropriate for families and that the 
Department of Homeland Security has failed to consider more 
appropriate, effective, and cost-efficient alternatives.
    The Department of Homeland Security has presented the 
dilemma of ``catch and release'' and what to do with these 
families as being an alternative between ``catch and release,'' 
splitting families and separating them, or detaining them at 
places like Hutto. We acknowledge that appearance rates under 
the former ``catch and release'' program were problematic, and 
we also acknowledge some of the concerns expressed about 
renting and trafficking of young children.
    However, measures have been taken and further measures 
could be taken to address these issues and still remain a 
humane system.
    Currently, ICE now fingerprints all children who come 
through, who are apprehended and come through their care. In 
doing this, the fingerprints are now entered into a database so 
that, if any child comes through more than once, they would be 
identified as the child that is most likely being rented or 
trafficked through.
    In addition, more rigorous screening policies could be 
installed, both with Border Patrol and in the initial ICE 
screenings, to determine family relationships. Detention is not 
necessary or a practical way to address the issue of 
trafficking.
    With respect to ``catch and release,'' the current approach 
fails to take into consideration both Congress's directive to 
explore alternatives and the reality that alternatives already 
exist and pilots have already been used. Such alternatives are 
less costly, while ensuring that immigrants in proceedings 
appear at their hearings and that our immigration laws are 
enforced.
    The alternatives range from parole to a program currently 
piloted that was described earlier called the intensive 
supervised appearance program. Congress, actually in 2006, 
appropriated $43 million to the Department of Homeland Security 
for alternatives to detention and lauded the program.
    And my testimony includes more detailed language on this. 
But within that language and from DHS reports to Congress, the 
appearance rates for people within the ISAP program is at 94 
percent. So they are effective in--appearance.
    The cost is far less. At $22 a night, the cost is far less 
than the average $95 a night for traditional detention. And for 
family detention, the average daily cost per individual is more 
like $200 a day.
    The Corrections Corporation of America receives $2.8 
million per month to run the Hutto facility. This is based on a 
full capacity of 512, and they receive this although the 
facility has not been at capacity since its opening.
    At the Berks facility, the other family facility, we met 
with a woman who had been detained with her 15-year-old son for 
9 months. She was detained after going to pick her son up from 
ORR custody, where he had been apprehended after crossing the 
border to join her, and she thought that she was only going to 
pick him up and then return home, so she left her 1-year-old 
U.S. citizen child at home with a neighbor, thinking she would 
return, you know, the next day or within the day.
    Instead, she was detained and has been held at Berks 
without seeing her baby for 9 months.
    A program such as ISAP or another program which I will 
describe shortly would be a much more appropriate, cost-
effective and efficient way of dealing with this issue. 
Nongovernmental organizations have also contracted with 
immigration services--
    [The statement of Ms. Brane follows:]

                  Prepared Statement of Michelle Brane

                             March 15, 2007

    The U.S. Department of Homeland Security (DHS) arrests over 1.6 
million undocumented people each year, of which over 230,000 are 
subsequently held in administrative immigration detention.\1\ The 
conditions and terms of immigration detention in the U.S. are 
equivalent to prison, where freedom of movement is restricted, and 
detainees wear prison uniforms. This is the case even though under U.S. 
law an immigration violation is a civil offense, not a crime. 
Nevertheless, the U.S. uses facilities owned and operated by 
Immigration and Customs Enforcement (ICE), the enforcement bureau 
within DHS, in addition to over 300 local and county jails from which 
ICE rents beds on a reimbursable basis.\2\ Only half of these 
immigrants held in detention have actual criminal records, yet more 
than half of them are held in jails where non-criminal immigrants are 
mixed with the prison's criminal population.\3\ In the case of families 
held toghether, none have a criminal conviction or background, and over 
80% are held in a former prison where freedom of movement is restricted 
and children and their parents sleep in prison cells.
---------------------------------------------------------------------------
    \1\ ``Detention and Removal of Illegal Aliens,'' Office of 
Inspector General, Department of Homeland Security, April 2006; 
www.ice.gov, August 7, 2006; ``Detention and Removal Operations: 
Alternatives to Detention,'' ICE Fact Sheet dated July 14, 2004, http:/
/www.ice.gove/pi/news/factsheets/06170detFS2.htm, last modified March 
17, 2006.
    \2\ ``Treatment of Immigrant Detainees Housed at Immigration and 
Customs Enforcement Facilities,'' Office of Inspector General, 
Department of Homeland Security, December 2006, pp 2, available at 
http://www.dhs.gov/xoig/assets/mgmtrpts/OIG_07-01_Dec06.pdf.
    \3\ ``Critics Decry Immigrant Detention Push,'' Associated Press, 
June 25, 2006, stating that over 57% of ICE detainees are held in local 
and county jails.
---------------------------------------------------------------------------
    Dominica, a pregnant woman detained at Hutto with her two 
daughters, pointed out the impact that this penal environment has on a 
families' health and well-being, telling us:
    At night we all sleep together in the bottom bunk of our cell 
because we are afraid. As my daughter Nelly says, ``If you aren't good, 
they will take you away from your mom.''
    I am almost seven months pregnant. The doctor has told me for 
months that I need to eat more. But I can't. The food doesn't work here 
and I can't eat it. We don't get much time for meals--only a maximum of 
20 minutes--and I have to feed my children first. They do not eat 
quickly. We are not allowed to take food out of the cafeteria, even if 
we haven't had time to finish. Something like bread or an apple--they 
take it away. It is so sad to throw something like that away because we 
couldn't eat it fast enough.
    My mother has legal status in the United States. I am applying for 
asylum and am eligible for parole. But I requested parole over two 
months ago and I still haven't received a response. I'm afraid that I 
will have my baby in jail.\4\
---------------------------------------------------------------------------
    \4\ Interview conducted by Michelle Brane, Don T, Hutto Residential 
Center, December 4, 2006, the name has been changed to protect the 
individual while her case is pending.
---------------------------------------------------------------------------
    Even without criminal convictions, immigrants may remain detained 
for months or even years as they go through procedures to decide 
whether they are eligible to stay in the U.S. or, after being issued a 
final order of removal, as the U.S. arranges for their deportation. The 
Department of Homeland Security has increasingly failed to follow its 
own policy directives for paroling these asylum seekers.\5\ In 
addition, several recent studies and reports have demonstrated that the 
Department has failed to comply with its own detention standards at 
these facilities. The recent report from the Department of Homeland 
Security Office of the Inspector General found violations of the 
Immigration and Customs Enforcement's own Detention standards at all 
five adult facilities it visited, including failure to provide timely 
and responsive medical care and a safe and appropriate environment.\6\
---------------------------------------------------------------------------
    \5\ Asylum-seekers are technically eligible for parole. (see: 
Memorandum from Office of INS Deputy Commissioner, ``Implementation of 
Expedited Removal,'' March 31, 1997, reprinted in 74 Interpreter 
Releases (April 21, 1997). Sec. 212(d)(5)(A) reads ``The Attorney 
General may, except as provided in subparagraph (B) or in section 
214(f), in his discretion parole into the United States temporarily 
under such conditions as he may prescribe only on a case-by-case basis 
for urgent humanitarian reasons or significant public benefit any alien 
applying for admission to the United States, but such parole of such 
alien shall not be regarded as an admission of the alien and when the 
purposes of such parole shall, in the opinion of the Attorney General, 
have been served the alien shall forthwith return or be returned to the 
custody from which he was paroled and thereafter his case shall 
continue to be dealt with in the same manner as that of any other 
applicant for admission to the United States.'') Official DHS policy 
tends to favor their release so long as their identity has been 
verified, they have established a credible fear of return, demonstrated 
they have community ties, and pose no risk to national security. 
However, parole release rates for asylum seekers vary widely depending 
upon where in the country the individual is detained, ranging from 
districts that have rather liberal parole policies to districts that 
parole virtually no one. For example, in FY 2003, only 0.5% of asylum 
seekers subject to expedited removal were released in the New Orleans 
district prior to a decision on their case. By contrast, during the 
same year, in Harlingen, Texas 98% of asylum seekers were released on 
parole. Despite these dramatic inconsistencies, DHS has not promulgated 
regulations to promote a consistent implementation of parole criteria. 
The authority to grant parole rests with ICE, the same authority that 
detains asylum seekers and there is no independent review of parole 
decisions, not even by an immigration judge. (See U.S. Commission on 
International Religious Freedom, Report on Asylum Seekers in Expedited 
Removal, (Washington, D.C., February 8, 2005))
    \6\ Department of Homeland Security Office of the Inspector 
General, Treatment of Immigration Detainees Housed at Immigration and 
Customs Enforcement Facilities, Report No. OIC-07-01, December 2006. p. 
1-2.
---------------------------------------------------------------------------
    Rebecca, detained at Hutto with her three sons, underscored the 
reality of these health concerns, stating:
    My children and I were sick a lot but we didn't receive good 
medical care. Mostly the guards told us not to bother them with sick 
requests. But sometimes I would try anyway. My children all had a skin 
infection but I couldn't get any medicine for them until they began to 
bleed from the rash. My son vomited frequently, but when I asked for 
medical attention the staff told me that they would need to see vomit 
to believe that he was sick. Another time I had uterine pain, and I 
went to see the nurse. The nurse told me that she wasn't allowed to 
prescribe medicine and put me on the list of detainees who needed to 
see the doctor. But I had to wait for the doctor to be called in on an 
emergency. The doctor doesn't have time to see everybody because he's 
only there one day a week. Finally, more than a week later, the doctor 
came for an emergency call in the middle of the night, and the guards 
woke my children and me up at 3:00 am and took us to see him.\7\
---------------------------------------------------------------------------
    \7\ Interview conducted by Emily Butera, Don T, Austin, Texas, 
December 5, 2006, the name has been changed to protect the individual 
while her case is pending.
---------------------------------------------------------------------------
    For all immigrant detainees, ICE reported an average stay of 64 
days in 2003 (32 percent for 90 days or longer).\8\ By contrast, 
asylum-seekers who were eventually granted asylum spent an average of 
10 months in detention, with the longest period being 3.5 years.\9\ 
Some individuals who have final orders of removal, such as those from 
countries with whom the U.S. does not have diplomatic relations or 
those from countries that refuse to accept the return of their own 
nationals, may languish in detention indefinitely.\10\ At the Berks 
Family Shelter in Pennsylvania we met with a woman asylum seeker and 
her three young daughters who had been detained for more than two 
years.
---------------------------------------------------------------------------
    \8\ US Detention of Asylum Seekers and Human Rights, By Bill 
Frelick, Amnesty International USA, March 1, 2005, http://
www.migrationinformation.org/Feature/display.cfm?id=296
    \9\ Id. citing From Persecution to Prison: The Health Consequences 
of Detention for Asylum Seekers. Boston: PHR and the Bellevue/NYU 
Program for Survivors of Torture, 2003.)
    \10\ Zadvydas v. Davis, 533 U.S. 678 (2001), held that the US does 
not have the power to hold non-citizens indefinitely in these 
situations, required a case-by-case basis review for supervised release 
of detainees within a reasonable period after the non-citizens are 
ordered removed. Unfortunately, these reviews mandated by Zadvydas have 
never operated effectively and most detainees do not receive timely 
custody reviews and fewer are released as a result of these 
determinations. In a series of reports, CLINIC tracked these review 
programs and found them to be empty promises for most indefinite 
detainees. For more information see http://www.cliniclegal.org/
Programs/IndefiniteDetainees.html.
---------------------------------------------------------------------------
    Unless other reasons exist, such as danger to the community or 
threat to national security, detention is an inefficient solution for 
asylum seekers or individuals for whom removal is not a possibility. 
For such situations, where detention does not meet the ends for which 
it is intended, the individual should either be released on parole or 
to an alternative to detention program so that detention space is used 
in an effective and humane manner. DHS has systems in place to 
facilitate this, but continues to expand detention rather than utilize 
these other demonstrably workable options.
    On any given day the U.S. government has the capacity to detain 
over 600 men, women and children apprehended as family units along the 
U.S. border and within the interior of the country. The detention of 
families expanded dramatically in 2006 with the opening of the new 512-
bed T. Don Hutto Residential Center. This facility is owned and 
operated by the Corrections Corporation of America (CCA), a private 
company that is the founder of the private corrections industry and 
owns and operates correctional facilities across the country. The Hutto 
facility has been at the center of a flurry of media reports 
criticizing the harsh treatment of families, and in particular of 
children.\11\
---------------------------------------------------------------------------
    \11\ See Sylvia Moren, Detention Facility for Immigrants 
Criticized, Organizations Laud DHS Effort to Keep Families Together but 
Call Center a `Prison-Like Institution, Washington Post February 22, 
2007, p A03; Lisa Ogle, Williamson orders more schooling for detainee 
kids, In renewing jail contract, court says Taylor facility must follow 
state and federal education guidelines, American Statesman, January 31, 
2007; Don't punish children for acting their age. Our Opinion: 
Mistreatment of Families in Immigration Prisons Must End, The Miami 
Herald, Editorial, March 7, 2007; Hernan Rozemberg, Center that houses 
detained families scrutinized, San Antonio Express News, February 10, 
2007; Paul Meyer, Media gets look at immigrant center, The Dallas 
Morning News, February 10, 2007; Nicole Gaouette and Miguel Bustillo, 
Immigration's net binds children too, Los Angeles Times, February 10, 
2007; Ralph Blumenthal, U.S. Gives Tour of Family Detention Center That 
Critics Liken to a Prison New York Times, February 10, 2007; and over 
200 other media outlets.
---------------------------------------------------------------------------
    The recent increase in family detention represents a major shift in 
the U.S. government's treatment of families in immigration proceedings. 
The Department of Homeland Security has presented this shift as the end 
of ``Catch and Release,'' but the situation is more complex. This one 
size fits all approach to deterring by detaining has unintended 
consequences, including creating a situation in which the US government 
is violating its own standards for care and custody, as well as its 
obligations under international law. In addition, this emerging 
preference for family detention is an effort to comply with a 
Congressional directive to preserve family unity, but the policies and 
procedures for family detention in their current guise are effectively 
undermining Congress's intent. Prior to the opening of Hutto, the 
majority of families were either released together from detention or 
separated from each other and detained individually. Children were 
placed in the custody of the Office of Refugee Resettlement (ORR) 
Division for Unaccompanied Children's Services, and parents were 
detained in adult facilities.
    Congress discovered this and took immediate action to rectify the 
situation, in keeping with America's tradition of promoting family 
values. In the report language of the 2006 appropriations bill Congress 
articulated concern over the on-going separation of parents from their 
children, some as young as nursing infants, during DHS detention. In 
S.Rept. 109-273 (2006), the Senate ``directs ICE to submit a report by 
February 8, 2007, assessing the impact of the Hutto Family Center in 
Williamston, Texas, on the number of families required to be separated, 
and providing updated forecasts of family detention space needs for the 
next 2 years.'' In H.Rept. 109-476 (2006), the House of Representatives 
``encourages ICE to work with reputable non-profit organizations to 
consider allowing family units to participate in the Intensive 
Supervision Appearance Program, where appropriate, or, if detention is 
necessary, to house these families together in non-penal, homelike 
environments until the conclusion of their immigration proceedings.''
    Such Congressional directives were intended to preserve and protect 
the role of the family as the fundamental unit in our society. However, 
ICE chose to develop a penal detention model for the detention of 
families with no criminal backgrounds, that is fundamentally anti-
family and un-American.
    This Committee, therefore, should insist that DHS submit its report 
to Congress as mandated by Congress for February 8, 2007 concerning 
family detention. Congress should also insist that DHS articulate the 
specific steps it will take to work with non-profit organizations to 
facilitate family participation in alternatives to detention such as 
the ISAP program and housing in non-penal, homelike environments.\12\
---------------------------------------------------------------------------
    \12\ A homelike setting is not akin the ``Hutto Family Center'', a 
euphemism, since ``the Hutto Family Center'' is a private prison 
operated for profit which houses over 500 members of family units with 
parents and children in prison uniforms at any given time.
---------------------------------------------------------------------------
    Lutheran Immigration and Refugee Service and the Women's Commission 
for Refugee Women and Children visited both the T. Don Hutto 
Residential Center and the Berks Family Shelter Care Facility in the 
period between October 2006 and January 2007 and talked with detained 
families as well as former detainees. What we found was disturbing:
        <bullet> Hutto is a former criminal facility that still looks 
        and feels like a prison, complete with razor wire and prison 
        cells.
        <bullet> Some families with young children have been detained 
        in these facilities for up to two years.
        <bullet> The majority of children detained in these facilities 
        appeared to be under the age of 12.
        <bullet> At night, children as young as six are separated from 
        their parents.
        <bullet> Separation and threats of separation were used as 
        disciplinary tools.
        <bullet> People in detention displayed widespread and obvious 
        psychological trauma. Every woman we spoke with in a private 
        setting cried.
        <bullet> At Hutto pregnant women received inadequate prenatal 
        care.
        <bullet> Children detained at Hutto received one hour of 
        schooling per day.
        <bullet> Families in Hutto received no more than twenty minutes 
        to go through the cafeteria line and feed their children and 
        themselves. Children were frequently sick from the food and 
        losing weight.
        <bullet> Families in Hutto received extremely limited indoor 
        and outdoor recreation time (only one hour per day, five days a 
        week) and children did not have any soft toys.
        <bullet> Access to Counsel is extremely limited due to the 
        remote location.
    Some changes have been made since media attention and our report 
``Locking Up Family Values: The Detention of Immigrant Families'' \13\ 
raised questions about the Hutto facility in particular. Children at 
Hutto now receive more than one hour of recreation five days a week, 
they receive 8 hours of education a day, razor wire has been removed 
from the perimeter of the facility, children are no longer required to 
wear uniforms, hair conditioner is now provided free of charge, and 
accommodations have been made in the cafeteria including baked potato 
instead of mashed and a spice bar. However, these changes are cosmetic 
and do not address the fundamental issue that the system of family 
detention is overwhelmingly inappropriate for families and that the 
Department of Homeland Security has failed to consider more 
appropriate, effective and cost efficient alternatives. Immigration and 
Customs Enforcement has initiated discussions to develop a set of 
standards for these facilities, but thus far there has not been willing 
to discuss an end to family detention or the development of a non-
penal, homelike model. Yet the current system of family detention, 
which relies on a prison model, is not appropriate or efficient for 
these reasons:
---------------------------------------------------------------------------
    \13\ Women's Commission for Refugee Women and Children and Lutheran 
Immigration and Refugee Service, Locking Up Family Values: The 
Detention of Immigrant Families, New York, February 2007, (available at 
www. womenscommission.org)
---------------------------------------------------------------------------
        <bullet> The model strips parents of their role as arbiter and 
        architect of the family unit.
        <bullet> It places families in settings modeled on the criminal 
        justice system.
        <bullet> There are no licensing requirements for family 
        detention facilities because there is no precedent for family 
        detention in the United States.
        <bullet> There are no standards for family detention, but both 
        facilities violated the 1996 Flores v. Reno settlement 
        agreement outlining standards for children and Immigration and 
        Customs Enforcement Detention Standards.\14\
---------------------------------------------------------------------------
    \14\ Stipulated Settlement Agreement, Flores v Reno, Case No CV85-
4554-RJK (C.D. Cal. 1996) and U.S. Immigration and Customs Enforcement, 
Detention Operations Manual. http://www.ice.gov/partners/dro/opsmanual/
index.htm.
---------------------------------------------------------------------------
    In the Homeland Security Act of 2002 (HSA), Pub L. No. 107-296 S. 
49, 116 Stat. 2153 (2002), Congress transferred the responsibilities 
for care, custody and placement of unaccompanied children from Legacy 
Immigration and Naturalization Service to the ORR, acknowledging that 
the INS had a poor track record in caring for children over the last 
two decades. The INS suffered from a fundamental conflict of interest 
while acting as police officer, prosecutor and guardian of the children 
at the same time. Additionally, the INS typically prioritized law 
enforcement considerations over child welfare considerations in 
violation of the Flores Settlement. For example, the INS placed one 
third of unaccompanied children, including those children with very 
minor behavioral problems and those lacking any serious physical 
threat, in secure detention juvenile jails due to lack of bed space in 
shelter facilities.
    Neither of the family detention facilities currently in use 
provides an acceptable model for addressing the reality that there are 
families in our immigration system. Although there is precedent in the 
adult detention system for the use of alternatives to detention and 
other pre-hearing release systems,\15\ The Department of Homeland 
Security has unfortunately made no effort to expand these programs to 
include families.
---------------------------------------------------------------------------
    \15\ <SUP>See</SUP> Appendix</SUP> D,</SUP> ``UNHCR</SUP> Report</SUP> 
on</SUP> Alternatives</SUP> to</SUP> Detention</SUP> of</SUP> Asylum</SUP> 
Seekers</SUP> and</SUP> Refugees.''
---------------------------------------------------------------------------
    </SUP>Based upon these findings, our report recommends the 
following systemic changes to the U.S. government?s treatment of 
families in immigration proceedings:
        <bullet> Discontinue the detention of families in prison-like 
        institutions.
        <bullet> Parole asylum seekers in accordance with international 
        standards and ICE's own policy guidelines.
        <bullet> Expand parole and release options for apprehended 
        families.
        <bullet> Implement alternatives to detention for families not 
        eligible for parole or release.
        <bullet> House families not eligible for parole or release in 
        appropriate, nonpenal, homelike facilities.
        <bullet> Expand public-private partnerships to provide legal 
        information and pro bono legal access for all detained 
        families, and to implement alternative programs.
    The Department of Homeland Security has presented the dilemma of 
what to do with these families as a choice between catch and release, 
splitting families, or detaining them in facilities like Hutto. We 
acknowledge that the appearance rates under ``catch and Release'' were 
problematic. We also acknowledge DHS's concerns regarding trafficking 
and cases in which prospective migrants would ``rent'' children to 
accompany them on the border crossing, thereby ensuring that they would 
be released on their own recognizance should they be caught.\16\ 
However, the concerns regarding trafficking can be addressed through 
more rigorous screening of family relationships and are already being 
addressed through ICE's new policy of fingerprinting everyone who is 
apprehended--including children--and entering them into a database. 
With this new procedure, any child who comes through more than once 
with a different adult will be identified. This practice both protects 
children from trafficking and serves as a deterrent to traffickers. The 
detention of families is not necessary or helpful in addressing 
trafficking concerns. The current approach fails to take into 
consideration both Congress's directive to explore alternatives and the 
reality that alternatives exist. Such alternatives are less costly to 
the taxpayer while ensuring that immigrants in proceedings appear for 
their hearings.
---------------------------------------------------------------------------
    \16\ <SUP>Department</SUP> of</SUP> Homeland</SUP> Security</SUP> 
Immigration</SUP> and</SUP> Customs</SUP> Enforcement,</SUP> ``DHS</SUP> 
Closes</SUP> Loopholes</SUP> by</SUP> Expanding</SUP> Expedited</SUP> 
Removal</SUP> to</SUP> Cover</SUP> Illegal</SUP> Alien</SUP> 
Families,''</SUP> news</SUP> release,</SUP> May</SUP> 15,</SUP> 2006,</SUP> 
http://www.ice.gov/pi/news/newsreleases/articles/060516dc.htm.
---------------------------------------------------------------------------
    </SUP>These alternatives range from releasing specific groups such 
as asylum seekers, on their own recognizance or `paroling' them, to 
programs currently in use through an Immigration and Customs 
Enforcement Program known as ISAP--the Intensive Supervised Appearance 
Program. In addition, our criminal justice system uses a wide range of 
pre-hearing release programs that are effective and cost efficient. 
Some of these have already been tried in the immigration context. These 
alternative programs are infinitely less expensive than traditional 
detention, are more humane, and still meet the valid enforcement 
concerns of the government. Some government-initiated programs labeled 
as ``alternatives to detention'' may in fact be ``alternative forms of 
detention.'' This is the case if they impose undue restrictions on an 
individual's liberty, even if the individual is not physically held in 
a prison or prison-like setting. The ideal model for an alternative to 
detention program for immigrants in the U.S. creates partnerships 
between DHS and private, non-profit organizations that are granted the 
responsibility to supervise and refer people to community services. 
These programs, as explained below, have shown great success. The use 
of detention should be limited to situations when it is necessary and 
proportional. There are instances in which detention may be the only 
appropriate way of protecting community safety or national security, 
ensuring appearance rates at immigration hearings, or guaranteeing 
effectuation of orders of removal. Beyond these limited justifications, 
however, detention is the most expensive and inhumane way of achieving 
results that may be met through alternative programs. Nevertheless, DHS 
continues to expand its detention capacity, despite the availability of 
effective alternative programs.
    In the past decade, the use of detention as an immigration 
enforcement mechanism has tripled, with detention becoming more the 
norm than the exception in U.S. immigration enforcement policy. In 
1996, the INS \17\ had a daily detention capacity of 8,279 beds.\18\ By 
2006, that daily capacity had increased to 27,500 with plans for future 
expansion.\19\ At an average cost of $95 per person/per day, 
immigration detention costs the U.S. government $1.2 billion per 
year.\20\ Thousands of those in immigration detention are individuals 
who, by law, could be released. Two such groups are asylum seekers 
without sponsors for parole and people whose removal orders are over 90 
days old and who pose no danger to the community or national security 
of the United States. Both of these groups are in need of alternative 
programs as holding them any longer than immediately necessary is not 
only inhumane, it is fiscally irresponsible and an inefficient and 
ineffective use of detention. While the absconding rate for immigration 
cases in general may be high--there is no indication that it is high 
for these particular groups and in fact community based alternatives 
programs have shown that the large majority (up to 96%) of these 
individuals appear for their hearings when released.
---------------------------------------------------------------------------
    \17\ The Homeland Security Act of 2002 abolished the Immigration 
and Naturalization Services (INS) and created three separate 
immigration bureaus now within the Department of Homeland Security. 
These three agencies consist of the U.S. Citizenship and Immigration 
Services (USCIS), Customs and Border Protection (CBP) and Immigration 
and Customs Enforcement (ICE). Since 2003, ICE has had jurisdiction 
over immigration enforcement, including detention and removal 
responsibilities.
    \18\ U.S. Commission on Immigration Reform, Becoming An American: 
Immigration and Immigrant Policy, September 1997, pp. 139, 140.
    \19\ DHS Fact Sheet: ICE Accomplishments in Fiscal Year 2006, 
Release Date: October 30, 2006, stating, ``ICE also increased its 
detention bed space by 6,300 during the fiscal year 2006, bringing the 
current number of funded beds to 27,500 immigration detainees.''http://
www.dhs.gov/xnews/releases/pr_1162228690102.shtm
    \20\ ``Immigration Enforcement Benefits Prison Firms,'' The New 
York Times, July 19, 2006; ``Detention and Removal of Illegal Aliens,'' 
Office of Inspector General, Department of Homeland Security, April 
2006; www.ice.gov, August 7, 2006.
---------------------------------------------------------------------------
    In H. Rept. 109-699 (2006), Congress appropriated a record funding 
of $43,600,000 to the Department of Homeland Security for alternatives 
to detention for detained adults. According to H. Rept. 109-476 (2006), 
the House of Representatives explained that ``The Alternatives to 
Detention program addresses aliens who are not mandatory detainees, but 
are deemed likely to appear at their immigration hearings. Programs for 
electronic monitoring devices and telephonic reporting, and especially 
the intensive Supervised appearance Program (ISAP), contribute to more 
effective enforcement of immigration laws at far less cost ($22/night) 
than for detention ($95/night). The first full year of the ISAP program 
has seen significant success with 94 percent of participants in the 
eight pilot cities appearing at immigration proceedings, compared to 34 
percent for non-ISAP participants. In at least one case, the results 
showed a 98 percent appearance rate, a much higher rate of compliance 
with court orders, and gained EOIR agreement to expedite such cases. 
The Committee recommends an additional $5,000,000 for this promising 
program, with the expectation that it be expanded to at least two more 
cities.''
    In FY 2007, Congress appropriated an increase of $16.5 million to 
DHS in order to expand its alternatives to detention programs such as 
ISAP. DHS, however, did not spend this $16.5 million on alternatives 
but instead used it to repay accounts which supplemented the FY 2006 
funding. The total increase in FY 2007 therefore amounted to 
approximately $5,388,000.
    In appropriating funds to DHS for alternatives to detention, 
Congress has indicated that its intent is to fund community-based, 
supervised release programs modeled after the Vera Institute of 
Justice's Appearance Assistance Project (Vera Project). The Vera 
Project was a three year study (February 1997--March 2000) of a 
supervised release/assistance program funded by INS. It studied over 
500 participants at both general and intensive levels of supervision in 
three groups: asylum seekers, people convicted of crimes and facing 
removal, and undocumented workers from detention facilities in the New 
York area. Generally, the Vera Project proved to be significantly less 
expensive than detention. Overall, 91% of non-citizens released to the 
Vera Project appeared at all required hearings, compared to a 71% 
appearance rate for comparison groups of non-citizens who had been 
released on bond or parole but did not have any of the extra 
supervision of the Vera Project.
    ICE's main alternatives program, ISAP, was commenced in July 2004 
and has been operated in eight cities: Baltimore, Philadelphia, Miami, 
Kansas City, St. Paul, Denver, San Francisco and Portland with 1,600 
participants including asylum seekers, immigrants undergoing removal 
proceedings and others. The FY 2007 increase allowed for the expansion 
of ISAP to two additional sites.
    The Intensive Supervised Appearance Program (ISAP) is a pilot 
program for aliens who who are not subject to mandatory detention. ICE 
has contracted with an organization called Behavioral Interventions to 
run ISAP. Participants are assigned to a case specialist who monitors 
them with tools such as electronic monitoring (bracelets), home visits, 
work visits and reporting by telephone. Case specialists will also 
assist participants in obtaining pro-bono counsel for their hearings 
and help them to receive other types of assistance to which they may be 
entitled and which help ensure appearance. The Department of Homeland 
Security has reported that ISAP has a 94% appearance rate. It also 
costs a fraction of what formal detention costs. While some detainees 
in the current system are in expedited removal and held for short 
periods of time and therefore it may not be practicable to assign them 
to programs like ISAP, many are asylum seekers or have court cases 
pending and as mentioned above, are detained for longer periods. In the 
case of the Hutto facility--most of the families detained are seeking 
asylum and will have cases pending in court for several months. The 
costs of the ISAP program are approximately $22 per individual per day 
as opposed to an average of about $95 a day for detention and closer to 
$200 a day for family detention.
    Reports from the field indicate that the ISAP program is being used 
for persons who would not normally be detained at all instead of as an 
alternative to detention. The program is a better solution for 
resolving ``catch and release'' than the tent cities and traditional 
prison facilities currently being used by the Department. It is more in 
keeping with our American value and a more efficient use of tax 
dollars.
    The government pays the Corrections Corporation of America (CCA) 
$2.8 million dollars per month to run the Hutto facility in Taylor 
Texas. This sum is intended to cover the expenses of running the 
facility at its full capacity of 512 individuals. Currently and since 
its opening the facility has not been at full capacity and has housed 
an average of about 400 individuals, at a cost to the government of 
$212 a day per person costing the taxpayer $33.6 million per year or 
roughly $31 million over the cost of using ISAP. Although a simple 
mathematical calculation would suggest that with this low average 
occupancy rate CCA should have additional resources in their budget for 
the administration of Hutto, charitable organizations have been 
requested to provide toys and religious materials for the facility. 
Williamson County receives $1 a day per person detained.
    At the Berks facility we met a woman who had been detained with her 
15 year old son after going to pick him up from ORR custody where he 
had been held after being apprehended crossing the border to join her. 
She had left behind her U.S. citizen infant son with a neighbor, 
thinking that she would only be away for one day. When we met her she 
had not seen her baby in over 9 months. The child was still with the 
neighbor and the child's father was visiting occasionally. This 
situation of U.S. citizen children being separated from their parents 
and left in precarious situations is unnecessary and can be avoided 
with programs that already exist.
    NGO based Alternative Pilot Programs have been shown to be 
effective as well. Non-governmental organizations under contract to the 
immigration service have provided supervision, and, in some cases, 
housing in community shelters and assistance in locating pro bono 
attorneys to help with their claims. These projects have been cost-
effective and have produced high appearance rates at hearings. A study 
conducted by the Vera Institute for Justice between February 1997 and 
March 2000 found that alternatives saved the federal government almost 
$4,000 per person while showing a 93% appearance rate for asylum 
seekers at all court hearings.\21\ Other NGO programs have met with 
similar success. In New Orleans, the legacy INS released asylum seekers 
and people with over 90-day-old removal orders to a program run by 
Catholic Charities with a 96% appearance rate.\22\ In another program 
coordinated by Lutheran Immigration and Refugee Service (LIRS), the 
legacy INS released 25 Chinese asylum seekers from detention in Ullin, 
IL to shelters in several communities. This program achieved a 96% 
appearance rate.\23\ There are currently NGO's across the country that 
could modify or expand their current programs if approached by the 
Department of Homeland Security as encouraged in H.Rept. 109-476 
(2006), where the House of Representatives encouraged ``ICE to work 
with reputable non-profit organizations to consider allowing family 
units to participate in the Intensive Supervised Appearance Program, 
where appropriate. .''
---------------------------------------------------------------------------
    \21\ Vera Institute of Justice, Testing Community Supervision for 
the INS: An Evaluation of the Appearance Assistance Program, June 7, 
2000, Volume I, pg. 32.
    \22\ Joan Treadway, ``Detainees get chance to change their lives,'' 
New Orleans Times Picayune, Jan. 22, 2001, pg. B-3.
    \23\ Esther Ebrahimian, ``The Ullin 22: Shelters and Legal Service 
Providers Offer Viable Alternatives to Detention,'' Detention Watch 
Network Nes, August/September 2000, p. 8.
---------------------------------------------------------------------------
    In sum, DHS has declared an end to catch and release and presents 
detention as the only solution, citing lack of appearance at hearings 
as the primary reason. There are however many less restrictive forms of 
detention and many alternatives to detention that would serve our 
nation's protection and enforcement needs more economically, while 
still providing just and humane treatment. In the rare cases in which 
detention is necessary, DHS should cease to contract with companies 
imposing a corrections model on a population that is in administrative 
detention. Standards should be effectively enforced. The detention of 
families where detention is necessary should be in non-penal, homelike 
environments as recommended by Congress. Parole policies should be 
implemented. DHS should work with the NGO community to develop 
alternative programs and DHS should expand its use of ISAP to families 
and others who would fit well into the program.
    We understand that DHS is responsible for the difficult task of 
protecting our borders and enforcing immigration laws. We are confident 
that our recommendations provide a valuable framework for enforcing our 
laws, ensuring appearance at immigration hearings, and preserving 
American values through the humane and just treatment of those seeking 
protection at our borders. I welcome the interest this committee has 
taken in this matter and encourage you to continue to press for viable, 
cost effective solutions.
    I declare under penalty of perjury that the forgoing is true and 
correct. Executed on this 13th Day of March 2007.

    Ms. Sanchez. Ms. Brane, I am sorry, you have doubled your 
time, so we will ask for specifics during question time, but I 
really need to get to the other witnesses here.
    Next on the list would be Ms. Fiflis, to summarize your 
statement, please, in 5 minutes.

     STATEMENT OF CHRISTINA FIFLIS, MEMBER, COMMISSION ON 
             IMMIGRATION, AMERICAN BAR ASSOCIATION

    Ms. Fiflis. Thank you, Madam Chair and Ranking Member 
Souder.
    As noted, I am an immigration practitioner in the Denver 
metro area. I currently represent over 120 individuals who have 
been detained in the El Paso Servicing Process Center or in the 
Denver GEO Detention Center.
    But I am here as a member of the American Bar Association 
Commission on Immigration. And on behalf of the ABA, I appear 
at the request of ABA President Karen Mathis to express the 
ABA's views on a number of issues related to immigration 
detention, in particular our ongoing concern over the lack of 
meaningful access to legal information and legal representation 
experienced by many immigrants in detention. We appreciate this 
opportunity to share our views.
    The ABA, as you know, is the world's largest voluntary 
professional organization, with over 400,000 members worldwide. 
We continuously work to improve the American system of justice 
and to advance the rule of law.
    The Commission on Immigration directs the association's 
efforts to ensure fair treatment and full due process rights 
for immigrants and refugees in the United States. The 
commission engages in advocacy, education and outreach, and 
operates pro bono programs that serve the most vulnerable 
immigrant populations, including asylum seekers and 
unaccompanied minors.
    The ABA is deeply committed to ensuring that foreign 
nationals in the United States receive fair treatment under the 
nation's immigration laws. The importance of meaningful access 
to legal representation and materials for individuals in 
immigration detention cannot be overstated.
    While immigrants are in administrative, as opposed to 
criminal proceedings, the consequences of removal are severe. 
Removal may result in permanent separation from family members 
and communities, or violence and even death for those fleeing 
persecution, yet immigrants have no right to appointed counsel, 
and those in detention must either try to find lawyers or 
represent themselves from inside detention facilities.
    Furthermore, in addition to facing cultural, linguistic, or 
educational barriers, and traumatization, particularly in the 
case of asylum seekers, detainees have virtually no direct 
access to sources of evidence or witnesses; legal 
representation is indispensable.
    The many obstacles to obtaining legal representation faced 
by immigrants in detention are one reason that the ABA opposes 
the detention of non-citizens in removal proceedings, except in 
extraordinary circumstances, such as when an individual 
presents a threat to national security or public safety or 
presents a substantial flight risk.
    The decision to detain a non-citizen should be made only in 
a hearing that is subject to judicial review. We are concerned 
about the growing reliance on detention, and instead support 
humane alternatives that are the least restrictive necessary to 
ensure that non-citizens appear in immigration proceedings.
    When detention is used, uniform and consistent standards 
are essential to ensure safe and humane conditions and protect 
detainees' statutory and constitutional rights. For that 
reason, during the late 1990s, the ABA engaged in a lengthy 
negotiation process with the then-INS, currently ICE, to 
develop current ICE detention standards.
    The standards, which took effect in January 2001, are 
comprehensive and encompass a diverse range of issues. The ABA 
was instrumental in developing the four legal access standards, 
which include access to legal materials; access to group 
presentations on legal rights; telephone access; and 
visitation.
    An additional legal access standard, entitled detainee 
transfers, was subsequently adopted by ICE, with the 
encouragement and support of the ABA.
    As a key stakeholder in developing the standards, the ABA 
is committed to their full and effective implementation. In 
2001, the Commission on Immigration established the Detention 
Standards Implementation Initiative.
    Under the initiative, the commission recruits volunteer 
lawyers to participate in special delegations to tour selected 
detention facilities and report their observations on standards 
implementation, with an emphasis on legal access standards. The 
delegation reports are then presented to ICE, and the findings 
are discussed in regular meetings between ICE and the ABA.
    While the development of the detention standards was a 
positive step, ICE's annual inspection process alone is not 
adequate to ensure detention standards compliance. In the 6 
years that have passed since the standards went into effect, 
the lack of legal enforcement mechanism has seriously 
undermined their effectiveness.
    For that reason, the ABA recently expressed its strong 
support to the Secretary of Homeland Security for a petition 
for rulemaking by several organizations to promulgate detention 
standards into regulations. The ABA believes that promulgating 
regulations would help ensure that detained immigrants are 
treated humanely and have meaningful access to the legal 
process.
    The ABA regularly receives information on detention issues 
through our own pro bono projects in Harlingen, Texas, and 
Seattle, Washington, as well as from individual attorneys and 
immigrant advocacy groups, and direct letters and phone calls 
from detained immigrants around the country.
    Since 2003, we have received letters from detainees at over 
100 facilities across the United States. We would like to 
highlight a few of the recurring issues that we believe are 
cause for serious and continuing concern about the state of our 
immigration detention system.
    One of these issues is the transfer of detainees. In 2001, 
the ABA adopted a policy opposing the involuntary transfer of 
detainees to facilities that impede an existing attorney-client 
relationship, opposing transfers to distant locations, opposing 
the use and construction of detention space in remote areas 
where legal assistance generally is not available for 
immigration matters.
    In 2004, the detainee transfer standard was added to ICE's 
national detention standards, requiring ICE to take into 
account whether a detainee is represented when deciding whether 
to transfer him or her. Factors ICE must consider include, 
according to the standard, ``whether the attorney of record is 
located within reasonable driving distance of the detention 
facility and where immigration court proceedings are taking 
place.''
    Despite this standard, we are aware that, over the past few 
months, ICE has been regularly transferring hundreds of 
immigration detainees who already have counsel from East Coast 
facilities to the Port Isabel Detention Center in South Texas. 
Legal services for indigent immigrant detainees in South Texas 
are scarce, yet 3,200 detention beds are available.
    Facilities on the East Coast are closer to metropolitan 
areas, where representation is more abundant. Transfer 
detainees can no longer meet with their attorneys, and the 
local immigration judges regularly deny motions by counsel to 
appear telephonically.
    Existing counsel must either find local counsel to make 
appearances, travel to south Texas, or withdraw. The service 
providers in south Texas are only able to serve a fraction of 
this high volume of detainees. These transfers are resulting in 
a lack of access to counsel for detainees, which is precisely 
what the transfer standard sought to prevent.
    Another serious issue is lack of telephone access. Over the 
past year alone, detainees in 16 states told us that they have 
had difficulty using telephones. Without telephone access, 
detainees cannot find counsel or obtain critical evidence and 
other information to prepare their cases pro se.
    ICE's telephone access standard provides for reasonable and 
equitable access to telephones, with at least one telephone per 
25 detainees, telephones in proper working order, quick 
repairs, and free legal service provider and consulate calls, 
among others.
    Specific problems detainees report, however, include basic 
mechanical issues, unavailability of phone cards for purchase, 
exorbitant phone card fees, improper deduction of funds from 
phone cards, inability to make free calls to consulates and 
free legal service providers, all as required by the standards.
    [The statement of Ms. Fiflis follows:]

                 Prepared Statement of Christina Fiflis

                             March 15, 2007

    Madam Chair, Ranking Member Souder and Members of the Subcommittee:
    Good Morning. My name is Christina Fiflis and I am a member of the 
American Bar Association Commission on Immigration. On behalf of the 
American Bar Association, I appear today at the request of ABA 
President Karen Mathis to express the ABA's views on a number of issues 
related to immigration detention, in particular our ongoing concern 
regarding the lack of meaningful access to legal information and legal 
representation experienced by many immigrants in detention. We 
appreciate this opportunity to share our views.
    The American Bar Association is the world's largest voluntary 
professional organization, with a membership of over 400,000 lawyers, 
judges and law students worldwide. The ABA continuously works to 
improve the American system of justice and to advance the rule of law 
in the world. The Commission on Immigration is comprised of 13 members 
appointed by the ABA President, and directs the Association's efforts 
to ensure fair treatment and full due process rights for immigrants and 
refugees within the United States. The Commission advocates for 
statutory and regulatory modifications in law and governmental practice 
consistent with ABA policy; provides continuing education to the legal 
community, judges, and the public about relevant legal and policy 
issues; and develops and assists the operation of pro bono programs 
that encourage volunteer lawyers to provide high quality representation 
for immigrants, with a special emphasis on the needs of the most 
vulnerable immigrant and refugee populations, including unaccompanied 
immigrant children.
    The ABA is deeply committed to ensuring that foreign nationals in 
the United States receive fair treatment under the nation's immigration 
laws. The importance of meaningful access to legal representation and 
materials for individuals in immigration detention cannot be 
overstated. While immigrants in detention are in administrative, as 
opposed to criminal proceedings, the consequences of removal are 
severe. Removal may result in permanent separation from family members 
and communities, or violence and even death for those fleeing 
persecution. Yet, immigrants have no right to appointed counsel and 
must either try to find lawyers or represent themselves from inside 
detention facilities. For all who face removal, legal assistance is 
critical for a variety of reasons, including a lack of understanding of 
our laws and procedures due to cultural, linguistic, or educational 
barriers. Asylum seekers in particular may find it extremely difficult 
to articulate their experiences or to discuss traumatic situations with 
government officials. Detainees, however, face the additional obstacle 
of having virtually no direct access to sources of evidence or 
witnesses; legal representation is therefore indispensable.\1\
---------------------------------------------------------------------------
    \1\ American Bar Association, American Justice Through Immigrants' 
Eyes, 2004, at 53, available at http://www.abanet.org/publicserv/
immigration/americanjusticethroughimmigeyes.pdf. According to one 
study, asylum seekers are four to six times more likely to succeed if 
represented. See A. Schoenholtz and J. Jacobs, ``The State of Asylum 
Representation: Ideas for Change,'' 16 G'town. Immig. L.J. 739--740 
(Summer 2002). See also http://uscirf.gov/countries/global/
asylum_refugees/2005/february/legalAssist.pdf at 239.
---------------------------------------------------------------------------
    The many obstacles to obtaining legal representation faced by 
immigrants in detention is one reason that the ABA opposes the 
detention of non-citizens in removal proceedings except in 
extraordinary circumstances, such as when the individual presents a 
threat to national security or public safety, or presents a substantial 
flight risk. The decision to detain a non-citizen should be made only 
in a hearing that is subject to judicial review. We are concerned about 
the growing reliance on detention, and particularly about proposals to 
increase the use of mandatory detention. The ABA instead supports the 
use of humane alternatives to detention that are the least restrictive 
necessary to ensure that non-citizens appear in immigration proceedings
    For those that are detained, it is essential to provide uniform and 
consistent standards to ensure that facilities housing federal 
detainees are safe and humane and protect all detainees' statutory and 
constitutional rights. For that reason, during the late 1990's, the 
ABA, along with other organizations involved in pro bono representation 
and advocacy for immigration detainees, engaged in a lengthy 
negotiation process with the then-Immigration and Nationality Service 
(now Immigration and Customs Enforcement, or ``ICE'') to develop the 
current ICE Detention Standards. The Standards, which took effect in 
January 2001, are comprehensive and encompass a diverse range of 
issues, including access to legal services. The ABA was instrumental in 
developing the four ``legal access'' standards, which include: Access 
to Legal Materials; Access to Group Presentations on Legal Rights; 
Telephone Access; and Visitation. As discussed below, an additional 
``legal access'' standard, entitled Detainee Transfers, was 
subsequently adopted by ICE, with the encouragement and support of the 
ABA.
    As a key stakeholder in developing the Standards, the ABA is 
committed to their full and effective implementation. In 2001, the 
Commission on Immigration established the Detention Standards 
Implementation Initiative (Initiative). Under the Initiative, the 
Commission recruits lawyers, law firms, and bar associations to 
participate on a pro bono basis in special delegations to tour selected 
detention facilities and report their observations on the facilities' 
implementation of the Standards, with an emphasis on the four legal 
access standards. The delegation reports are then presented to ICE and 
the findings discussed in regular meetings between ICE and the ABA.
    While the development of the Detention Standards was a positive 
step, it appears that ICE's annual inspection process alone is not 
adequate to ensure detention standards compliance. In the six years 
that have passed since the Detention Standards went into effect, it has 
become clear to us that the lack of a legal enforcement mechanism has 
seriously undermined the effectiveness of the Standards. For that 
reason, the ABA recently expressed its strong support to the Secretary 
of Homeland Security for a petition for rulemaking by several 
organizations to promulgate the Detention Standards into regulations. 
The ABA believes that promulgating regulations would help ensure that 
detained immigrants are treated humanely and have meaningful access to 
the legal process.
    Apart from the Detention Standards Implementation Initiative, the 
ABA regularly receives information on detention issues through reports 
from our own pro bono projects in Harlingen, Texas and Seattle, 
Washington, as well as from individual attorneys representing detained 
immigrants, national and local immigrant advocacy groups, and direct 
letters and phone calls from detained immigrants around the country. 
Since 2003, we have received letters from detainees at over one hundred 
facilities across the United States. While limitations of time and 
space prevent us from providing a comprehensive list of current 
problems, we do want to highlight a few of the recurring issues that we 
believe are cause for serious and continuing concern about the state of 
our immigration detention system.
    One of these issues is the transfer of detainees. In 2001, the ABA 
adopted a policy opposing the involuntary transfer of detainees to 
facilities that impede an existing attorney-client relationship, 
transfers to distant locations, and the use and construction of 
detention space in remote areas where legal assistance generally is not 
available for immigration matters. In 2004, the Detainee Transfer 
Standard was added to ICE's National Detention Standards, requiring ICE 
to take into account whether a detainee is represented when deciding 
whether to transfer him or her. Factors ICE must consider include 
``whether the attorney of record is located within reasonable driving 
distance of the detention facility and where immigration court 
proceedings are taking place.'' \2\
---------------------------------------------------------------------------
    \2\ http://www.ice.gov/doclib/partners/dro/opsmanual/
DetTransStdfinal.pdf
---------------------------------------------------------------------------
    Despite this Standard, we are aware that over the past few months, 
ICE has been regularly transferring hundreds of immigration detainees 
from east coast facilities to the Port Isabel Detention Center (PIDC) 
in South Texas.\3\ These individuals often have lawyers and family 
members in the states where they were originally apprehended, and 
facilities on the east coast are located closer to metropolitan areas 
where legal representation is more widely available. Legal services for 
indigent immigrant detainees in South Texas are scarce, yet 3,200 beds 
are available for detainees at PIDC and the Willacy County Processing 
Center in Raymondville, Texas. Detainees can no longer meet with their 
attorneys, and the local Immigration Judges regularly deny motions by 
counsel to appear telephonically for removal hearings. Existing counsel 
must either find local counsel to make appearances, travel to South 
Texas, or withdraw from their clients' cases. The service providers in 
South Texas are only able to serve a fraction of the high volume of 
detainees in need of assistance when their original attorneys are 
forced to withdraw. These transfers are resulting in a lack of access 
to counsel for detainees, which is precisely what the Transfer Standard 
sought to prevent.
---------------------------------------------------------------------------
    \3\ Locations include New York, Massachusetts, Virginia, and 
Florida.
---------------------------------------------------------------------------
    Another serious issue is lack of telephone access for detainees. 
Over the past year alone, detainees in 16 states told us that they have 
had difficulty using telephones. Without telephone access, immigrants 
are cut off from the ability to find legal counsel or obtain critical 
evidence or other information to prepare their case pro se. ICE's 
Telephone Access Standard provides for reasonable and equitable access 
to telephones, with at least one telephone per twenty-five detainees, 
telephones in proper working order, quick repairs, and free legal 
service provider and consulate calls, among other things.\4\ Specific 
problems detainees report in their correspondence, however, include 
basic mechanical issues, unavailability of phone cards for purchase, 
exorbitant phone card fees, improper deduction of funds from phone 
cards, inability to make free calls to consulates and free legal 
service providers as required by the Standards, lack of receipt of the 
Notice of Telephone Privileges as required by the Standards, lack of 
posting and/or translation of phone use instructions, lack of privacy, 
and an insufficient amount of phones per detainee.
---------------------------------------------------------------------------
    \4\ http://www.ice.gov/doclib/partners/dro/opsmanual/teleacc.pdf.
---------------------------------------------------------------------------
    Other common concerns regarding legal access relate to law 
libraries and legal correspondence. Some report having no access to the 
law library, while others indicate that there are insufficient or 
outdated research materials \5\ and not enough functioning typewriters, 
computers, or printers. We have also been told that mail either does 
not arrive or is delayed, and legal mail (``Special Correspondence'') 
is opened outside the presence of detainees and outgoing legal mail is 
inspected, contrary to the Standards. Finally, some report a lack of 
private consultation rooms for meetings with counsel. In July 2006, the 
ABA provided this information to the Government Accountability Office 
to assist in its review of ICE's iplementation of the Detention 
Standards.
---------------------------------------------------------------------------
    \5\ These statements are consistent with the report of the United 
States Commission on International Religious Freedom, which indicated 
that not one of the 18 facilities visited by USCIRF contained all the 
materials (or updates) listed in DHS detention standards. See Craig 
Haney, Report on Asylum Seekers in Expedited Removal, 186 (United 
States Commission on International Religious Freedom, 2005).
---------------------------------------------------------------------------
    In 2006, the ABA was one of several entities requesting that the 
U.S. Department of Homeland Security's Inspector General (IG) conduct 
an audit of ICE's compliance with the Detention Standards. In addition 
to evaluating the legal access standards in particular, we requested 
that the IG review detainee handbooks for accuracy and thoroughness. 
The IG's recently issued report, Treatment of Immigration Detainees 
Housed at Immigration and Customs Enforcement Facilities, highlighted 
several of the issues that have consistently been reported to us year 
after year.
    Without appropriate access to legal resources and representation, 
the only information detainees are oftentimes presented with comes from 
federal law enforcement authorities. This can create serious issues of 
concern. The ABA has received reports of what appears to be an 
increasing and inappropriate use of stipulated removal orders. 
Immigrants serving sentences for crimes including illegal entry are 
approached by government officials while in custody, and warned that if 
they do not sign a stipulated removal order, they will face lengthy 
immigration detention and ultimate deportation. As a result, detainees 
who may in fact be eligible for immigration relief such as asylum 
perceive that they have no other choice but to sign the order or face 
prolonged detention and certain deportation. Those who sign the orders 
forego their right to appear before an Immigration Judge. Pursuant to 
regulation, the Judge may ultimately sign the order provided he or she 
determines that the individual's waiver was voluntary, knowing, and 
intelligent,\6\ even without seeing or speaking with the individual.
---------------------------------------------------------------------------
    \6\ 8 C.F.R. Sec. 1003.25
---------------------------------------------------------------------------
    One of the ways that detained immigrants can be provided with 
appropriate legal information is through Legal Orientation Programs 
(LOP). The LOP program is administered by the Executive Office of 
Immigration Review, and is currently in place in six detention 
facilities around the country. Under this program, an attorney or 
paralegal meets with the detainees who are scheduled for immigration 
court hearings in order to educate them on the law and to explain the 
removal process. Based on the orientation, the detainee can decide 
whether he or she potentially qualifies for relief from removal. 
Persons with no hope of obtaining relief--the overwhelming majority--
typically submit to removal. According to the Department of Justice, 
LOPs improve the administration of justice and save the government 
money by expediting case completions and leading detainees to spend 
less time in detention.\7\ Since the inception of the program, the ABA 
has provided LOPs at the Port Isabel Detention Center in South Texas, 
and can unequivocally attest to the benefits that these presentations 
bring both to detainees and the immigration court system. The ABA 
supports expansion of the Legal Orientation Program to all detained and 
non-detained persons in removal proceedings.
---------------------------------------------------------------------------
    \7\ U.S. Department of Justice, Board of Immigration Appeals, ``The 
BIA Pro Bono Project is Successful'' (Oct. 2004); U.S. Department of 
Justice, Executive Office for Immigration Review, ``Evaluation of the 
Rights Presentation'' (Jan. 2000).
---------------------------------------------------------------------------
    In conclusion, the ABA is deeply concerned about the state of 
immigration detention in the U.S. and wants to emphasize particularly 
the need for accountability to ensure that detainees have consistent, 
fair access to counsel and the legal system. We believe that a number 
of steps should be taken to address these concerns, including: 
promulgating immigration detention standards into regulation; using 
humane alternatives to detention for those who do not present a 
substantial flight risk, or threat to national security or public 
safety; where detention is appropriate, providing detention bed-space 
in populated areas where legal assistance is more readily available and 
not transferring detainees away from existing counsel; and expanding 
the Legal Orientation Program to individuals in immigration proceedings 
nationwide. Each of these steps would significantly assist immigration 
detainees' access to legal information and representation, a necessary 
step toward addressing many of the serious problems in our immigration 
detention system.
    Thank you, again, for this opportunity to share our views.

    Ms. Sanchez. Thank you. I am going to cut you off at this 
point, because we are going to get to Mr. Cutler. And I am sure 
we will have plenty of questions to ask you about the rest of 
the standards.
    Mr. Cutler, if you will, for 5 minutes.

  STATEMENT OF MICHAEL CUTLER, FELLOW, CENTER FOR IMMIGRATION 
                            STUDIES

    Mr. Cutler. Sure.
    Good afternoon. Chairwoman Sanchez, Ranking Member Souder, 
it is an honor to testify before this committee on the 
important issue of the detention of aliens seeking political 
asylum in the United States.
    And I hope that my perspectives, based on my many years 
working at the former INS, can be helpful to you, as you 
consider the critical issues concerning the issue of the 
detention of illegal aliens in the United States.
    Our nation has a proud tradition of providing refuge to 
people fleeing persecution in their respective native 
countries; however, we also know that those who would enter our 
country to do harm to our country have found in our kindness 
potential weakness.
    While our nation's porous borders, especially the border 
that separates the United States from Mexico, has received 
quite a bit of attention, the reality is that it is estimated 
that perhaps as many as 40 percent of the illegal aliens who 
are present in the United States at the present time did not 
enter our country by running our nation's borders and 
circumventing the inspections process, but rather by entering 
the United States through a port of entry and then going on to 
violate the terms of their admission, overstaying their visas, 
working illegally, or committing crimes.
    Immigration benefit fraud is a huge problem within the 
immigration bureaucracy and one that has been documented in a 
number of GAO and OIG reports. False claims concerning 
political asylum are simply a category of such fraud. There 
have been numerous instances where an alien will apply for 
political asylum as a last ditch effort to avoid deportation.
    In some cases, aliens apply for political asylum as a 
strategy to overcome his inability to secure a visa for the 
United States. And among those who have gamed the system have 
been terrorists.
    Janice Kephart, a former counsel for the 9/11 Commission, 
testified before the Senate Committee on the Judiciary on March 
4, 2005, at a hearing entitled ``Strengthening Enforcement and 
Border Security: The 9/11 Commission Staff Report on Terrorist 
Travel.''
    She made a couple of statements at that hearing about 
political asylum worth considering today, as we consider issues 
relating to political asylum. Quoting Janice, ``Political 
asylum and naturalization are two of the benefits most 
rampantly abused by terrorists.''
    She also stated that, in her recent study of 111 
terrorists, 23 lacked proper travel documents or sought to 
avoid deportation and claimed political asylum. To cite a few 
of the many examples of terrorists who exploited political 
asylum to attempt to avoid being deported from the United 
States, I will cite four prominent examples.
    On July 31, 1997, Gazi Ibrahim Abu Mezer and an accomplice 
were arrested by members of the New York City Police Department 
when they received information that Mezer and his roommate had 
constructed bombs they were planning to use in a suicide bomb 
attack on the New York City subway system.
    Prior to Mezer's arrest, while out on bail, he posted, in 
conjunction with the INS, he filed an application for political 
asylum in an effort to remain in the United States. Mezer was 
subsequently found guilty of a number of serious crimes, 
including violation of 18 USC 2332, conspiracy to kill a United 
States citizen; 18 USC 924, knowingly and intentionally using 
and carrying a firearm during and in relation to a crime of 
violence; 18 USC 1546 and 3551, knowingly and intentionally 
possessing a counterfeit alien registration card.
    As a result of his conviction, he was sentenced to life 
imprisonment.
    On January 25, 1993, Mir Aimal Kansi, a citizen of Pakistan 
who had applied for political asylum, waited outside the 
headquarters of the CIA in Virginia with an AK-47. He opened 
fire on vehicles driven by CIA employees arriving for work. He 
killed two of those employees and wounded three others.
    After a worldwide manhunt, he was arrested, brought to the 
United States, tried, convicted and ultimately executed.
    Ramsi Yousef, the mastermind of the first attack on the 
World Trade Center complex on February 26, 1993, and Sheikh 
Omar Abdel Rahman, the spiritual leader of the terrorists 
involved in that attack, had more in common than the attack on 
that World Trade Center complex that left six people dead, 
hundreds injured, and approximately a half billion dollars in 
damages inflicted on that iconic landmark and the surrounding 
buildings. They had both applied for political asylum.
    While the ``catch and release'' program implemented along 
our nation's southern border has received much publicity with 
the administration finally addressing that huge gap in the 
Border Patrol operation, seeking to provide more detention 
space for illegal aliens apprehended by the Border Patrol, and 
a more expeditious removal procedure for aliens arrested by the 
Border Patrol along the southern border.
    However, the ``catch and release'' program has not only 
plagued our nation's efforts to remove illegal aliens 
apprehended by the Border Patrol; it also is a factor in the 
interior enforcement program for which ICE bears the 
responsibility.
    Statistically, at least 85 percent of illegal aliens who 
are released from custody fail to appear when they are required 
to do so, either to show up for an immigration hearing or to 
present themselves for removal once they have been ordered 
deported. The notice to appear, the administrative instrument 
that initiates a removal proceeding for an illegal alien, is 
often referred to as a ``notice to disappear'' by cynical 
immigration enforcement personnel.
    It is essential that we provide adequate detention 
facilities to make certain that aliens, who would likely 
abscond if they had the opportunity, be denied that opportunity 
to flee.
    Because of the inherent risks to the safety and well-being 
of our nation and our citizens, I would strongly urge that 
aliens who apply for political asylum be kept in a detention 
facility until their true identities can be determined, along 
with a proper determination being made of their credible fear 
should they be returned to their home country.
    I believe that it is essential to provide comfortable 
detention facilities for these aliens who are illegally in the 
United States and have applied for political asylum, especially 
if they are accompanied by their families.
    In this perilous era, it is my judgment that, while our 
officials conduct investigations of the bona fides of claims of 
credible fear articulated by applicants for political asylum, 
that we have the way to detain such aliens until they are 
determined to pose no threat to our country and have, indeed, 
met the requirements to be eligible to be granted political 
asylum.
    However, should an alien be proven to not be eligible to be 
granted political asylum, whether because he committed fraud or 
because he actually poses a threat to our national security, 
retaining such an alien in custody would deny him the ability 
to abscond and embed himself in our country.
    When we look back into the history of the enforcement of 
the immigration laws of our country, Ellis Island was the 
gateway to our nation for so many of our forebears. Indeed, my 
own mother first set foot on American soil when she stepped off 
the ship that brought her to this country, and she stepped onto 
Ellis Island, a few short years before the start of the 
Holocaust in Europe that resulted in the death of many members 
of my own family, including my grandmother for whom I am named.
    Ellis Island was, in effect, the waiting room for the 
United States that provided our immigration inspectors, public 
health officers and other officials with ample opportunity to 
properly screen aliens seeking to begin their lives anew in 
this magnificent land of opportunity.
    Our nation still needs to properly screen those who wish to 
share the American dream, to make certain that we would have an 
opportunity to seek to uncover those who might be hiding among 
them and who, given the opportunity, would create an American 
nightmare.
    I look forward to your questions.
    [The statement of Mr. Cutler follows:]

                Prepared Statement of Michael W. Cutler,

                             March 15, 2007

    Chairman Thompson, Ranking Member King members of Congress, ladies 
and gentlemen, it is an honor to testify before this committee on the 
important issue of the detention of aliens seeking political asylum in 
the United States. I hope that my perspectives based on my many years 
working at the former INS can be helpful to you as you consider the 
critical issues concerning the issue of the detention of illegal aliens 
in the United States as they apply for political asylum.
    Our nation has a proud tradition of providing refuge to people 
fleeing persecution in their respective native countries; however, we 
also know that those who would enter our country to do harm to our 
country have found in our kindness, potential weakness. While our 
nation?s porous borders, especially the border the separates the United 
States from Mexico has received quite a bit of attention, the reality 
is that it is estimated that perhaps as many as 40% of the illegal 
aliens who are present in the United States did not gain entry into our 
country by running our nation's borders and circumventing the 
inspections process at a port of entry, but did, in fact enter our 
country through a port of entry and then went on to violate the terms 
of their admission into the United States by overstaying their 
authorized period of admission, securing illegal employment or becoming 
involved in criminal activities.
    Immigration benefit fraud is a huge problem within the immigration 
bureaucracy and one that has been documented in a number of GAO and OIG 
reports. False claims concerning political asylum are simply a category 
of such fraud. There have been numerous instances where an alien will 
apply for political asylum in a last ditch effort to avoid deportation. 
In some cases, aliens apply for political asylum as a strategy to 
overcome his inability to secure a visa for the United States. Among 
those who have gamed the system to gain access to our country have been 
terrorists.
    Janice Kephart, a former counsel to the 911 Commission testified 
before the Senate Committee on the Judiciary on March 4, 2005 at a 
hearing entitled,--Strengthening Enforcement and Border Security: The 
9/11 Commission Staff Report on Terrorist Travel. She made a couple of 
statements at that hearing about political asylum worth considering 
today as we consider issues relating to political asylum:
        ``Political asylum and naturalization are two of the benefits 
        most rampantly abused by terrorists.''
        ``In my recent study of 118 terrorists, 23 who lacked proper 
        travel documents or sought to avoid deportation claimed 
        political asylum''
    To cite just a few of many examples of terrorists who exploited 
political asylum to attempt to avoid being deported from the United 
States I would ask you to consider four prominent cases:
    On July 31, 1997 Gazi Ibrahim Abu Mezer and an accomplice were 
arrested by members of the New York City Police Department when they 
received information that Mezer and his roommate had constructed bombs 
they were planning to use in a suicide bombing of the New York City 
subway. Prior to Mezer?s arrest, while out on bail he posted in 
conjunction with an arrest by the INS, he filed an application for 
political asylum in an effort to remain in the United States. Mezer was 
subsequently found guilty of a number of serious crimes including:
        <bullet> USC Sec. 2332; conspiracy to kill a U.S. citizen;
        <bullet> 18 USC Sec. 924; knowingly and intentionally use and 
        carry a firearm during and in relation to a crime of violence;
        <bullet> 18 USC Sec. Sec. 1546 and 3551; knowingly and 
        intentionally possess counterfeit alien registration receipt 
        card.
    As a result of his conviction he was sentenced to life 
imprisonment.
    On January 25, 1993 Mir Aimal Kansi, a citizen of Pakistan who had 
applied for political asylum, waited outside the headquarters of the 
CIA in Virginia and opened fire on vehicles driven by CIA employees 
arriving for work. He killed two of those employees and wounded three 
others. After a world-wide Manhunt he was arrested, brought to the 
United States, tried, convicted and ultimately executed.
    Ramsi Yousef, the mastermind of the first attack on the World Trade 
Center complex on February 26, 1993 and Sheik Omar Abdel Rahman, the 
spiritual leader of the terrorists involved in that attack had more in 
common than the attack on the World Trade Center that left 6 people 
dead, hundreds injured and approximately a half billion dollars in 
damages inflicted on that iconic landmark and surrounding buildings; 
they had both applied for political asylum.
    While the ``Catch and Release'' program implemented along our 
nation?s Southern Border has received much publicity with the 
administration finally addressing that huge gap in the Border Patrol 
operation, seeking to provide more detention space for illegal aliens 
apprehended by the Border Patrol and the more expeditious removal of 
aliens arrested by the Border Patrol along the Southern Border. 
However, the ``Catch and Release'' program has not only plagued our 
nation's efforts to remove illegal aliens apprehended by the Border 
Patrol, it also is a factor in the interior enforcement program for 
which ICE bears the responsibility. Statistically, at least 85% of 
illegal aliens who are released fail to appear when they are required 
to do so, either to show up for an immigration hearing or to present 
themselves for removal once they have been ordered deported. The Notice 
To Appear, the administrative instrument that initiates a removal 
proceeding for an illegal alien is often referred to as a ``Notice to 
Disappear'' by cynical immigration enforcement personnel. It is 
essential that we provide adequate detention facilities to make certain 
that aliens, who would likely abscond if they had the opportunity, be 
denied that opportunity to abscond.
    Because of the inherent risks to the safety and well being of our 
nation and our citizens, I would strongly urge that aliens who apply 
for political asylum be kept in a detention facility until their true 
identities can be determined along with a proper determination being 
made of their credible fear should they be returned to their home 
country. I believe, however that it is essential to provide comfortable 
detention facilities for these aliens who are illegally in the United 
States and have applied for political asylum, especially if they are 
accompanied by their families. In this perilous era, it is my judgment 
that while our officials conduct investigations of the bona fides of 
claims of credible fear articulated by applicants for political asylum, 
that we have the way to detain such aliens until they are determined to 
pose no threat to our country and have, indeed, met the requirements to 
be eligible to be granted political asylum. However, should an alien be 
proven to not be eligible to be granted political asylum wither because 
he committed fraud or because he actually poses a threat to our 
national security, retaining such an alien in custody would deny him 
the ability to abscond and embed himself in our country.
    When we look back into the history of the enforcement of the 
immigration laws of our country, Ellis Island was the gateway to our 
country for so many of our forebears. Indeed, my own mother first set 
foot on American soil when she stepped off the ship that brought her to 
this country and she stepped onto Ellis Island, a few short years 
before the start of the Holocaust in Europe that resulted in the death 
of many members of my own family including my grandmother for whom I 
was named. Ellis Island was, in effect, the waiting room for the United 
States that provided our immigration inspectors, public health officers 
and other officials with ample opportunity to properly screen aliens 
seeking to begin their lives anew in this magnificent land of 
opportunity. Our nation still needs to properly screen those who wish 
to share the American Dream to make certain that we would have an 
opportunity to seek for those who might be hiding among them and who, 
given the opportunity, would create an American nightmare.
    I look forward to your questions.

    Ms. Sanchez. Thank you, Mr. Cutler.
    And I will thank you all for your testimony, and I am going 
to take some time here to ask a few questions.
    Mr. Seiter, Ms. Brane had some pretty sad things to say 
about your operation of the facility up there in Texas. Did 
those conditions really exist that she talked about, before you 
fixed them?
    Mr. Seiter. She was correct in that we did not offer a 7-
hour school day until recently. It has continually increased.
    The issues that she talked about in health--I think she 
mentioned two areas of health care. Our responsibility is to 
make sure that every detainee, every resident has access to 
health care, that is provided by the United States Public 
Health Service, and I can't comment on exactly those cases, but 
we certainly do nothing to limit care.
    Residents may, twice a day--or may place requests to see 
medical professionals in boxes that are located around the 
center. And those requests are picked up twice a day. And my 
understanding is that PHS has the commitment to see people 
within 24 hours. I don't know that that always happens; I am 
sure it does not, but I know that is their commitment.
    Ms. Sanchez. So you just have these boxes, ``I want to go 
see a doctor, I am pregnant 7 months, I want to go see a 
doctor, or I put in a request to see a doctor for prenatal 
care.'' DHS personnel or your personnel pick up these things 
from the suggestion box or request box? And who reviews them?
    Mr. Seiter. The PHS staff review them, and they triage them 
and decide at what level and how soon they will see someone.
    Ms. Sanchez. And the doctor facilities or the nurse 
facilities, are they at your facility?
    Mr. Seiter. Yes, they are. They are right in the middle of 
the facility.
    Ms. Sanchez. And how many people do you have in your 
facility right now, total family, plus kids and everything?
    Mr. Seiter. Between 410 and 420.
    Ms. Sanchez. --410 and 420. And how many--and so you have 
this facility that is staffed by the government for medical 
care. And how many people are staffing that? Do you know how 
many doctors we have on staff or how many nurses?
    Mr. Seiter. I believe that our medical complement is 25.
    Ms. Sanchez. Twenty-five throughout the day?
    Mr. Seiter. Twenty-five total staff, yes.
    Ms. Sanchez. Throughout the day?
    Mr. Seiter. Yes.
    Ms. Sanchez. Do you have examination rooms? Or is there 
more complicated equipment there?
    Mr. Seiter. Well, it would probably appear very much like a 
common general practice office that you or I might go to. There 
is a waiting area. When you go in there, there are examination 
rooms, three or four, that a mid-level provider might first see 
a patient.
    There is a space for physicians, who would then also see 
patients. There is a dental area and a full-time dentist. There 
is mental health staff. There is an X-ray machine. So it would 
look very much like that.
    For anything more serious that could not be handled in the 
clinic, they would be taken outside to contracted community 
hospitals.
    Ms. Sanchez. But you really couldn't understand if you had 
25 people sitting there in the medical center, and you have the 
center on your facility, why somebody would take 3 or 4 months 
to get a prenatal care exam? You couldn't imagine that that 
could happen?
    Mr. Seiter. I would wonder why that would happen.
    Ms. Sanchez. Okay. How much time do families get to go 
outside to recreate these days? How many hours a day?
    Mr. Seiter. The children that are in school have 2 hours 
during the Monday through Friday school day, an hour of recess 
during the school day, and then an hour in the evening. Those 
children also have 4 hours on Saturday and 4 hours on Sunday.
    Any adult or non-school-aged child has 3 hours, Monday 
through Friday.
    Ms. Sanchez. Three hours in total Monday through Friday?
    Mr. Seiter. Three hours each day.
    Ms. Sanchez. Three hours each day?
    Mr. Seiter. Monday through Friday. And then 4 hours each 
day on Saturday and 4 hours each day on Sunday. So they have 
got a total of over 20 hours a week that they may go outside to 
recreation or to the gym.
    Ms. Sanchez. Ms. Brane, were you the one that said that 
they had 1 hour?
    Ms. Brane. Yes. At the time of our visit, they were 
receiving 1 hour, 5 days a week, and none on the weekend.
    Ms. Sanchez. Refresh my memory. When was your visit?
    Ms. Brane. December 24, 2006.
    Mr. Seiter. Madam Chair, if I may also say, during the day 
when the children are not in school, but the parents and the 
non-school-aged children, they are in a day room area. And 
provided in that day room area are toys, games, video games, 
and table games for recreation.
    Ms. Sanchez. Computers?
    Mr. Seiter. No. There is a computer lab, but not in the 
housing area. And those are available 18 hours a day.
    Ms. Sanchez. Computers are available 18 hours a day?
    Mr. Seiter. No, the day room area.
    Ms. Sanchez. The day room area. Are computers available to, 
let's say, heads of household?
    Mr. Seiter. There is a computer lab that is daily available 
to students that are in school. And I do now know how often it 
is available to parents that would like to go to the?
    Ms. Sanchez. Is there an Internet connection, do you know?
    Mr. Seiter. I do not. I would be happy to find that out and 
get back to you.
    Ms. Sanchez. Yes, I would like that.
    I am going to let my ranking member ask a question as soon 
as I finish with just this one.
    How are your detention centers different than the jails 
that you operate as a private company? I mean, what kind of 
different training do you give your staff that handles 
detainees versus staff that would handle a county jail or 
whatever one of your other clients might be?
    Mr. Seiter. Well, it depends. In some ways, it is 
different; in some ways, it is not.
    We are responsible for the care, for the safety, and for 
the security of the detainees or the criminals that we hold. 
And depending on the classification of that and how serious the 
background of the individual, if they are a criminal, they 
would receive different kinds of training for that.
    We operate facilities for ICE that are both for criminal 
aliens and for non-criminal aliens. And so the criminal aliens 
are probably more like the prisons that we operate for the 
federal government, the Federal Bureau of Prisons, or the U.S. 
Marshals Service, or the 20 states that we service.
    For the non-criminal ICE facilities, those are a little bit 
different. And for the family facility, that training would 
have to be even more different.
    I was pleased to be able to spend some time with Michelle 
this morning, before the hearing, talking about their 
recommendation to develop some special kind of training for 
families. And we are going to follow up on that and see if they 
can help us identify some particular curriculum that they think 
would be appropriate for this unique population.
    Ms. Sanchez. But your staff wouldn't bark or threaten or be 
punitive towards children if they were talking too loud, would 
they?
    Mr. Seiter. You know, when I heard that, I tried to imagine 
exactly what would happen. And let me kind of put what I 
envision is probably the range, from being there myself and 
understanding an institutional environment.
    There has been no families removed from Hutto for violating 
policy. And, as I said, our responsibility has been a safe 
environment for children. I wouldn't doubt that, if children 
were doing something that someone did not feel was safe, that 
they might ask them, the parent to ask them, just as you would 
in any other environment.
    But we are very sensitive to the concerns of the families. 
Our philosophy is not one to bark orders. It is one to be 
communicative and proactive in dealing with the people under 
our car.
    And can I say that someone would bark orders at them to 
tell that child to stop that? I can't say they wouldn't, but 
the responsibility for the overseeing the behavior of the 
children, we emphasize is that of the parent.
    Ms. Sanchez. Children can be a little trying. Sometimes I 
have barked at them.
    The ranking member has graciously allowed Ms. Jackson Lee, 
who has a markup vote going on, to ask a question before she 
has to leave. So with that, I will yield over for a question to 
Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank both the chairwoman and, as 
well, the ranking member. Thank you for indulging me.
    This is a very important hearing. We happen to be called 
for votes, and I would like to thank the witnesses for their 
testimony.
    Mr. Seiter, I think the chairwoman had my line of 
questioning. The propensity of the Corrections Corporation of 
America is predominantly prisons, is that right?
    Mr. Seiter. That is correct.
    Ms. Jackson Lee. Do you have a basis of the percentage?
    Mr. Seiter. Of our business, about 6,000 of our 70,000 beds 
are contracted with ICE and would therefore be ICE detention 
facilities.
    Ms. Jackson Lee. Let me just--as my time moves quickly--say 
to you that we are not attempting to pull your fingernails out. 
And I hope that you appreciate our consternation.
    Particularly, the Hutto unit is in the state of Texas, and 
this message goes to, I guess, the ICE witness or the 
government witness, is that members of Congress want to see the 
truth so that we can be, if you will, the solution to the 
problem. And quick clean-ups and correct-ups really does not 
help.
    I offered an amendment to the border security bill under 
Chairman Sensenbrenner that had the premise of secure 
alternatives to penal institutions for the infirm, the elderly, 
families. So I appreciate my good friend, Mr. Cutler, who wants 
to ensure that the bad guys and maybe gals do not run amok, if 
you will.
    But I am incensed, first of all, that children are in a 
penal institution. You cannot deny that Hutto, the Hutto 
facility, is a prison. And many of these people are under the 
civilian premise, asylum seekers and others.
    And I would just like to ask--is it Ms. Fiflis?--as to 
whether or not an idea such as the secure alternative to a 
penal system for the elderly, the infirm and family members 
would be a reputable response.
    Ms. Fiflis. Yes, Congresswoman Jackson Lee, it would be. In 
fact, that is one of the action points, if you will, that the 
ABA wants to propose here, these types of humane alternatives 
to detention.
    Ms. Jackson Lee. Well, I will let you look at the amendment 
we had last year and hope, with the kindness of this committee, 
we might move in that direction.
    And forgive me, Ms. Brane?
    Ms. Brane. Brane, yes.
    Ms. Jackson Lee. Brane, so it is with an accent. Ms. Brane, 
you listed, I guess, a lot of the challenges we faced at this 
particular unit. When did you go to that unit?
    Ms. Brane. In December, December of 2006.
    Ms. Jackson Lee. Okay, so it is within a 6-month period. 
And you saw a lot of egregious elements.
    Would you believe that an alternative setting, other than 
what we call a penal institution, could begin to, one, secure--
that is, of course, you know, our responsibility--but, as well, 
respond to some of the issues that you saw, children in a penal 
system, the elderly, the infirm, pregnant women who may need 
extra care?
    Ms. Brane. Yes, absolutely, Congresswoman. In fact, we 
recommend alternatives. And there is a wide range of 
alternatives that could take into account some of the concerns 
that we have about enforcement or the dangerous elements that 
may be trying to enter the country.
    So these alternative programs could address that by 
requiring identification, that identification be established, 
that they not be found to be a threat to society or a danger to 
our society, et cetera. But, yes, absolutely, alternatives 
would be the right approach.
    Ms. Jackson Lee. Many of us are destined to visit the area, 
but, again, I say to Mr. Seiter, we don't want cosmetic fixes, 
which I believe is what ICE was trying to do.
    Are these people incarcerated in jails or open rooms with 
beds? How are they--I am talking to Ms. Brane.
    Ms. Brane. At the Hutto facility, it is a pod system, if 
you are familiar with the prison pod system.
    Ms. Jackson Lee. Yes.
    Ms. Brane. So families sleep in prison cells that still 
look very much like prison cells, although they have been 
painted and carpeted.
    And then there is a general rec area, as described by Mr. 
Seiter, that has some televisions. And at the time that we were 
there, we didn't see toys in that room, but apparently now 
there are toys.
    Ms. Jackson Lee. Well, let me conclude. Mr. Seiter, as I 
said, this is not an intentionally pointed direction, but I 
think we are wrong to have these kinds of facilities. I think 
we can do better.
    I have seen the one that you have in Houston, so I know the 
kind of structure it is. But we are talking about a real 
difficult mountain for you to climb. You are in the business of 
prisons. This has to have some divide as to what we are doing.
    Madam Chairwoman, this whole topic, I think, is vital, 
particularly how treat people in the whole question of 
families. And I will look forward to working with you.
    And I thank the Ranking Member for yielding to me, and I 
look forward to working with the panel. I yield back.
    Ms. Sanchez. Thank you, Ms. Jackson Lee.
    We will now listen to the ranking member for 5 minutes or 
as much time as you may consume.
    Mr. Souder. I think it is important to distinguish for the 
record here that at least 38 percent, from what we have heard, 
don't seek asylum, and they are, in fact, criminals.
    They have committed the crime of entering the United States 
and probably presenting false IDs, by definition, or they 
wouldn't be in the facility. That is a political debate as to 
how we deal with that, but under current law, that is 
indisputable.
    This 62 percent, which is apparently a declining 
percentage, that declare asylum, only one-fifth of those are 
proven to be really asylum seekers. And, quite frankly, my 
heart goes out to those who are true asylum seekers who are 
legitimate asylum seekers.
    And I am amazed, because, when I hear these kind of 
questions, I am just shocked that families who aren't true 
asylum cases would put their kids in this kind of situation by 
breaking laws. These aren't even Mexican illegals who are right 
on the border and we have much more--these are people who 
traveled great distances to violate American law.
    And I think that there ought to be more outrage. And, quite 
frankly, while I understand, traditionally, if you have broken 
a law, and you go to prison, your children, you don't have 
family reunification.
    And while that is a good goal, quite frankly, much of what 
I am hearing here on health care, on access to a gym, on 
whether or not there is a computer lab, people in rural America 
and urban America who are citizens, who don't break the law, 
don't have, and that there is a balance here, other than the 
true asylum seekers, who are in a kind of limbo court position 
here, who, in fact, are being abused by people who aren't 
seeking asylum or falsely seeking asylum, because they felt it 
would be their interest.
    And, to some degree, some of those may have a legitimate 
case. And there are all sorts of legal questions with that.
    But I particularly want to get into a question of the 
difficult question of asylum. And I had a couple of questions 
for Mr. Cutler. And let me ask the two questions, and I would 
be interested in your response.
    One of the challenges we have in the visa jumpers that you 
referred to is, I know from--this is not classified; it was 
told to me by Caribbean country leaders, in fact, the head of 
the Caribbean Group--that Muammar Gaddafi had been literally 
putting people in, establishing 5-year residency in E.U. 
islands in the Caribbean so they could get citizenship and then 
move in the United States.
    A similar thing is, is that, where there is asylum 
questions, which complicates our questions when people make 
claims, and we try to do deportation process, and you have 
worked with this.
    But in asylum seekers, even in the many that come into my 
area, for example, many Iraqis in my area used to be CIA 
agents--public forum meeting, not something I was told by the 
CIA--who were, that means by definition they were in the 
Republican Guard.
    Iraqis in my area would not meet with each other in my 
office, because they believed several of those who sought 
asylum in the United States were, in fact, planted Saddam 
agents with the goal of killing some of the leaders, 
particularly coming out of Detroit. I won't comment on whether 
that was verified or not, but let's just say it was a real 
dispute, and they wouldn't even meet in my congressional office 
for fear of killing each other.
    By nature, many even true asylum seekers are either--some 
are just poor people like from Darfur who are just being 
persecuted, but they come from violent areas. And even the 
question of asylum, how do we sort this through? And if we 
don't have these kind of detention facilities, if 90 percent 
have historically absconded, what type of risk are we having if 
we don't have the detention facilities?
    It isn't like an occasional absconding. And if we have kind 
of looser alternative ways, who is going to, in effect, be the 
bail bondsman? Who is going to take the liability for these 
type of cases?
    Mr. Cutler. Well, it is an excellent point that you are 
making. Look, the bottom line is that terrorists want to be 
able to embed themselves in our country.
    When the head of the FBI, Robert Mueller, spoke before the 
Senate Intelligence Committee, he spoke about his concern about 
sleeper agents. And, you know, we often hear about how, if we 
just let people come in that want to work, then the sun will 
shine and everything will be okay in the kingdom.
    The bottom line is, that a day before an attack, a 
terrorist is likely to go to the job that he or she has held 
for the last year or 2, creating a fictitious identity, hiding 
in plain sight. And that is the reason that I make a strong 
point in my own testimony that, before we allow people out 
among us, we need to be very careful that we are not putting 
people out there who are intent on doing harm to us.
    Back in the mid-1980s, I was in a situation where we 
arrested a guy who was apparently a dishwasher. He was a 
citizen of Egypt. And we finally caught him, and we really had 
to make an effort. He was running across the roofs of cars in a 
parking lot.
    We finally brought this guy in for landing, brought him 
back to his apartment. We found shopping bags filled to the 
brim with coupons. We have received the information, the 
intelligence that we should have received as agents, and we had 
no place to go with that intelligence.
    And this is something that you might want to consider 
addressing in some appropriate way. But when we got back to 
that apartment for those coupons, we had no idea what we 
witnessed. We ultimately removed this guy.
    And months later, to my chagrin and, quite frankly, I was 
really worked up, there was a story on TV about how Yassir 
Arafat had sent terrorists to our country to commit coupon 
fraud in order to generate millions of dollars in funds that 
was being used to buy explosives, weapons and so forth to carry 
out terrorist attacks around the world.
    We have got a very serious problem, because fraud right now 
is a huge issue. And to go just a little bit beyond that--and I 
know we are limited on time, but I think this is very, very 
important.
    Our people at USCIS are constantly chasing their own tails, 
trying to keep pace with the backlog. So the easiest way to 
keep the backlog in control is to just process applications 
quickly and approve things. So we wind up giving citizenship 
and residency to people who may well be terrorists.
    We just had a guy who was working as a private contractor, 
as a translator, on a military base in Iraq. He was a 
naturalized United States citizen. And now USCIS has to admit 
that they don't even know what his real name was.
    So this constant battle of the overflow of applications 
encourages more people to file more fraudulent applications, 
which further puts things back further, which causes the system 
to have to run faster. I use the analogy, it is kind of like 
Lucy at the bon-bon factory on steroids, but these aren't 
candies. These are applications for citizenship and other 
immigration benefits.
    And, in fact, one of the terrorists that I cited, the guy 
that was involved with the bombing of the subway, had canceled, 
had withdrawn his application for political asylum because he 
got involved in a marriage. So this whole thing is a matter of 
needing to be able to hold onto people, but we need the 
resources.
    You have got about 3,000 ICE agents right now dedicated to 
enforcing the immigration laws for the entire country. I am a 
New Yorker, and New York has been found to be the safest big 
city in the United States by the FBI Uniform Crime Report, if 
you look at their stats.
    But New York, with its eight million residents, that covers 
about 400 square miles of area, has 37,000 or 38,000 police 
officers. Here we have a multiple of the number of residents in 
the city of New York living illegally in our country, they are 
scattered across a third of the North American continent, and 
we have about 3,000 agents to try to do all those various, very 
critical interior enforcement missions, including employer 
sanctions, going after the fraud, participating in task forces, 
as I did for a number of years.
    So they are juggling as fast as they can, and the job isn't 
getting done. So the fraud slips by, and political asylum is 
just one of the ways that these folks seek to embed themselves.
    You talked about the documents. You know they are not even 
giving document training to the new agents going through ICE to 
help them to identify fraudulent identity documents? They are 
not getting the language training that they need.
    We are being told that we are waging a wage on terror, and 
when we fly, we have got to take our shoes off so that we don't 
conceal bombs in our shoes, as Richard Reid did, but yet 
Richard Reid, the shoe-bomber, was a British national who had 
access to that airplane and would have had access to our 
country under the aegis of the visa waiver program.
    So if you look at this, the immigration system is 
dysfunctional. It is not one issue: This is a boat with a whole 
bunch of holes in it, and we are trying to plug a couple of 
holes.
    Well, you don't know need to be a rocket scientist to 
understand that, if we don't plug all the holes in the boat, 
the boat is going to wind up on the bottom of the lake. This 
issue of detention is critical, but it is only, unfortunately, 
one of many holes that the immigration system is now suffering 
from.
    I know I have gone a little bit, you know, off from point, 
but what I am trying to get across is the idea that we are so 
vulnerable, because there are so many areas of exploitation. 
The terrorists who attacked our nation on 9/11--and I have to 
tell you, the ashes from 9/11 landed on my home, and I worked 
as a volunteer with 9/11 families for Secure America. They used 
364 different aliases, 19 people.
    So if we can't get a handle on all of this, we have got 
serious problems ahead, I fear.
    Ms. Sanchez. I thank the ranking member.
    You know, you mentioned that we are talking about--when I 
look at this, I look at just the fact that America holds its 
standard high, with respect to human rights around the world.
    And so, in asking about what type of situation exists, in 
particular for families and for children, I think it is 
important to note that we in the United States have a doctrine, 
if you will, that--and it stems from way back when we began 
this country with indentured servitude, that the children of 
parents who commit a crime have committed no crime. And it is 
not their fault.
    And, you know, we looked at this doctrine in particular 
when California passed Proposition 187, which tried to limit 
children going to school, and saying that, you know, we never 
go after the children of people who may be entering this 
country without the right documents, because it is not the 
children's fault.
    So I think it is incredibly important that children have a 
safe environment in which to grow up in, whether they are in 
this country or not. It is not through their own fault.
    And that is a reason why I am particularly very interested 
in their medical needs, in the education they receive, in the 
play time that they have, because it is a doctrine of this 
nation that children are so important. And it has been upheld 
ever since the beginning of the formation of this country.
    I would like to just ask one last question, because we have 
to end the session with--going to be another committee meeting, 
as you know, and we are going to have votes in just a few 
minutes, they tell me.
    This goes to the fact that Ms. Fiflis--am I pronouncing it 
right? I am sorry.
    Ms. Fiflis. Fiflis.
    Ms. Sanchez. Fiflis. Okay, Fiflis.
    Ms. Fiflis, Mr. Torres was here in an earlier panel. I 
don't know if you got to hear his testimony, but he mentioned 
that everybody gets legal representation, that phones are 
available if they can't afford the phone. I asked them that 
direct question, can you afford--what happens if, you know, it 
is too expensive to make that phone call?
    I mean, his answer was everybody--you know, you get free 
calls, you have access. I mean, he seemed to think there was no 
problem with respect to lawyers and having representation, if 
you were hanging out in the middle of Texas. And I haven't been 
down there, but I am assuming there is not too much around it.
    Just for the record, would you explain to us once again 
something called very basic legal access, that is also one of 
the basic human rights that we uphold in this country, what you 
have seen? And I don't know if Ms. Brane wants to join in on 
this, but I want to get for the record this whole issue of 
legal access.
    And the reason I asked about computers and Internet was not 
because I want them sitting there playing ``Brick-Basher'' or 
whatever these games are, but because sometimes Internet is an 
easy way to discuss with the outside world, especially legal 
terms, what is going on.
    Can you sort of--just for the record--again let us know, 
how difficult is it for families to get legal representation if 
they have been moved from the original area where they have had 
their lawyer or if they are now in this detention center and 
they are seeking to find a lawyer to help?
    Ms. Fiflis. Thank you, Madam Chair.
    Well, there are two categories of sources which would yield 
the factual responses to your questions. One category are the 
reports that are issued by the detention initiatives 
implementation committee reports, which are confidential. Our 
agreements, the ABA's agreement with ICE is to keep those 
reports confidential. We cannot provide you information that 
resides in those reports.
    The second category, the other category of information that 
is responsive to your question involves, as I testified, the 
letters and other communications from detainees themselves, as 
well as their legal counsel.
    I suppose a third category is my own experience in 
representing detained individuals, but I am here on behalf of 
the ABA.
    I can tell you that access to legal counsel, legal 
information is very difficult. Access to other services in the 
detention facilities are also very difficult.
    My experience in representing the 120-plus detainees that I 
currently represent, out of the Swift raids in Greeley, is, in 
fact, you know, my individual experience as an immigration 
practitioner. But I got a very hard and fast lesson in the 
denial of legal access or access to legal representation and 
legal information.
    And if I may, I just would like to address Ranking Member 
Souder's concerns about frivolous asylum applications along 
those lines. Provision of access to legal representation and 
legal information would, I believe, dramatically diminish the 
filing of frivolous asylum claims.
    When people have a correct understanding of the law and are 
represented adequately by competent attorneys, they won't file. 
They will be advised against frivolous asylum applications, 
because there are severe penalties for doing that.
    But in terms--I also would like to address.
    Mr. Souder. May I ask a follow-up question to that?
    Ms. Fiflis. Certainly, thank you.
    Mr. Souder. How would you do that? You mean at the border, 
at a raid, that rather than having the litigation process, 
could you provide something to them, saying that there are 
additional penalties for frivolous, and here are the basic 
criteria of eligibility?
    Ms. Fiflis. Yes, absolutely. Either private attorneys who 
have access to detainees, after they have been processed, will 
advise them of that, or the legal orientation programs, which 
are, I think, exist in only six or eight facilities out of the 
hundreds that exist in this country. And the legal orientation 
programs, that advice is rendered.
    Mr. Souder. Thanks.
    Ms. Fiflis. If I may address your question about telephone 
access, telephone access is a huge problem. In some facilities, 
attorneys are permitted to make telephone calls to their 
clients; in some facilities, they are not permitted to make 
telephone calls to their clients.
    In the El Paso Service Processing Center, with which I have 
had experience, that is such a facility. It is a huge facility. 
I don't know the capacity there, but I believe it is about 
1,300, versus the GEO Aurora facility, which is 400-plus.
    GEO Aurora allows attorneys to call in. El Paso doesn't. 
When you can't telephone your clients, it is impossible to 
prepare them for their hearings before the judges. It is 
impossible to advise them of, for example, they shouldn't be 
filing frivolous asylum claims.
    In those facilities where attorneys can't call in, 
detainees are permitted to call out, but sometimes the charges 
are a dollar per minute. Most recently in Denver, there was a 
full week--this is, granted, an unusual circumstance--but a 
full week where the phones were broken.
    There is one phone in that facility that attorneys can call 
into. When I want to call my clients, I call them after 9 
o'clock at night, because I know the other attorneys won't be 
working. The telephone access is a huge problem.
    Ms. Brane. I think she pretty much covered what I would 
have said. The only thing that I would add is that, very often, 
the telephones--I mean, she talked about a week with the phones 
broken completely. But the service where you are supposed to be 
able to call out free of charge to certain nonprofits who 
provide legal representation very often do not work.
    And, also, we have had several detainees report to us that 
guards often will take the phone out of their hand and hang it 
up when they are talking to their attorney.
    Ms. Sanchez. I thank the witnesses for all of your 
testimony and the members for their questions. And as you know, 
there is an incredible amount of work being done in the 
Congress.
    And I know that there are many competing hearings going on 
with us today, so many of the members of the subcommittee may 
have additional questions for you. And we will ask you to 
respond quickly in writing to those questions.
    And hearing no further business, the subcommittee stands 
adjourned. Thank you so much.
    [Whereupon, at 12:51 p.m., the subcommittee was adjourned.]


CROSSING THE BORDER: IMMIGRANTS IN DETENTION AND VICTIMS OF TRAFFICKING



                                PART II

                        Tuesday, March 20, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border, Maritime,
                                and Global Counterterrorism
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:11 p.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Cuellar, Souder, and 
Bilirakis.
    Ms. Sanchez. [Presiding.] Good afternoon. The subcommittee 
will come to order.
    The subcommittee is meeting today to receive testimony on 
``Crossing the Border: Immigrants in Detention and Victims of 
Trafficking, Part II.'' Today's hearing is the second in a two-
part series that is examining the issues surrounding the 
treatment of migrants by Immigrations and Customs Enforcement.
    Today's hearing will have two panels, which will primarily 
focus on the issue of human trafficking. I would like to begin 
by thanking our witnesses: Mr. Gabriel Garcia; Lieutenant Derek 
Marsh, all the way from Westminster, in Orange County, 
California; Ms. Ann Jordan; and Mr. Victor Cerda.
    Thank you for joining us today to discuss these important 
issues.
    In our last hearing, we discussed the challenges that the 
government faces in enforcing our immigration laws and ensuring 
that all people held in the government's custody are held and 
treated humanely, and finding effective alternatives to 
detention.
    Today, we have the opportunity to focus on the challenges 
the government faces in disrupting and dismantling human 
trafficking operations and ensuring that victims of trafficking 
are supported and treated accordingly.
    It is estimated that there are 600,000 to 800,000 
trafficked across borders annually, and between 2 million and 4 
million more are trafficked within their own countries. All 
these people, women and children, they are the primary victims 
of trafficking. So given the scope of this problem, we must 
continue to look at improving our ability to stop human 
trafficking.
    In today's hearing, I hope to discuss the ways the federal 
government and nongovernmental organizations are collaborating 
to stop human trafficking and provide support for the victims 
of trafficking.
    I am also interested to learn what may need to be done to 
allow enhanced collaboration between the different entities 
that are working to stop trafficking. I know that in my 
district in Orange County, California, human trafficking has 
unfortunately been a great concern in our communities and for 
our local law enforcement.
    The Orange County Human Trafficking Task Force was 
established in response to our community's needs. It brings 
together local law enforcement, federal agencies, and community 
service organizations to respond to the needs of trafficking 
victims. It also provides a forum to find ways to use the 
knowledge and experience of victims to aid law enforcement in a 
way that is sensitive to the trauma that is suffered by the 
victims of trafficking.
    I am very proud of the work that the Orange County Human 
Trafficking Task Force is doing, and I am also proud of the 
federal assistance that we have been able to provide to the 
said task force. These are the kinds of initiatives that we 
should be supporting, initiatives that mobilize local 
intelligence and resources, and that come from and are 
supported by our communities. This is the way that the federal 
government will have the best chance to stop human trafficking 
in the United States.
    I also would like to thank my ranking member, the gentleman 
from Indiana, because I know he has a very big interest and has 
for a long time in this whole issue of trafficking and 
political asylum and really how we treat people who rightfully 
have a place to be here in the United States. I look forward to 
working with him on this issue.
    I will now recognize the ranking member of the 
subcommittee, the gentleman from Indiana, for an opening 
statement.
    Mr. Souder. Thank you, Madam Chair.
    I would like to thank our witnesses for being here today.
    On our first panel, I look forward to hearing from Mr. Gabe 
Garcia from Immigration and Enforcement, ICE, on the 
investigations of human trafficking and the similarities in the 
criminal networks and techniques with criminal organizations 
involved in smuggling people and contraband.
    On the second panel, I would like to welcome Ann Jordan 
from Global Rights and Lieutenant Marsh from Orange County. I 
am very interested in your views on how human trafficking 
organizations operate and what tools are at our disposal to 
dismantle these criminal organizations.
    Lastly, I would like to welcome Victor Cerda, who is the 
former director of the Office of Detention and Removal and now 
is a practicing immigration lawyer.
    I think that you will have a lot to offer this subcommittee 
as a follow-up to Part I of this hearing on the role detention 
plays in securing the border, particularly as it relates to 
asylum seekers and victims of trafficking. I am also interested 
in your perspective on the judicial review process for these 
cases and what changes might be necessary in that area to 
facilitate the review process.
    During the hearing last week, John Torres, director of 
ICE's Office of Detention and Removal Operations, along with 
several private-sector witnesses, testified before the 
subcommittee on the issue of detention standards for illegal 
aliens, with particular focus on the detention of children and 
asylum seekers. Concerns were raised about the amount of 
education, federal staffing, and medical care provided to 
illegal aliens.
    I am particularly interested in following up during this 
hearing on options to address the 90 percent absconder rate for 
aliens not held in detention and the security risks associated 
with releasing individuals that have not been fully vetted and 
either granted admittance or ordered deported.
    We heard several examples where illegal aliens have 
exploited political asylum to avoid detention and remain in the 
U.S. For example, murderer Aimal Kasi and the 1993 World Trade 
Center bomb plotters Ramzi Yousef and Sheik Omar Abdel Rahman, 
who were granted political asylum.
    During this hearing, I hope through testimony and questions 
to explore how human trafficking and narcotics smuggling cases 
are investigated, particularly how DHS is able to investigate 
and dismantle criminal organizations, and whether there is or 
could be links between these organizations and terrorist 
groups.
    Human trafficking is now considered a leading source for 
profits for organized crime, together with drugs and weapons, 
generating billions of dollars.
    In addition to the horrible human rights abuses suffered by 
victims of human trafficking, these pipelines can be used by 
smuggling and trafficking organizations for the clandestine 
entry of undocumented aliens and may be exploited by terrorists 
to gain entry into the United States and attack our critical 
infrastructure.
    Several years ago, in 2004, there were public reports by 
people in the State Department providing evidence that 
terrorist groups are using human trafficking to acquire 
recruits, and that some terrorists are abducting children and 
making them child soldier slaves.
    At the same time, Secretary Powell was quoted as saying 
that human trafficking could very well help to finance 
terrorist activity. Additionally, Italy's Secret Service has 
reported that Al Qaida is in the business of smuggling illegal 
immigrants into Europe to fund terrorist activities.
    While many of these concerns cannot be discussed in a 
public hearing, I am very concerned that not enough work is 
being done analyzing these links. This is an area I hope the 
subcommittee investigates a significant amount of time in this 
Congress.
    Thank you, Madam Chair, for yielding the time, and I look 
forward to continuing to closely work with you on this subject.
    Ms. Sanchez. Great. I know that you are very interested in 
this subject.
    And I am grateful for the other members who are attending. 
I will remind them that, under the committee rules, opening 
statements may be submitted for the record.
    I welcome our sole witness on our first panel, Mr. Gabriel 
Garcia, ICE headquarters program manager of the Human Smuggling 
and Trafficking Unit. In that position, he is responsible for 
focusing on the criminal organizations that exploit global 
pipelines to bring undocumented aliens into the United States 
for profit. His responsibilities include providing guidance and 
operational support to our field agents.
    Agent Garcia's experiences include serving tours of duty 
with the United States Marine Corps and the United States Army. 
He was deployed in Desert Storm to Iraq as a military 
policeman, where he supervised a prisoner-of-war forward 
collection point. Also as a Border Patrol agent and a special 
agent in San Diego California, he was deeply involved in major 
human smuggling cases that involved wiretap operations.
    Without objection, the witness's full statement will be put 
into the record. I ask you, Mr. Garcia, to summarize your 
statement in 5 minutes or less.

 STATEMENT OF GABRIEL GARCIA, PROGRAM MANAGER, HUMAN SMUGGLING 
      AND TRAFFICKING UNIT, OFFICE OF INVESTIGATIONS, ICE

    Mr. Garcia. Good afternoon, Chairwoman Sanchez and 
distinguished members of the subcommittee. It is a distinct 
honor to appear before you today to have the opportunity to 
share with you ICE's role and our efforts in the fight against 
human trafficking. It is a crime that is global in scope, a 
crime that hinges on the victimization of vulnerable men, women 
and children, a crime that is a modern-day form of slavery.
    ICE is the investigative arm of the Department of Homeland 
Security, with broad statutory authorities, expertise and 
jurisdiction that reaches beyond the U.S. borders to countries 
overseas. Our 56 attache offices work hand-in-hand with foreign 
governments to identify and pursue the full scope of the 
criminal enterprise.
    I emphasize this because success against human traffickers 
worldwide lies in partnerships?partnerships with foreign 
governments, partnerships with nongovernmental organizations or 
NGOs, partnerships here in the United States with local, state 
and federal law enforcement agencies, Health and Human 
Services, the Department of State, the Department of Justice 
Civil Rights Division and their newly established Human 
Trafficking Prosecutions Unit, as well as the community at 
large.
    The human trafficking cases that I provide to you in my 
written statement really emphasize the reasons why we should 
foster and maintain productive and proactive relationships with 
those entities.
    Equally as important, though, is the employment of the 
victim-centered approach. That means that we recognize that 
victims have rights and that they require services and 
immigration relief to stabilize and rebuild their lives. I 
would like to note that the DHS secretary has delegated to ICE 
the authority to provide continued presence, or CP, which is a 
short-term immigration relief that is provided to victims of 
trafficking, which allows them to stay and remain in the United 
States for up to 1 year.
    Victims' can petition for long-term immigration relief as 
well. This is in the form of a ``T'' visa. ``T'' visa 
applications are filed with another DHS agency, the U.S. 
Citizenship and Immigration Service, or USCIS. A ``T'' 
nonimmigrant may remain in the United States for up to 3 years, 
and then apply for adjustment of status to that of a lawful 
permanent resident.
    At ICE, the victim-centered approach simply means that we 
place equal value to the rescue and stabilization of victims, 
as to the prosecution of traffickers. To that end, ICE has over 
300 victim coordinators nationwide. These are agents with 
specific training. They are the bridge to the NGO community.
    We are also engaging in an aggressive outreach campaign to 
educate local, state and federal law enforcement and NGOs on 
how to identify human trafficking, the services and immigration 
relief available to trafficking victims, the roles of NGOs, and 
the distinction between human smuggling and trafficking in 
persons.
    We also provide a toll-free number or tip line for human 
trafficking leads. We have developed laminated wallet-sized 
cards and brochures for law enforcement officers, as well as a 
DVD to be played at police roll calls. We also continue to 
focus on the statutory responsibility to train our own agents 
by mandating completion of a work-based human trafficking 
course developed as part of ICE's Virtual University.
    Equally important is the training of law enforcement 
officers and NGOs domestically and abroad. We have hosted and 
participated in numerous training sessions on human trafficking 
and victim issues for combined audiences of law enforcement 
prosecutors, and NGOs.
    We have developed human trafficking training modules, which 
are part of the permanent curricula at the International Law 
Enforcement Academies in Bangkok, Budapest, and San Salvador. 
These training modules focus on investigative methodologies, as 
well as victim identification, interviews and services.
    I recently returned from a Human Trafficking Experts 
Working Seminar hosted in Vienna by the United Nations. The 
working group consisted of 15 experts from the law enforcement 
and NGO communities throughout the world. Another ICE agent and 
I were the sole U.S. representatives at this law enforcement 
forum. The purpose of this working group is to develop human 
trafficking law enforcement training modules to be used as 
templates throughout the world. ICE was honored to share our 
expertise and methodologies at this global event.
    I would also like to highlight the importance of 
information exchange. ICE holds the directorship of the Human 
Smuggling and Trafficking Center, in which the Departments of 
Homeland Security, State and Justice, as well as the 
intelligence community, are principal stakeholders. The center 
serves as a fusion mechanism for intelligence, law enforcement 
and other information to bring more effective international 
action against human traffickers, smugglers, and criminals that 
facilitate clandestine terrorist travel.
    Lastly, ICE's approach toward human trafficking has 
resulted in the initiation of nearly 300 investigations, 184 
arrests, and over $1 million in seizures in fiscal year 2006. 
More importantly, during the same timeframe, we provided 
continued presence to 142 trafficking victims, which is 
approximately 74 percent of the total number issued within the 
U.S. government.
    In conclusion, ICE has the unique organizational ability to 
investigate human trafficking with a global reach, and provide 
short-term immigration relief to trafficking victims. We will 
continue to expand our outreach and training efforts to share 
our expertise in employing the victim-centered approach as we 
continue to build global coalitions.
    I hope my remarks today have been helpful and informative. 
I thank you for inviting me, and I will be glad to answer any 
questions you may have of me at this time.
    [The statement of Mr. Garcia follows:]

                  Prepared Statement of Gabriel Garcia

                             March 20, 2007

    Chairwoman Sanchez and Members of the Subcommittee, it is an honor 
for me to appear before you today to share U.S. Immigration and Customs 
Enforcement's (ICE's) efforts against human traffickers who exploit 
men, women and children--a form of modern-day slavery.
    Among the Department of Homeland Security (DHS) law enforcement 
agencies, ICE has the most expansive investigative authority and the 
largest force of investigators. Our mission is to target the people, 
money and materials that support terrorist and other criminal 
activities. The men and women of ICE accomplish this by investigating 
and enforcing the Nation's immigration and customs laws. ICE aims to 
systematically disrupt and dismantle the international and domestic 
operations of human traffickers, identify and seize assets and illicit 
proceeds, and identify systemic vulnerabilities that may be exploited 
by criminal elements to undermine immigration and border controls.
    I would initially like to provide an important clarification and 
necessary distinction between the terms ``human smuggling'' and ``human 
trafficking.'' These are not interchangeable terms. ICE views human 
smuggling as the importation of people into the United States involving 
deliberate evasion of immigration laws. Human trafficking on the other 
hand is sex trafficking in which a commercial sex act is induced 
through the use of force, fraud, or coercion; or the recruitment, 
harboring, transportation, provision, or obtaining of a person for 
labor or services, through the use of force, fraud, or coercion for the 
purpose of subjection to involuntary servitude, peonage, debt bondage, 
or slavery; or sex trafficking, in which a commercial sex act is 
induced by force, fraud or coercion. However, there need not be any 
force, fraud or coercion in cases of commercial sex acts where the 
victim is under 18. Simply stated human smuggling is transportation-
based and human trafficking is exploitation-based.
    The Department of State estimates that 600,000 to 800,000 people 
are trafficked across international borders each year. Men, women and 
children are trafficked into the international sex trade and into 
forced labor situations throughout the world. Many of these victims are 
lured from their homes with promises of employment; instead, they are 
forced or coerced into prostitution, domestic servitude, farm or 
factory labor or other types of labor.
    Given the international scope of human trafficking, we at ICE 
maintain a global perspective and foster strong international 
relationships through our 56 Attache offices located throughout the 
world. Our ICE Attaches work with host country law enforcement to 
better coordinate investigations and to fully identify and pursue the 
full scope of the criminal enterprise.
    This is accomplished by targeting recruiters, brokers, document 
providers, travel agencies, corrupt officials, smugglers and businesses 
engaged in criminal activities at source and transit countries. ICE 
also works with its foreign law enforcement partners to target the many 
bank accounts, wire transfers and funding mechanisms that fuel the 
criminal enterprise.
    To exemplify worldwide collaboration, I'd like to talk about two of 
our recent cases. A human trafficking investigation was initiated based 
on information received from the ICE Attache, Moscow, Russia, involving 
the possible trafficking of a Russian national. The ICE Attache 
reported that the Ministry of Foreign Affairs in Yekaterinburg, Russia, 
received information from a concerned mother that her daughter was 
being held against her will at a Florida residence. This lead was 
forwarded to the respective domestic field office. ICE agents located 
the victim and determined that she was held against her will, beaten, 
and forced into prostitution by the defendant in this case. The victim 
was placed under the care of a service provider. The ICE Attache in 
Moscow worked with a Russian anti-trafficking NGO who contacted the 
victim and counseled her until the victim felt comfortable and agreed 
to cooperate. The trafficker was arrested, indicted and ultimately pled 
guilty to trafficking charges.
    The second human trafficking case was started similarly by the 
mother of a trafficking victim reporting to the U.S. Embassy in Mexico 
City that her daughter had been kidnapped and was being held against 
her will at a New York residence. This information was forwarded to our 
agents in New York who subsequently located and rescued the daughter as 
well as several other women. Our investigation disclosed that the women 
had been romantically lured by male members of the Carreto family, who 
forced them into prostitution through physical abuse and threats to 
their children, who were cared for by the traffickers' mother in 
Mexico. The two lead defendants in this case were each sentenced to 50 
years imprisonment for sex trafficking, which is the longest sentence 
imposed on a human trafficker since the enactment of the Trafficking 
Victims Protection Act. Two women were also indicted on human 
trafficking charges in this case and were fugitives in Mexico. 
Recently, one of these women was extradited to the United States to 
stand trial.
    We at ICE recognize that cooperation and collaboration can and 
should extend beyond the law enforcement community. Non-Governmental 
Organizations (NGOs) play a vital role in the fight against human 
trafficking. For law enforcement agencies to have any level of success, 
we must establish and maintain productive and proactive relationships 
with NGOs. We at ICE employ a victim-centered approach utilizing over 
300 victim/witness coordinators nationwide--these are agents with 
specific training that are the bridge to the NGO community.
    We not only seek to prosecute traffickers, but to rescue and 
stabilize trafficking victims. We also recognize that victims have 
rights and require services and temporary immigration relief to 
stabilize them. In each of the cases cited above, we rescued 
trafficking victims and granted them ``Continued Presence,'' which is 
also part of our ``victim-centered approach.'' The DHS Secretary has 
delegated to ICE the authority to provide ``continued presence,'' which 
is a short-term immigration protection which allows certified victims 
of trafficking to remain in the United States for up to one year to 
enable them to apply for ``T'' nonimmigrant status. Applications for 
``T'' nonimmigrant status are filed with another DHS agency, the United 
States Citizenship and Immigration Services (USCIS), which reviews and 
adjudicates these applications. Typically, those who have been granted 
``continued presence,'' if otherwise eligible, are granted ``T'' 
nonimmigrant status. A ``T'' nonimmigrant may remain and accept 
employment in the U.S. for up to 3 years and then apply for adjustment 
of status to that of a lawful permanent resident.
    The immediate provision of stabilizing services is only possible 
through strong partnerships with other Federal partners and the NGO 
community. Once adult victims are issued CP or ``T'' nonimmigrant 
status, they may be able to access a wide range of federal benefits and 
services through certification from the Department of Health and Human 
Services.
    No case better highlights the great relationship between ICE and 
NGOs than Operation Traveler, an investigation that was launched based 
on information provided by an NGO.
    In mid 2004, ICE agents executed the final phase of Operation 
Traveler, serving search warrants at three seemingly middle-class 
bungalows in suburban New York. What they found was one of the most 
horrific cases of human trafficking and slavery in recent U.S. history. 
Inside those homes were 69 Peruvians--including 13 children--being held 
in over-crowded and unsanitary conditions. They were brought to the 
United States by a couple who identified their victims in Peru, gave 
them false documents, coached them on how to lie to U.S. Embassy 
officials, and helped them enter the United States on fraudulently 
obtained tourist visas. They charged the victims smuggling fees ranging 
from $600 to $13,000 per person. In addition to the smuggling fees, the 
victims were required to pay the couple ``rent'' for living in those 
squalid conditions. The victims were forced to turn over their 
passports, given jobs and held in virtual bondage.
    Fortunately, the victims in this case were rescued. They are now 
under federal protection, and the lead defendant was sentenced to 15 
years in a federal prison. An additional success story in this case, is 
that after the enforcement action, the positive relationship between 
NGOs and ICE led to the identification of 25 additional trafficking 
victims. The fact that the initial lead was provided by the NGO, and 
after the enforcement action, 25 additional victims were identified 
underscores the need to have a productive and proactive relationship 
between law enforcement and NGOs.
    As evidenced by the cases I cited, success in the fight against 
trafficking lies with partnerships. As important as partnerships, 
though, are outreach and training. We at ICE are engaged in an 
aggressive outreach campaign to educate local, state and federal law 
enforcement and NGOs on how to identify human trafficking, the services 
and immigration relief available to trafficking victims, the roles of 
NGOs and the distinction between human smuggling and trafficking. We 
also provide a toll free number or tip line for human trafficking 
leads. We've developed laminated wallet-size cards and brochures for 
law enforcement officers and a DVD to be played at police roll calls.
    We continue to focus on the statutory responsibility to train our 
own agents by mandating completion of a web-based human trafficking 
course developed as part of ICE's Virtual University. Equally important 
is the training of law enforcement officers and NGOs domestically and 
abroad. We have hosted and participated in numerous training sessions 
on human trafficking and victim issues for combined audiences of law 
enforcement, prosecutors and NGOs. We developed human trafficking 
training modules, which are part of the permanent curricula at the 
International Law Enforcement Academies (ILEA) in Bangkok, Budapest, 
and San Salvador. These training modules focus on investigative 
methodologies as well as victim identification, interviews and 
services.
    I recently returned from a Human Trafficking Experts Working 
Seminar hosted in Vienna by the United Nations Office of Drugs and 
Crime. The working group consisted of 15 experts from the law 
enforcement and NGO communities throughout the world. Another ICE agent 
and I were the sole U.S. representatives. The purpose of this working 
group is to develop human trafficking law enforcement training modules 
to be used as templates throughout the world. ICE was honored to share 
our expertise and methodologies at this global event.
    Lastly, I would like to highlight the importance of information 
exchange. ICE holds the directorship of the Human Smuggling and 
Trafficking Center (HSTC). The Departments of Homeland Security, State 
and Justice, as well as the intelligence community are integral 
stakeholders. The HSTC serves as a fusion center for intelligence, law 
enforcement and other information to bring more effective international 
action against human traffickers and smugglers, and criminals 
facilitating terrorists' clandestine travel. ICE and the HSTC work 
closely together on human trafficking and smuggling issues.
    In conclusion, ICE has the unique organizational ability to 
investigate trafficking in persons with a global reach and provide 
short-term immigration relief to trafficking victims. We will continue 
to expand our outreach and training efforts to share our expertise in 
employing the victim-centered approach as we continue to build global 
coalitions.
    I hope my remarks today have been helpful and informative. I thank 
you for inviting me and I will be glad to answer any questions you may 
have at this time.

    Ms. Sanchez. Thank you, Mr. Garcia.
    I am now going to take my time and ask you a few questions 
with respect to your testimony.
    Going back to the CP status, in testimony submitted by the 
second panel that is going to come after you, one of the things 
that they said was that there has been a big delay in ICE's 
processing of CP applications in the past year.
    Do you know how long it is currently taking to process a CP 
application for a victim of trafficking? Do you understand or 
know why that delay is happening? Is it a lack of resources? 
And what do we need to do to reduce that backlog and decrease 
the processing time? And what do you think is an acceptable 
amount of time to process that?
    So what do you think the time is now? Do you know if there 
is a delay? Do you know why the delay has occurred? How can we 
solve that? And how long do you think it should take to 
process?
    Mr. Garcia. The CP application process lasts approximately 
1 month. There has been some turnover within that section of 
resources. Therefore, the timeline for a CP application process 
should decrease. The ideal time for us to be able to process a 
CP process should be approximately 2 weeks.
    Ms. Sanchez. So do you think it was just because of the 
switchover of people or do you think we actually need to put 
some more resources so that we can get down to that 2 weeks?
    Mr. Garcia. It is the turnover of personnel.
    Ms. Sanchez. So it is just the turnover, but you are 
getting the new personnel in and you are training them and all?
    Mr. Garcia. Correct.
    Ms. Sanchez. Okay. Can you explain the ICE process for 
handling victims of trafficking identified during enforcement 
actions? Can you tell us how you would handle adult victims? 
How you would handle accompanied minors? And how do you handle 
unaccompanied minors?
    Mr. Garcia. Absolutely. I think I would like to preface 
this by stating that it is seldom encountered when a 
trafficking victim identifies themselves as a trafficking 
victim. Traffickers are experts in manipulation of human 
beings.
    We have this perception that there is a need for physical 
restraints or physical abuse for these traffickers to have 
control over trafficking victims. But what happens is that they 
employ what we call mental means of coercion, which a subtle 
threat to a family member or threat to that victim, or threat 
that the family would assume the debt of that trafficking 
victim, may actually force them to stay within that situation.
    Therefore, this is the mental state that we encounter in 
trafficking victims. They have been traumatized. We recognize 
that. So upon encountering a potential trafficking victim at an 
enforcement action, our goal is to be able to determine whether 
or not that person is a trafficking victim.
    So therefore we go through an interview process. The 
interview process is extensive. We work hand-in-hand with 
nongovernmental organizations. Like I said, our goal is to 
determine whether or not that person is a trafficking victim.
    Ms. Sanchez. Do you do it yourself, or do you have outside 
organizations help you to do that? What about language and all 
of that?
    Mr. Garcia. We provide the linguists. When we plan a 
medium-scale to large-scale operation, we prepare with the 
linguistic skills. We reach out in advance to nongovernmental 
organizations to at least give them advance notice so that they 
could be prepared to handle the volume of potential victims 
that we are going to encounter. It depends on the scale of the 
operation. We have engaged in some large-scale enforcement 
operations in which we have encountered up to 100 potential 
trafficking victims.
    Therefore, what we do is we arrange lodging, which we pay 
through our funding, and we take a period of time, and normally 
it takes about a week's time in the large-scale operations, to 
be able to determine whether or not they are trafficking 
victims. And we are there with NGOs. NGOs are doing their 
interviews and we are doing the law enforcement interviews.
    We also provide culturally sound food, with appropriate 
clothing throughout the enforcement operation, and it is a 
secure environment and a covert environment. Therefore, it 
wouldn't be public where the processing interviews are taking 
place.
    Ms. Sanchez. If you are going to do a raid, let's say, 
where you think that there are 50 people enslaved, and yet you 
have the traffickers there. How do you ensure that you are 
going to get the traffickers and you are going to do the law 
enforcement piece to them? And at the same time, handle the 
trauma that these trafficked people are going through?
    Mr. Garcia. It is a challenge. This is why corroboration of 
information is essential for us to be able to identify the 
traffickers themselves. But what is encountered at times is 
that you may have enforcers that may be women that may be among 
the potential victims that we encounter. This is where 
isolating the victims and doing the extensive interviews from 
the law enforcement perspective and the NGOs, we are able to 
identify who these enforcers are and take them out of the 
equation, because they do have an influence on the victims of 
trafficking.
    Ms. Sanchez. And lastly, what trends are you seeing with 
respect to human trafficking, especially into the United 
States? Predominantly what parts of the world are they coming 
from? Are there certain schemes that are being used? What are 
you seeing lately as far as trafficking? I know it is up, even 
though we have spent a lot of effort worldwide to try to bring 
it down and make other countries aware of how important this is 
to stop.
    Mr. Garcia. It is a global issue and it is a hidden crime. 
We encounter every typology of recruiting mechanisms that are 
out there, from classified ads, from town visits, from romantic 
lures, even word-of-mouth as a recruiting mechanism. Sometimes 
we will ask ourselves, how could word-of-mouth be a positive 
recruiting mechanism for these traffickers?
    What I will pose is that if a victim of trafficking has the 
opportunity to call back home at the source country, to any 
family member or friends, more than likely that person is not 
going to tell them that he or she was forced into a commercial 
sex situation or slavery situation. More than likely they are 
going to say that they are employed as a nanny or working in a 
factory, et cetera.
    So what this does is it fuels this positive marketing 
campaign back at the source country, where the relative or the 
friend is telling the neighbor, ``See, my relative went to New 
York to this person and he or she is doing great.'' This fuels 
a positive marketing campaign for these traffickers.
    So the typologies for recruiting mechanisms are broad in 
scope, and the same for the purpose of the exploitation here in 
the United States. We encounter domestic servitude situations, 
other forced labor situations, as well as commercial sex. So 
what we encounter is broad in nature.
    Ms. Sanchez. Thank you, Mr. Garcia.
    I will now recognize for his 5 minutes Mr. Souder of 
Indiana.
    Mr. Souder. Thank you.
    I know it is extremely critical to stay victim-centered, 
but is your first cut a security cut? In other words, how do 
you factor security in when you are doing detainees and 
studying this trafficking?
    Mr. Garcia. There is room for us to have a victim-centered 
approach and still counter the two-pronged threat. The public 
safety threat is the exploitation part of the infrastructure, 
as well as the national security threat, which are the criminal 
travel networks that traffickers use to facilitate the 
transnational movement of foreign nationals.
    Therefore, in the employment of the victim-centered 
approach, as soon as we are able to corroborate information on 
the particular exploitation of potential victims, at that point 
we develop an operational plan to engage in a reactive 
enforcement action. Normally, this could be viewed by different 
law enforcement agencies as just being reactive in nature, but 
that is not so. A reactive situation can be made into a 
proactive, comprehensive, transnational investigation in which 
we are able to identify and pursue the full scope of the 
criminal enterprise.
    That means at the source country, transit country and the 
destination country?the infrastructure in the source country 
being that of document providers, travel agencies, brokers, 
corrupt government officials; and the same thing with the 
transit countries, where you have your staging brokers. And of 
course, here in the United States, you have your transportation 
infrastructure, your distribution infrastructure, and your 
receiving infrastructure, in addition to your exploitation 
infrastructure at the end of the process.
    Mr. Souder. Do you see that these prostitution rings and 
sex slave rings also do other types of human trafficking, such 
as drug smuggling or other contraband smuggling?
    As I mentioned in my opening statement, the Italians say 
that some of that in Europe seems to be moving over to 
potentially funding terrorism. Do you see that in any cases 
that you can talk about in open mic?
    Mr. Garcia. Traffickers use criminal travel networks. 
Criminal travel networks rely on transnational alliances. They 
rely on loose confederacies. Because of that fact, they can 
engage in the movement of other commodities as in narcotics, 
money, et cetera. Therefore, yes, that is something that is 
encountered from the criminal travel network perspective. Yes.
    Mr. Souder. What percentage of illegal trafficking would 
you say is prostitution, sex slaves-related, as opposed to 
making garments illegally or trafficking in labor?
    Mr. Garcia. I could tell you from the attorney general's 
report. The majority of it is going to be focused on the 
purpose of commercial sex, in contrast to labor. This is what 
we have encountered as an agency, but this is where outreach 
and training are so important.
    With our boots on the ground, which is state and local law 
enforcement that encounter the types of situations on a daily 
basis, as well as foreign governments, as well as NGOs?all of 
us are engaged in a training campaign so that we can identify 
the indicators.
    Mr. Souder. Do you have detailed records? If so, could you 
submit them to us, that would separate that, and would also 
show how much it is people being sold into sex slavery for use 
of one person versus for prostitute purposes, or the different 
variations of this?
    And also if you have, just in broad terms?I assume you have 
some kind of report that you have put together; I think I have 
seen Mr. Miller's report before when he was at the State 
Department?that we could show in our record what percent may be 
under a certain age?
    Increasingly from Asia, young minors are sold for 
prostitution or for individual sex slavery, and even underage 
marriages, which are illegal, but in some of those countries 
they are trying to get away with that.
    Mr. Garcia. The statistics that I can provide are the 
demographics of the trafficking victims in which we provide 
continued presence. A majority of these are going to be from 
Latin America and Asia, the countries being Mexico, El Salvador 
and Korea, as well as for extensions for continued presence, 
which would include the country of Peru.
    The majority of these are from large-scale cases. What I 
mean by that is enforcement operations and investigations that 
yielded us encountering a large number of trafficking victims. 
I will note Peru being one of them in which it was a case in 
which we encountered over 60 trafficking victims.
    Mr. Souder. Thank you.
    Ms. Sanchez. Mr. Cuellar of Texas is recognized for 5 
minutes.
    Mr. Cuellar. Thank you, Madam Chair.
    Chief Garcia, thank you very much for the service that you 
provide, particularly in my hometown of Laredo. I want to thank 
them for starting Operation Blackjack, which I believe has been 
a model for different parts of the country.
    You all have, what, about 56 attaches in other nations. 
That includes the Republic of Mexico also, I assume?
    Mr. Garcia. Correct, sir.
    Mr. Cuellar. Are you familiar with the missing Laredo 
Americans that we have had? I think we have lost about 60 
Americans? Are you familiar with that particular issue?
    Mr. Garcia. No, not at all.
    Mr. Cuellar. Okay. Could I ask you to?and I have a copy of 
a Web page. I will get this. It is called LaredoMissing.com. We 
have had some young ladies?Yvette Martinez is 27 years of age, 
attended high school in Laredo and Laredo Community College. 
There is Brenda Cisneros, that attended school there in Laredo. 
And some other ones that have been missing.
    We have been having difficulty working with our 
counterparts across the river in trying to get this 
information. I would ask you if you could get back to the 
committee, or in particular get back to me, on some specific 
answers through your investigative cooperations that you have 
with your host country, which is Mexico. I think the problem 
has been that we jus haven't got a single answer from across 
the river on this.
    I know that our Homeland Security will be heading sometime 
in the future to Mexico and will bring it up, but we would like 
to follow up specifically on the missing Americans that we have 
in Laredo, or should I say, basically you have Laredo; they go 
across the river.
    For example, the two young ladies that I am talking about, 
and there are other ones, Yvette Martinez and Brenda Cisneros 
went to a concert in Nuevo Laredo. They called their mom after 
the concert and said, ``Mom, we are coming home.'' They never 
got to the bridge.
    Eventually, the father found the car in a police impound in 
Nuevo Laredo, so you can gather what basically happened there. 
After the police, they had no idea what was going on, or they 
had no information.
    I really, really would appreciate it if you can use your 
attache and get me some specific answers on this particular 
issue.
    Mr. Garcia. Absolutely.
    Mr. Cuellar. Thank you.
    Thank you, Madam Chair. I don't have any other questions at 
this time.
    Ms. Sanchez. I thank the gentleman from Texas.
    I now recognize the gentleman from Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you very much, Madam Chair. I 
appreciate it.
    Thank you, Mr. Garcia.
    Like many Americans, I am deeply concerned about the 90 
percent absconder rate that our immigration system has. What 
steps is ICE taking to help alleviate this unacceptable 
situation?
    Mr. Garcia. Sir, that is a question that I would like to 
take for the record.
    Mr. Bilirakis. Sure.
    Mr. Garcia. That is outside my scope of expertise.
    Mr. Bilirakis. Okay. You don't want to attempt it, either?
    Mr. Garcia. This would be for the record.
    Mr. Bilirakis. Okay. All right. How long does it take for 
the U.S. to determine the true identity of someone seeking 
asylum?
    Mr. Garcia. As is or akin to any person attempting to make 
entry into the United States, we run names through different 
indices?immigration indices, federal indices, criminal indices. 
Therefore, a determination can be made on the true identity of 
an individual from the U.S. perspective and from information 
that we have in our databases I would say rather quickly.
    Now, information that would further identify an individual 
from the source country, that would take additional time. That 
is something that can work trough our attaches.
    Mr. Bilirakis. Do you prematurely release individuals from 
detention before we know their true identity beyond a 
reasonable doubt?
    Mr. Garcia. I would like clarification: This is anyone that 
we encounter?
    Mr. Bilirakis. Yes.
    Mr. Garcia. If we disposition the person prior to knowing 
the true identity?
    Mr. Bilirakis. Yes.
    Mr. Garcia. Basically, with biometrics and information that 
we have, that is run through the indices here in the United 
States. So if that individual doesn't have any derogatory 
information or any additional information that would identify 
that individual, that person may be released because we don't 
have the derogatory information.
    Mr. Bilirakis. Okay. Do you have the capability to detain 
these individuals? Do you have the capability to detain these 
individuals, in general?
    Mr. Garcia. We have the capability to detain individuals, 
yes.
    Mr. Bilirakis. Okay. Thank you very much. I appreciate it.
    Thank you, Madam Chair.
    Ms. Sanchez. I thank the gentleman from Florida.
    Lastly, Mr. Garcia, have you at ICE identified any 
connection between human traffickers and terrorism? In other 
words, is this a way that the terrorists are financing? Is 
there any connection? Have you been able to identify the people 
who are bringing in people for commercial sex or the garment 
industry or other things, do they have a connection to 
terrorism?
    Mr. Garcia. There was a tasking to the Human Smuggling and 
Trafficking Center under the purview of the Senior Policy 
Operating Group, or SPOG, which is the governing body over 
human trafficking policy issues. As I recall, there is no 
distinct link between terrorist financing and human 
trafficking.
    Ms. Sanchez. So people who are bringing in humans for this 
type of purpose, commercial sex and work and indentured 
servitude, are doing it for the money?
    Mr. Garcia. Yes. It is financially motivated.
    Ms. Sanchez. And lastly, how much do you think we catch, 
versus how much is really happening coming into the United 
States?
    Mr. Garcia. Trafficking is a very hidden crime, and its 
victims very seldom self-report.
    Ms. Sanchez. What would you estimate? Do we catch 10 
percent of it, 50 percent of it?
    Mr. Garcia. I could only report really what we encounter. 
Now, this is why we find it important for us to continue the 
training campaigns and the outreach campaigns, because the more 
people learn how to identify trafficking in persons, we are 
going to be able to identify more trafficking victims.
    Ms. Sanchez. But you think there is more out there?
    Mr. Garcia. Absolutely.
    Ms. Sanchez. Double what you have encountered? Do you 
stumble upon it a lot of times? Does it really take assets 
focused right on the issue in order to get to it?
    Mr. Garcia. We normally encounter these situations through 
various forms, through information provided by different 
sources; information provided into the tip lines. As a 
government, we are moving to actually engage and move towards 
proactive means of identifying traffickers and situations, 
working hand-in-hand with source countries and transit 
countries.
    Therefore, yes, there is room for us to be able to identify 
additional victims. We have only touched the surface of the 
issue. I can only report what we encounter.
    Ms. Sanchez. Thank you, Mr. Garcia.
    I don't know if my ranking member has any final comments.
    Mr. Souder. I wanted to follow up to your question, because 
it is similar to one I asked. You said that you felt that the 
nexus was the travel organizations who are often or could be 
similar travel organizations to narcotics contraband or 
terrorist networks.
    In other words, it wasn't necessarily the same individual 
who is smuggling people and prostitution and sex slavery, but 
the organizations that they use could be the same?
    Mr. Garcia. Absolutely. I wanted to make the distinction 
that when we are talking about the traffickers, the trafficking 
infrastructure, and the distinction between that and the 
criminal travel network, the trafficking infrastructure we are 
looking at the recruiters, brokers, et cetera, in the source 
country. And then you have your exploitation infrastructure in 
the United States.
    What is in the middle is the criminal travel network. 
Therefore, that is the infrastructure that may be engaged in 
the movement of other commodities.
    Mr. Souder. Do you see much Russian or Eastern European 
trafficking?
    Mr. Garcia. Yes.
    Mr. Souder. Are they involved in other organized crime as 
well?
    Mr. Garcia. Yes.
    Mr. Souder. So that wouldn't necessarily be true of that 
subgroup?
    Mr. Garcia. Correct.
    Mr. Souder. Some of us feel prostitution, by definition, is 
sex slavery. Are they entitled to asylum?
    Mr. Garcia. What trafficking victims are entitled to are 
the immigration will relieved for the short term, or they can 
apply for long-term immigration relief. Now, if that person 
comes from a country in which they can apply for asylum, I 
believe so. But I could only account for the immigration relief 
that we can provide as an agency, which would be continued 
presence.
    Mr. Souder. So the only thing you can is what again? 
Continued presence?
    Mr. Garcia. As an agency, U.S. Immigration and Customs 
Enforcement, the authority that we have is to issue continued 
presence, which is the short-term immigration relief.
    Mr. Souder. Okay. So you are not involved in who gets 
asylum and who doesn't?
    Mr. Garcia. Correct.
    Mr. Souder. So our questions on accelerated asylum are not 
your decision?
    Mr. Garcia. Correct.
    Mr. Souder. Okay. I am interested in this question, because 
ironically one of the huge debates that I have been involved 
in, and others, and it is in the second panel's testimony, 
which unfortunately I have a major meeting I have to go to. I 
am going to try to get back for the end of the second panel. 
But there is obviously a huge debate about how prostitution 
plays into the international debate.
    Basically, according to witnesses in the second panel, I am 
one of the bad guys because I believe groups that encourage or 
don't discourage prostitution should not get federal funds. At 
the same time, I, ironically, because I believe prostitution is 
sex slavery, would be more amenable to asylum. If it is viewed 
as not that, you don't have the same eligibility.
    So this debate is likely to continue as a sub-part of this 
issue and how we rectify it. But that is what I wanted to sort 
out. That isn't really going to affect you because you just 
hold people until asylum cases are resolved. So the whole 
question of prostitution is irrelevant for the purposes of this 
hearing.
    Thank you.
    Ms. Sanchez. I thank the gentleman from Indiana. If you 
want to leave your question at this point written, I will 
certainly put it forward to our panel and hopefully get you 
information faster than if you wait to submit it later, if you 
are not going to be around.
    Mr. Souder. Hopefully, I can get back.
    Ms. Sanchez. Okay. Thank you.
    Thank you, Mr. Garcia, for your testimony.
    I am sure the panel?and we have a very busy day today. You 
have probably seen all the elevators and everything else jam-
packed. So everybody has heavy schedules today, but I am sure 
some of my colleagues will probably have some questions for you 
in writing. I know that you have a couple already on record 
that you said you would submit.
    So expect us to get back to you and please submit them in a 
quick manner, if you will.
    Mr. Garcia. Absolutely. It would be an honor. Thank you.
    Ms. Sanchez. Thank you.
    And then I am going to welcome the second panel of 
witnesses, if they will come forward.
    I do welcome the second panel of witnesses.
    Our first witness, Dr. Derek Marsh, has worked at the 
Westminster Police Department for almost 20 years, serving for 
the last 3 years with the Detective Bureau. In that assignment, 
he has been responsible for all detectives at the department, 
the Property Bureau, the Forensic Services Bureau, the Computer 
Forensics Unit, and the Court Liaison.
    Also, Lieutenant Marsh became involved with human 
trafficking shortly after his assignment to the Detective 
Bureau. His participation in the Orange County Task Force began 
3 years ago, and he is currently the co-chair of the task 
force. Lieutenant Marsh holds a master's degree in human 
behavior from National University.
    Our second witness will be Ms. Ann Jordan, an attorney who 
has specialized in protecting the rights of trafficked persons 
for more than a decade. As director of the Global Rights Anti-
Trafficking Initiative, she trains and collaborates with Global 
Rights staff in using and training others in human rights-based 
legal advocacy to combat trafficking. She works with an 
international network of anti-trafficking nongovernmental 
organizations.
    She also is a founding coordinator of the Freedom Network 
USA, the only nationwide anti-trafficking network. Ms. Jordan 
has worked as a law professor at the Chinese University of Hong 
Kong. She was a Fulbright Scholar and has written extensively 
on the human rights of women in Asia and the rule of law in 
Hong Kong. She holds a J.D. from Columbia Law School and a B.A. 
from Columbia University.
    Our third witness is Victor Cerda. He is currently the 
partner in Washington, D.C.'s office of Siff & Cerda, and 
focuses his legal practice on complex immigration matters. In 
2005, Mr. Cerda concluded a 10-year government career in 
immigration at the Department of Homeland Security. At the 
department, Mr. Cerda served as the acting chief of staff and 
counsel to the assistant secretary of U.S. immigration and 
customs enforcement, what we know as ICE.
    As counsel, he provided policy and operational oversight 
over a myriad of ICE mission areas, including detention and 
removal, the worksite enforcement national strategy, customs 
investigations, and high-profile immigration removal cases, 
including national security cases. Mr. Cerda concluded his ICE 
career as the acting director of the Office of Detention and 
Removal Operations. He is a graduate of Brown University and 
received his J.D. from DePauw University.
    I welcome all of you. I look forward to your testimony.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each of you to summarize your statement in 5 
minutes or less. I will begin with Lieutenant Marsh.
    Welcome, and in particular, too, because he is from Orange 
County. Welcome to the committee.

STATEMENT OF LIEUTENANT DEREK MARSH, CO-DIRECTOR, ORANGE COUNTY 
               (CA) HUMAN TRAFFICKING TASK FORCE

    Lieutenant Marsh. Thank you. Good afternoon.
    First, I would like to thank Congresswoman Sanchez and the 
committee for the invitation to speak about issues impacting 
human trafficking collaborations. I hope you find my local law 
enforcement perspective beneficial.
    The Orange County Human Trafficking Task Force and I are 
relative newcomers to the issues surrounding human trafficking. 
Still, my roles as both an active law enforcement officer and 
the co-chairperson of the task force, have permitted me to 
develop both operational and administrative points of view.
    Operationally, I see two primary concerns: first, the 
severe definition of ``human trafficking''; second, the severe 
definition of ``trafficking'' creates extreme prosecution 
thresholds which undermine local and federal investigations.
    The severe language used to define human trafficking at the 
federal level has been repeated at the state level. Our 
agency's experience over the past 3 years indicates traffickers 
use psychological means of force, fraud or coercion far more 
frequently than physical assault or torture. Potential federal 
and state cases are not pursued due to the severely myopic 
definition of ``trafficking'' and victims are not being 
identified or served.
    Trafficking in humans has evolved to mean the exploitation 
of children, women or men for the purposes of labor or the 
commercial sex trade by the use of physical or psychological 
force, fraud or coercion. Federal and state legislation should 
reflect this more comprehensive reality or cases and victims 
will continue to be lost.
    We have worked several cases in the past 3 years in 
collaboration with ICE and the FBI. All of these cases involved 
the use of psychological force, fraud or coercion by the 
traffickers. However, without the severe elements of physical 
abuse or torture, federal prosecutors refused to become 
involved. Because the state law mirrors the federal law, state 
prosecutors refused as well.
    For example, our most recent case involved women from 
Malaysia and Singapore working in a series of residential 
brothels. They were solicited and recruited to come to the 
United States from their home countries; met at the airport 
where their passports, personal documents and valuables were 
immediately taken; taken to the brothel, which was secured by 
closed-circuit TV and surveillance surrounding the location, 
and brothel security.
    Naturally isolated by language, social and cultural 
barriers, their money was controlled by the traffickers and the 
women were escorted everywhere they went. No outright physical 
abuse or torture was used. When the 8-month investigation ended 
and arrests were made, neither federal or state prosecutors 
would file human trafficking charges because it did not meet 
the extreme threshold established by law.
    Administratively, I see two primary concerns, too: first, 
economic sustainability of the task force efforts and 
objectives; and second, human trafficking measures and outcomes 
are divergent. Economic sustainability of task forces is 
fundamental to their success, regardless of whether they are in 
locations where there are point-of-entry issues or locations 
where trafficking victims are transported or transactions take 
place.
    Federal mandates assure federal agency interest and NGO 
missions and compassion ensure their interest as well. However, 
local law enforcement interests are best maintained by 
financial support. From an enforcement perspective, this 
translates into funding for relevant training and investigative 
overtime. I would suggest in addition enforcement 
collaborations would best be served by paying for local 
officers to be dedicated to an enforcement task force.
    Local frustrations mirror federal frustrations in not being 
able to realize the estimated number of trafficking victims. In 
large part, the limited definition of ``trafficking'' 
undermines realizing the broad scope of the issue, and hinders 
the identification and rescue of victims. On another level, 
unclear measures and vague outcomes expected from human 
trafficking prevention, protection and prosecution efforts add 
to the confusion.
    While the issues are complex, the divergence between 
projections and actual counts is real. These inconsistencies 
influence local law enforcement decisions to participate in 
human trafficking task forces. Until the representations about 
trafficking reflect the outcomes of task force efforts, getting 
local law enforcement to participate, much less collaborate, 
will continue to be problematic.
    In conclusion, I would like to thank the subcommittee again 
for inviting me to come and speak. I would also like to thank 
Sergeant Tom Feener for accompanying me today and offering his 
support and feedback in developing our thoughts on the issue.
    And finally to say I didn't really mention NGOs during the 
course of my speech because I have been so impressed with their 
compassion and inspired by it. It is really not a question of 
whether they are going to participate. It is how we get them to 
participate in these investigations and support the victims 
once we find them.
    I am prepared for any questions you may have. Thank you.
    [The statement of Lieutenant Marsh follows:]

                Prepared Statement of Lt. Derek J. Marsh

                             March 20, 2007

    Introduction
    I became involved in working with federal, state, and local 
agencies regarding human trafficking in 2004. I joined the Orange 
County Human Trafficking Task Force (OCHTTF)--at that time, a loose 
knit, unfunded collaboration of agencies concerned with the issues 
surrounding human trafficking. Over the course of the next three years, 
my agency (the Westminster Police Department, CA) attempted to 
proactively pursue human trafficking cases while teaming with 
Immigration & Customs Enforcement, the Federal Bureau of Investigation, 
the Department of Labor Wages & Hours Division, and a host of 
passionate, non-governmental agencies, indirectly headed by CSP, Inc.'s 
Director of Victim Services Ronnetta Johnson.
    Currently, thanks to Congresswoman Loretta Sanchez, the OCHTTF 
receives funding for administrative support and law enforcement 
outreach, training, and overtime. Thanks to Marissa Ugarte of the 
Bilateral Safety Corridor Coalition, via a contract with the Department 
of Health & Human Services, OCHTTF participates in the Unity Coalition 
program funding, allowing for dedicated efforts to be made regarding 
community outreach and awareness. Our meetings have gone from quarterly 
to monthly, with attendees filling the room. Recently, OCHTTF 
participated in formal strategic planning sessions, and our members are 
more focused than ever on developing meaningful partnerships to support 
our primary goal of eliminating human trafficking. Local university 
representatives, namely Vanguard University's Sandie Morgan and 
California State University Fullerton's Rosalina Camacho and Dr. 
Rebecca Dolhinow, have coordinated seminars and symposiums on human 
trafficking leading to the participation and raised awareness of 
hundreds of people. The OCHTTF has been fortunate, both in supporters, 
resources, and an ever increasing willingness to participate by its 
stakeholders.
    Yet, for most of the three years I have participated as the co-
Chair for OCHTTF, we have experienced ongoing collaboration challenges, 
too. Four of the most significant issues with which I have experience, 
include:
        1. The ``severe'' definition of human trafficking at the 
        federal level, which has been mirrored by many states as well 
        (including California), has hampered the ability of prosecutors 
        to pursue human trafficking charges against subjects. This is 
        especially true with regards to the commercial sexual 
        exploitation aspect of trafficking.
        2. Balancing local and federal approaches to the investigative 
        process.
        3. Economic sustainability impacts the capacity and efficacy of 
        human trafficking task forces.
        4. Disparate estimates and actual measures regarding human 
        trafficking victims and nebulous outcome expectations 
        contribute to the unwillingness of local law enforcement to 
        dedicate resources (i.e., personnel) to human trafficking task 
        forces and enforcement efforts.

``Severe'' Human Trafficking
    The emphasis on ``severe'' human trafficking has undermined many 
potential human trafficking investigations. The federal severe 
definition has cascaded into the state definitions, and has become a 
crutch, used predominantly during commercial sex trafficking, to 
nullify local efforts to charge suspects with human trafficking. A 
reassessment of the severe definition of human trafficking is warranted 
to determine if it can be modified to address the realities local law 
enforcement is more likely to encounter.
    As the panel knows, the federal law regarding human trafficking 
(HT) originated as a grassroots concern regarding domestic and 
international trafficking. Non-government organizations (NGOs) led the 
campaign to have the Trafficking Victims Protection Act of 2000 (TVPA) 
adopted as law. Before 2000, federal prosecutors had no law directly 
addressing human trafficking; instead other federal statutes had to be 
applied in order to prosecute suspects in human trafficking. NGOs and 
supporters used testimonies of trafficking victims to provide an 
international and domestic viewpoint underscoring the imperative to 
have a federal law created. They relied on egregious examples of human 
trafficking to make their points. General and personal narratives of 
beatings with hangers, gang rapes, murders, kidnapping, threats of 
death, chaining victims to beds, extended isolation, forced abortions, 
food, water and medical deprivation and inescapable debt were used to 
demonstrate the compelling need for HT laws and victim support. The 
fact these stories were true added a crucial human dimension to the 
issue.
    Severe human trafficking cases, both domestic and transnational, 
provide compelling narratives. During the course of my relatively short 
involvement with human trafficking, every seminar and training I have 
attended emphasizes these cases, creating an expectation of extreme, 
inhumane treatment leveled against unwitting immigrants. Federal 
agencies in Orange County, California, recently completed our first 
human trafficking prosecution involving child slavery. The case facts 
paralleled many of the severe depictions of human trafficking: the 
female child was sold into slavery by her parents in Egypt, kept in the 
garage on a urine soaked mattress for years, had to perform menial 
chores at the private residence, was not allowed outside contact, 
including education, and had to wash her clothes out of a bucket while 
the traffickers and their children enjoyed all the modern amenities. 
This case shocks the conscience of most people.
    This case, however, is not representative of the commercial sex 
exploitation cases involving illegal immigrants we have encountered and 
attempted to develop at the local level. Instead of outright force and 
physical coercion, we are finding victims who are subjected to more 
psychological and situational coercion and duress tactics. In one case, 
we discovered residential brothels using women from Malaysia and 
Singapore. Before we knew all of the information below, we offered to 
have the local ICE agents and Assistant United States Attorney take the 
case, but it was rejected. In this case, which is still undergoing 
prosecution for state charges of pimping and pandering, the following 
conditions were found to exist:
        <bullet> Their passports, identification of all types, and 
        valuables were immediately taken
        <bullet> The women are naturally isolated by language, social 
        and cultural barriers
        <bullet> Brothels were secured with closed circuit TV, cameras 
        surrounding the location, and staff
        <bullet> The money the women take in and receive are controlled 
        by the traffickers
        <bullet> The victim's movements are controlled by the suspects 
        (escorted everywhere)
        <bullet> Consequence for taking a day off--placed off site at a 
        bad motel at their expense with escort.
        <bullet> They were required to work 21 day cycles, with 7 days 
        off, in accordance with their menstrual period.
    In further contrast to severe trafficking, they received 
significant monetary compensation for their ``services.'' This case was 
considered a pimping and pandering case due to the lack of ``severe'' 
elements associated with the prostitution of the women.
    This case is not atypical of the cases we have found when 
attempting to proactively pursue commercial sex exploitation of illegal 
immigrants. I had the privilege to participate in a panel with Dr. 
Laura Lederer (of the State Department) and Lisa Thompson (trafficking 
advocate for the Salvation Army) a month ago. Both claimed all human 
trafficking is necessarily severe, and that the term severe was added 
to the TVPA of 2000 to ensure its passage. I appreciate the need for 
legislative compromises, but would question the need to keep this 
terminology seven years after the statute has been in effect.
    Regarding commercial sex exploitation, Farley et al. (2003) \1\ 
surveyed prostitutes in nine countries (including the United States) 
and found that 87% had experience at least one incident of violence, 
57% of prostitutes have been raped, a majority (68%) showed clinical 
symptoms associated with post traumatic stress disorder, and 89% 
responded that they needed to get out of prostitution. These findings 
and others led the authors to conclude their report disputes the 
contention ``that prostitution is qualitatively different from 
trafficking'' (Farley et al., 2003).
---------------------------------------------------------------------------
    \1\ Farley, M., Cotton, A., Lynne, J. et al. (2003). ``Prostitution 
& trafficking in nine countries: An update on violence and 
posttraumatic stress disorder'', Journal of Trauma Practice, vol.2, 33-
74. Retrieved from www.prostitutionresearch.com.
---------------------------------------------------------------------------
    My personal perspective on the situation is this: The federal 
government did not want to get into the business of enforcing 
prostitution in the domestic arena, but was compelled to take a stand 
in reference to confirmed reports of severe human trafficking. The 
severe terminology and the transnational emphasis on victims addressed 
the need to condemn human trafficking without getting involved with 
pimping and pandering at the local-state levels. However, human 
trafficking has evolved over the seven years of the statute, and now we 
have domestic trafficking of citizens, with a special focus on 
juveniles, who are considered trafficking victims based on their age 
(less than 18 years old). In the meantime, states began adopting human 
trafficking laws, predominantly mimicking the severe language of the 
federal law.
    But the application of human trafficking into the domestic venue 
has muddied the perception of its relevant elements, especially with 
regards to the immigrant emphasis and egregious acts. How do you claim 
a 17 year old American citizen who is a prostitute with a pimp is a 
human trafficking victim and an 18 year old American citizen who is a 
prostitute with a pimp is not? In application of the law over time, 
human trafficking has transformed into protecting children, women and 
men from labor and sexual exploitation, regardless of citizenship. If 
there is no qualitative difference between a prostitute and a 
trafficking victim as Farley et al. (2003) assert, and teenage 
prostitutes who are American citizens are human trafficking victims, 
then pimps are human traffickers--exploiters of people who prostitute.
    A logical next step is to draw parallels between American pimps and 
panderers (domestic human traffickers exploiting citizens) who are able 
to create psychological dependency in their prostitutes (exploited 
citizens) and the pimps and panderers (transnational human traffickers 
exploiting immigrants) who are able to create psychological dependency 
in their prostitutes (exploited immigrants). And how much easier must 
it be to psychologically entrap a foreign national with severe 
language, social and cultural limitations (especially if they are here 
illegally with no documents) than it is to entrap an American citizen? 
The severe definition of trafficking, along with the many egregious 
narratives substantiating it, serve to undermine the less dramatic but 
significantly more prevalent exploitations of immigrants and citizens. 
The language of the federal law is overdue to be changed to reflect the 
current research findings and federal enforcement practices.
    The good news at the local level is we do not require a human 
trafficking law to arrest traffickers. We have an array of local laws 
and some federal laws that can provide significantly more jail time 
than typical human trafficking convictions. From a local perspective, I 
have still made an arrest and provided the opportunity for victim 
services to exploited people. And, if a local law enforcement agency 
becomes aware of a rare egregious case involving severe human 
trafficking, I have no doubt they would actively pursue the case, 
collaborating with as many federal and local agencies as necessary in 
order to complete the investigation and prosecution.
    The bad news at the local level is local law enforcement is 
reticent to engage their limited resources in pursuit of human 
trafficking suspects and victims when previous state laws suffice and 
local political and organizational imperatives do not necessarily seek 
to forward the vague and apparently contradictory federal statutes. 
Based on my experience, federal agencies will not collaborate unless 
juveniles are identified or severe elements can be proven before 
arrests are made. In the end, extreme legal definitions mitigate local 
and federal enthusiasms from a daily commitment perspective.

Balancing Local and Federal Investigative Approaches
    The Westminster Police Department has had the opportunity to 
partner with ICE & FBI in several potential commercial sex exploitation 
investigations involving immigrants. These investigations revealed 
significant differences in the federal versus local expectations 
regarding the normal course of human trafficking investigations. The 
federal perspective, from a 10,000 foot view, relies on intelligence 
gathered via surveillance, PEN registers, and wire taps over months 
(and sometimes, years) to fully describe the criminal enterprise, 
identify as many of the suspects as possible, assess potential assets, 
and develop as much of the case prior to arrests as possible. In part, 
I have been led to understand this investigative process is a result of 
the federal prosecution requirements. Also, federal agencies have 
access to greater personnel and technical resources, which allows for 
these long term investigative techniques to be employed more readily. 
In addition, substantial, intricate, long-term cases can lead to 
accolades for the involved agents, as well as potential positive career 
options.
    The local approach to investigations involves a more short-term, 
pragmatic view of the investigative process. Suspects, victims and 
customers are our primary sources of reliable intelligence: 
surveillance is used to confirm the activity, and we wait (usually) 
until the arrests are made to get call histories out of the phones 
belonging to the involved parties. We do not have the personnel 
resources to devote to several months of investigation; our local 
imperatives must be balanced with these attempts to achieve federal 
priorities. For example, we received information from a reliable 
informant regarding a residential brothel operating on the borders of 
our city. We staked out the location, confirmed the traffic, secured 
and served a state search warrant involving Korean immigrants being 
sexually exploited. This investigation led to a higher level suspect, 
whom managed multiple residential brothels using primarily Korean 
immigrants. In summary, the local-state approach involves a more rapid 
turnaround, an emphasis on arrestees and victims providing the most 
credible information and a culture which rewards investigators who 
complete the most investigations using the limited amount of technical 
and personnel resources available.
    These differences in approach at the federal and local levels are 
not insurmountable; but role clarification and agreed upon information 
sharing is critical to successful collaborations. Local investigators 
can be a productive resource for federal agents, generating arrests, 
victims, and some basic technically related intelligence (like cellular 
phone records). Federal agents can supplement this intelligence through 
their extensive records systems, as well as assisting in services 
required by illegal immigrants in conjunction with NGO victim service 
providers, as appropriate. This aggregate intelligence can then be 
leveraged with the more extensive resources available to federal 
agencies to identify and dismantle criminal enterprises. The success of 
this model relies on the ongoing cooperation of all the agencies 
involved, and involves a commitment to share intelligence throughout 
all phases of this process.

Economic Sustainability
    Attempting to administer a task force without financial backing is 
problematic, at best. Non-funded task forces are at the mercy of the 
collateral discretion of agencies that wish to participate. OCHTTF was 
non-funded for two and half years. We held quarterly meetings, many of 
which were sparsely attended. Participation in strategic planning, goal 
setting, and information sharing was dependent on the discretionary 
capacity of the participants. In fairness, federal agencies 
participated and shared their perspectives most consistently; in large 
part, their participation reflected the federal mandates under which 
they operated. Non-government organizations participated with relative 
consistency, too; their degree of participation seemed to reflect how 
closely their mission mirrored OCHTTF's. Local law enforcement 
participation was anemic; the Westminster Police Department was the 
only consistent participant in OCHTTF while it was non-funded, and that 
was primarily because of my central role in the task force. Without 
financial support, task forces are ad hoc, at best. Their ability to 
accomplish strategic and tactical tasks is inconstant. Their capacity, 
in the sense of ongoing personnel and planning commitments, is 
haphazard.
    On the other hand, being co-Chair of a funded task force is 
invigorating. Many more agencies attend much more consistently. 
Attendees are more willing to participate in short-term requests for 
outreach and training. More minds contribute to strategic planning and 
goal setting, creating a more synergistic and comprehensive local human 
trafficking agenda. More federal agencies participate than before, and 
more NGOs attend, as well. Local law enforcement participation doubled, 
thanks to grant from Congresswoman Loretta Sanchez; however, local law 
enforcement participation is still a significant challenge.
    The local law enforcement challenge will require funding to be more 
directed at assigning personnel to enforcement activities and/or 
investigative overtime. Without this type of funding, local imperatives 
will override the federal focus on human trafficking investigations, 
prosecutions, and the subsequent protection of victims and prevention 
of ongoing victimization. One possible ameliorative to this issue would 
be to federally support businesses with transnational presence to focus 
their corporate citizenship initiatives towards local human trafficking 
task forces. I do not consider this kind of support a panacea; however, 
corporate sponsorship of seminars, symposiums, and other related events 
might reinforce the participation of local agencies.
    In addition, federal financing of task forces in the future might 
want to emphasize the creation of enforcement task forces joining 
federal, state, and local public safety components. In my experience, 
this would probably best be coordinated by county law enforcement, 
though I hesitate to proffer this model as the only viable possibility. 
Funding for counties willing to create a task force, regardless of 
having significant points of entry, should be considered. The current 
emphasis on counties with significant points of entry discourages the 
creation and participation of local law enforcement in trafficking 
investigations. The bottom line is that there are many more 
jurisdictions than the 42 currently funded that have the potential for 
identifying and prosecuting human trafficking.
    Overall, local law enforcement does not appear to be motivated to 
participate simply because a local task force has received funding. 
Funding opportunities should be tied to local agency participation not 
just at task force meetings, but also with respect to enforcement 
activities.

Conflicting Victim Estimates and Unclear Outcomes
    It is no secret there exist significant discrepancies between the 
estimates of human trafficking victims and the actual victims we have 
been able to identify. Without belaboring the issue, the recent 
Government Accounting Office report (GAO-06-825, July 2006) titled 
Human Trafficking: Better Data, Strategy, and Reporting Needed to 
Enhance U.S. Antitrafficking Efforts, identifies many of the challenges 
associated with accurately representing human trafficking activities 
and victims. The GAO report addresses the international aspects of 
trafficking; the findings resonate with local perceptions, as well. The 
most pertinent discussion referenced the lack of performance measures, 
which have led to vague outcomes (p. 3). At a different level, these 
vague outcomes are a consequence of the disparity between the severe 
definitions of trafficking at the federal and state levels of 
government versus the less than severe cases our investigations 
indicate are significantly more prevalent. It is difficult to generate 
local enthusiasm for human trafficking, much less local and federal 
collaborations, without clear expectations regarding human trafficking 
enforcement efforts.

Conclusion
    I have attempted to address four areas that impact local and 
federal collaborations. The semantics of the human trafficking 
legislation is crucial, and is resulting in trafficking cases not being 
identified, investigated and prosecuted as such. The frustrations in 
finding cases involving trafficking, but not severe trafficking, put 
strains on the federal and local collaborations and information sharing 
commitments. Investigation methodologies can also hamper trafficking 
investigations and effective collaborating. Clarifying roles and 
expectations of federal and local enforcement personnel goes a long way 
towards building mutual trust. Economics are a basic reality: personnel 
time is money, as are the lost opportunities a local agency incurs by 
committing resources to any enforcement activity. Paying local law 
enforcement for their participation in human trafficking activities, 
especially investigations, goes a long way towards ensuring their 
presence. Finally, challenges in estimating and tracking trafficking 
cases are a result of the three other issues discussed. Applicable 
laws, clear role expectations and program funding all support finding 
more victims, and helping to determine achievable measures and 
performance outcomes.
    Overall, co-Chairing the OCHTTF has been extremely rewarding. 
Everyone shows a passion for protecting victims and preventing the 
exploitation of people, and many have dedicated many hours to ensuring 
these crimes are not forgotten. NGOs' commitment is remarkable; their 
dedication to this cause has centered my efforts on more than one 
occasion. I would like to thank the Committee for its time and 
willingness to hear and listen to my perception of issues, as a local 
law enforcement representative, impacting human trafficking. I hope my 
insights, as narrow as they may be, contribute to your greater 
understanding of the local dynamics of human trafficking.

    Ms. Sanchez. Thank you, Lieutenant.
    I will ask Ms. Jordan to summarize her testimony in 5 
minutes or less.

 STATEMENT OF ANN JORDAN, PROGRAM DIRECTOR, INITIATIVE AGAINST 
             TRAFFICKING IN PERSONS, GLOBAL RIGHTS

    Ms. Jordan. Thank you, Madam Chair.
    I am honored to participate in today's hearing and to speak 
about trafficking six years after the passage of the Victims of 
Trafficking and Violence Protection Act. In my brief time, I 
would like to discuss three areas of great concern to my 
organization, as well as to others.
    The first issue focuses on resources for NGOs and law 
enforcement on human trafficking. The first part of this is the 
need for the U.S. to maintain its anti-trafficking focus on the 
13th Amendment prohibition on slavery and involuntary 
servitude.
    Current federal law enables prosecutions of all enslavers 
and provides protection for all victims. Among those convicted 
to date are the enslavers of a 10-year-old Egyptian girl in 
Orange County, California who was held in a dark, unventilated 
garage, forced to take care of the house and five children, 
deprived of an education, and subjected to emotional and 
psychological abuse.
    Also convicted were the traffickers in the largest case to 
date of 275 women and men from Vietnam and China who were held 
in forced labor in American Samoa and subjected to threats, 
serious physical assaults, inadequate nourishment, rapes, and 
an endless cycle of debts?all of which was enforced by security 
guards.
    However, this broad framework is being eroded by a U.S. 
campaign that equates prostitution with trafficking and is 
redirecting resources to end prostitution, rather than to end 
trafficking.
    The campaign is based on the unproven belief that all 
prostitution, even legal prostitution in Nevada, is 
trafficking, and so criminalizing prostitution, including 
clients, is presumed and promoted as a means to stop 
prostitution and to stop trafficking for prostitution. It also 
ignores the reality that clients, brothel owners and pimps are 
arrested by the thousands each year, yet prostitution and 
trafficking into forced prostitution continues.
    The campaign is included in a 2003 amendment to the TVPA, 
the trafficking law which requires grantees to adopt a policy 
stating they do not promote, support or advocate for the 
legalization or practice of prostitution using U.S. government 
funding and even non-U.S. government funding.
    At first blush, this might appear to be a reasonable 
requirement because organizations obviously are set up to help 
trafficking victims, and even those refusing to adopt the 
policy do not promote prostitution. However, the law is highly 
problematic.
    First, it is a gag rule. It prevents service providers, 
activists, scholars and organizations to exercise their First 
Amendment right of freedom of speech, and it prevents them from 
using their non-U.S. government funds to debate, analyze and 
speak out freely about the question of a relationship between 
the legalization of prostitution and human trafficking, thereby 
cutting off the free flow of ideas necessary for developing 
effective do-no-harm policies.
    It is also causing organizations to restrict their 
activities in who they work with. It is causing organizations 
to reject U.S. funding by the organizations that are highly 
qualified and been funded in the past. And it has caused some 
harm to actual victims of women in prostitution because it has 
increased the stigma and promoted foreign governments to really 
crack down on women in prostitution.
    The campaign is also reflected in the reauthorization act 
in 2005 that calls for research on sex trafficking, which by 
definition in federal law includes all prostitution. It 
establishes a grant program for state and local law 
enforcement. Now, we believe that there is a large role for the 
federal government to play in addressing the harms of 
prostitution and the causes leading youth and adults to enter 
into prostitution in the first place, and that prevent them 
from exiting.
    The federal government could, and I think should, provide 
much-needed compassionate and supportive funding for treatment 
services and prevention programs. However, shifting money and 
federal staff to investigate and prosecute non-trafficking 
prosecution activities would be a bad outcome. First, there are 
dedicated trafficking units in Justice and the FBI and in ICE, 
and their task would be diverted to going after prostitution.
    Second, prostitution is not per se a violation of the 13th 
Amendment, so it is not really a federal crime unless there is 
a federal law involved and federal resources would be shifted.
    Very quickly, I also want to just highlight a number of 
issues that service providers say that they confront in working 
with people who are trafficked. I don't have time to discuss 
them all. They are in my testimony.
    But we have situations in the United States now where 
unaccompanied children are languishing in inappropriate 
housing, and HHS needs to be empowered to determine that the 
child is a victim of a severe form of trafficking, and transfer 
them quickly to an unaccompanied refugee minor program. Right 
now, it is Justice or Homeland Security that makes that 
decision, which it shouldn't be doing because it is actually 
interrogating the children.
    Next, we believe that trafficked children should not be 
interrogated unless and until HHS has made an independent 
finding based upon expert opinion that the child is stable and 
competent. Even when there is a raid, those children are highly 
traumatized and should not be interrogated by somebody who is a 
law enforcement official who may have no understanding of the 
issues these children are faced with.
    Interviews with children, anyway, should be kept in 
confidence by the Office of Refugee Resettlement in HHS which 
now shares this information with the Department of Homeland 
Security.
    The last issue, which I won't go into, is there is a 
continued need for children to be able to bring their parents 
here to the United States to protect them and be with them. 
Now, the process is very slow. There is a need for people who 
are parents and family members who are already in the United 
States to have a legal status so that they are not subject to 
possible deportation while they are trying to help their family 
member who has been a victim. All of this is more fully 
explained in my testimony.
    Thank you, Madam Chair, for this opportunity. I look 
forward to answering any questions you may have.
    [The statement of Ms. Jordan follows:]

                    Prepared Statement of Ann Jordan

                             March 20, 2007

    Thank you, Madam Chair. I am honored to participate in today's 
hearing and to speak about human trafficking, six years after the 
passage of the Victims of Trafficking and Violence Protection Act of 
2000.
    My organization, Global Rights, is an international human rights 
organization operating in the United States and numerous countries 
around the world. We work with local partners and activists to 
challenge injustice and to amplify new voices in national and 
international fora. We believe that real change occurs from the ground 
up and so we and our partners typically work with the most 
disadvantaged and marginalized members of society, including people who 
have been trafficked and who are vulnerable to trafficking, as well as 
other human rights abuses.
    In my brief time, I would like to discuss three issues that are of 
great concern to my organization, as well as other organizations:
        1. The problematic consequences that arise from the U.S. 
        government conflating trafficking with prostitution;
        2. The gaps in the federal trafficking legislation with regard 
        to the special status of trafficked children; and
        3. The need for broader relief and a quicker process for 
        granting victims and their family members immigration relief.

1. The U.S. must maintain the anti-trafficking focus on the 13th 
Amendment prohibition on slavery and involuntary servitude.

    Current federal law enables prosecutions of all enslavers and 
provides protection for all victims. The 2000 Victims of Trafficking 
and Violence Protection Act defines traffickers as people who use 
force, fraud or coercion to hold adults or children in forced labor, 
slavery, involuntary servitude or debt bondage or to cause adults to 
perform commercial sex acts. It further defines trafficking as causing 
a minor to engage in commercial sex acts, with or without force, fraud 
or coercion. Thus, the federal law ensures that all victims of 
trafficking into homes, brothels, fields, streets and factories are 
recognized and that all traffickers and enslavers are subject to 
federal prosecution. It recognizes that traffickers are equal 
opportunity enslavers who are more than willing to treat human beings, 
including children, as chattel in violation of the 13th Amendment 
prohibition on slavery and involuntary servitude.
    From 2001 through 2005, 298 defendants have been charged with 
trafficking offenses and 140 have been convicted as of the end of 
2005.\1\ Among those convicted were the enslavers of a 10 year old 
Egyptian girl in Orange County, California, who was held in a dark, 
unventilated garage, forced to take care of the house and 5 children, 
deprived of an education and subjected to emotional and physical 
abuse.\2\ Also convicted were the traffickers the largest case to date, 
that of 275 women and men from Vietnam and China who were held in 
American Samoa in forced labor, and subjected to threats, serious 
physical assaults, inadequate nourishment, rapes, and an endless cycle 
of debts, all of which were enforced by security guards.\3\
---------------------------------------------------------------------------
    \1\ Attorney General's Annual Report to Congress on U.S. Government 
Activities to Combat Trafficking in Persons, FY 2005, p. 16.
    \2\ United States v. Ibrahim and Motelib (2/2/05) (C.D. Cal.)
    \3\ United States v. Kil Soo Lee et al. (D. Hawaii)
---------------------------------------------------------------------------
    The law has also provided benefits and services to 841 victims from 
2001 to 2005. While certainly more resources would increase the number 
of cases uncovered and prosecuted and victims served, the law remains, 
nonetheless, an excellent roadmap for further expansion and deserves 
our support.
    However, this broad framework is being eroded by a U.S. campaign 
that equates prostitution with trafficking and is redirecting resources 
to end prostitution rather than to end trafficking. This anti-
prostitution focus is affecting delivery of services to victims and we 
are concerned that federal investigators and prosecutors could be 
assigned to non-trafficking prostitution cases instead of 13th 
Amendment trafficking, slavery, forced labor and involuntary servitude 
cases.
    Over the last six years, the broad scope of the U.S. anti-
trafficking policy has been gradually narrowed to fit an anti-
prostitution agenda that is based on the unproven belief that all 
prostitution (even legal prostitution in Nevada) is trafficking, and so 
criminalizing prostitution, as well as clients, is promoted as a 
purported means to stop prostitution and to stop trafficking for 
prostitution. This approach assumes that, once all men who buy sex are 
in prison, all women in prostitution will magically disappear and find 
other means of support. It also ignores the reality that prostitution 
is illegal in almost the entire United States and that clients, brothel 
owners and pimps are arrested by the thousands each year, yet 
prostitution and trafficking into forced prostitution continues. 
Obviously, the law enforcement approach has had little impact upon the 
underlying factors that lead to prostitution and that enable 
traffickers to force people into prostitution (and other sectors).
    This anti-prostitution approach is reflected in policies and laws 
that have produced negative, but not unexpected, consequences. The 
major vehicle for enforcing this approach upon the non-governmental 
sector is a 2003 amendment to the TVPA that restricts funding to 
organizations that adopt a policy stating that they do not `promote, 
support or advocate for the legalization or practice of 
prostitution'.\4\ Organizations must pledge not to use U.S. government 
funding and even non-U.S. government funding in any way that the U.S. 
might decide violates the prohibition. At first blush, this might 
appear to be a reasonable requirement because organizations set up to 
help trafficking victims (even those refusing to adopt such a policy) 
do not promote prostitution. Nonetheless, the law is highly problematic 
at many levels.
---------------------------------------------------------------------------
    \4\ Trafficking Victims Protection Reauthorization Act of 2003, PL 
108-193.
---------------------------------------------------------------------------
    The anti-prostitution `gag rule' deprives grantees of the First 
Amendment right to freedom of speech. It forces U.S. grantees to 
relinquish their First Amendment right and forces non-U.S. grantees to 
relinquish their internationally-recognized right of freedom of speech 
and thought, including the right to debate, analyze and speak out 
freely, even about the question of a relationship between legalization 
of prostitution and human trafficking. The trafficking `gag rule' only 
permits debate, research or discussion on the relationship between 
criminalization of prostitution and trafficking. Thus, university 
grantees cannot hold conferences in which legalization is discussed and 
grantees cannot attend such conferences, write about the impact of 
criminalization on women in prostitution or trafficking, or engage in 
activities that may be perceived by the US as `promoting, supporting or 
advocating' legalization of prostitution.
    One grantee, out of fear of losing funding, prevented a prominent, 
highly-respected expert from attending an international workshop in 
which participants discussed trafficking, prostitution, labor, 
migration and the U.S. gag rule. Also, many organizations have purged 
prohibited words such as `sex work' and `harm reduction' from their 
materials and websites because they know that U.S. officials are 
scanning websites in search of prohibited words, alleged by U.S. 
officials to be evidence of `promoting' prostitution. Obviously, the 
gag rule is cutting off the `free flow of ideas' needed to develop 
sound and effective evidence-based policies on human trafficking and 
prostitution, which both affect the lives of millions of people around 
the world.
    The gag rule is also causing organizations to restrict activities 
for fear of losing U.S. funding. The terms `promote, support or 
advocate' are vague and, in my research with organizations in 6 
countries,\5\ not one US government official has been able to explain 
to anyone what these words mean. In many countries, the U.S. is one of 
the main donors on trafficking, which is causing some foreign NGOs to 
stop working with people in the sex sector or collaborating with NGOs 
working with sex workers.
---------------------------------------------------------------------------
    \5\ United States, Russia, Poland, Moldova, Nepal and Thailand.
---------------------------------------------------------------------------
    Despite the lack of guidance on what violates the gag rule, we do 
know that organizations cannot receive U.S. funding if they support of 
the rights of persons in the sex sector or support sex worker 
collectives, even if the women are simply asking for legal protections 
from police and client violence, education for their children, 100% 
condom usage, support to keep children out of prostitution and rescue 
trafficking victims, as well as the panoply of rights that non-sex 
workers take for granted. We have a report of a grantee that stopped 
allowing a collective of sex workers to use its premises for meetings 
apparently out of concern that the presence of sex workers on the 
premises talking about their work and their rights would threaten the 
organization's U.S. funding. We do not believe the U.S. should be using 
its considerable resources and power to undermine the ability of any 
people, even those in the sex sector, from seeking their basic rights.
    The gag rule leads to qualified NGOs rejecting US funding. My 
research also reveals that the anti-prostitution gag rule is causing 
effective and respected organizations to cease applying for US funding 
because they are not willing to make any statements or take a position 
that could jeopardize their relationships with, or further stigmatize, 
the women with whom they work. They prefer to remain grounded in the 
reality of their countries and refuse to accept money to promote a 
policy that they know is counterproductive and ineffective in reducing 
prostitution or trafficking in their own countries.
    The anti-prostitution language contributes to the stigma suffered 
by persons in the sex sector. People working in the sex sector are 
subjected to discrimination, exclusion and social condemnation. When a 
woman is trafficked into the sex sector, she is subjected to the same 
type of treatment from society and even family members and so her 
contact with service providers must be non-judgmental, non-reformist 
and compassionate. Since U.S. funded service providers must now declare 
their opposition to the industry into which many women are trafficked, 
those service providers cannot say or do anything that might remove the 
stigma of prostitution from the victim, since that could be interpreted 
as `supporting' prostitution. Partner organizations that work 
extensively with people in the sex sector, including trafficked women, 
report that, if a woman feels any negativity coming from the service 
provider she is highly likely to walk out and stop receiving much-
needed services, and also not cooperate with law enforcement.
    Furthermore, victims who do not feel comfortable with their service 
providers may find their only way to make a living is to return to 
prostitution as a quick means to support themselves and their families 
back home, and perhaps to pay off the debt incurred by them and their 
family members for migrating. If they feel that non-judgmental support 
is unavailable, they may decide to simply disappear into the 
underground economy, even into prostitution, rather than submit to 
demoralizing treatment by service providers who have signed the anti-
prostitution gag rule.
    One Asian organization reports that U.S. influence on its 
government and funders is creating divisions and increasing the stigma 
against people in prostitution. The U.S. is promoting an anti-
prostitution agenda in many countries under the banner of `anti-
trafficking' and, in some places, it is dividing the anti-trafficking 
community and demonizing the very sex workers who are working to stop 
child prostitution and trafficking into prostitution. The U.S.-led 
campaign against prostitution is also indirectly giving permission to 
governments to crack down on women in prostitution and to harass women 
migrants suspected of being prostitutes. It is also undermining efforts 
to create a regional network of sexworkers that could collaborate on 
health, HIV/AIDs, rights, anti-trafficking and other issues.
    These negative consequences would be removed if grantees were no 
longer required to give up their First Amendment right to use their 
non-U.S. government resources to work with all persons in need of their 
care, to speak out against injustice and to engage in research and to 
debate all of the causes and consequences of trafficking, including an 
exploration of the possible impact of legalization, as well as the 
criminalization, of prostitution on trafficking.
    A second manifestation of the anti-prostitution campaign 
encroachment upon anti-trafficking work is a section of the 2005 
Trafficking Victims Protection Reauthorization Act \6\ that focuses 
resources on non-trafficking anti-prostitution activities. We are 
concerned that these provisions could be used to divert federal 
funding, investigators and prosecutors to concentrate on non-
trafficking prostitution cases. As mentioned previously, the definition 
of trafficking requires the use of force, fraud or coercion except in 
cases involving minors caused to engage in `commercial sex acts.' 
Trafficking falls under the 13th Amendment prohibition of slavery and 
involuntary servitude, all of which negate the free will of the 
individual and constitute grievous human rights abuses. The law covers 
all trafficking of persons in the United States into homes, brothels, 
factories, streets and farms. It also covers trafficking of foreign 
nationals and U.S. citizens and trafficking into and within the United 
States. It does not cover prostitution (or farm work, domestic work or 
factory work) unless the above conditions are met.
---------------------------------------------------------------------------
    \6\ Sections 201-207.
---------------------------------------------------------------------------
    However, the 2005 Reauthorization Act lays the groundwork for 
federal investigator and prosecutor involvement in non-trafficking 
prostitution cases as well as diverting trafficking funding to non-
trafficking prostitution cases. It calls for research on ``sex 
trafficking,'' which includes prostitution as well as trafficking into 
prostitution.\7\ It also establishes a grant program for state and 
local law enforcement to carry out anti-prostitution activities. We are 
concerned that this law could divert scarce and badly-needed anti-
trafficking resources to non-trafficking prostitution activities.
---------------------------------------------------------------------------
    \7\ Sex trafficking ``means the recruitment, harboring, 
transportation, provision, or obtaining of a person for the purpose of 
a commercial sex act.'' 22 USC 7102(9).
---------------------------------------------------------------------------
    We do believe there is a large role for the federal government to 
play in addressing the harms of prostitution and the causes leading 
youth and adults to enter into prostitution in the first place and 
preventing them from exiting. Too little is done and too little 
compassion is evident in our society's current zeal to lock up sex 
workers and its willingness to ignore the plight of these vulnerable 
and marginalized members of our society. The federal government could 
provide much-needed compassionate and supportive funding for treatment, 
services and prevention programs. However, the funds for such work 
should not reduce the resources or the investigatorial or prosecutorial 
manpower needed to find and prosecute trafficking enslavers and to 
protect their victims.
    Shifting money and federal staff to non-trafficking prostitution 
activities would be a bad outcome on several counts. First and most 
importantly, such a focus could undermine and weaken the ability of the 
newly-created and highly-specialized Justice Department Trafficking 
Unit and the 32 plus specialized trafficking task forces \8\ to carry 
out their mandates. The task forces are elite units of experts whose 
job is to prosecute 13th Amendment violations involving enslavement of 
extremely vulnerable people on U.S. soil. Without adequate dedicated 
resources for slavery, trafficking and forced labor cases, it would be 
highly likely that children like the girl held in involuntary servitude 
in Orange County and forced laborers like the 275 workers held in 
American Samoa would not be rescued and their traffickers would not be 
prosecuted as resources would be focused on prostitution-related 
crimes. Traffickers would be free to operate with impunity.
---------------------------------------------------------------------------
    \8\ Established by the Departments of Justice, Health and Human 
Services, Homeland Security, Labor and State, as well as NGOs.
---------------------------------------------------------------------------
    Second, although earning money off of prostitution is a crime in 
most of the United States, it is not a violation of the 13th Amendment 
unless trafficking, slavery, involuntary servitude or forced labor is 
involved. Federal resources must continue to be deployed to stop the 
`worst of the worst' predators--the trafficking enslavers. Third, 
prostitution is, in the majority of cases, a state-level offence, and 
tens of thousands of pimps, brothel owners and clients are prosecuted 
by local jurisdictions each year. Federal law enforcement intervention 
simply is not warranted without a request from local officials and 
federal resources would simply be wasted in duplicating the efforts of 
local law enforcement officials. Fourth, prostitution cases that could 
be handled by state courts would clog federal courts. Fifth, 
prosecutors would have to find a federal link to the crime, which is 
not necessary at the state level, certainly making it more difficult to 
achieve federal convictions.
    It is important to ensure that resources--financial and otherwise--
for trafficking are adequate and not shifted in any way for non-
trafficking prostitution cases. If members of Congress wish to fight 
13th Amendment crimes as well as seek solutions to the problem of 
prostitution, then it has the power to authorize separate resources for 
both. Funding for trafficking and anti-prostitution investigations, 
prosecutions and services and support should be kept separate and 
trafficking funds should not be considered fungible resources for 
combating prostitution.

    2. The 2000 VTVPA does not fully take into account the special 
needs of trafficked children.\9\
---------------------------------------------------------------------------
    \9\ I would like to thank Melanie Orhant at Break the Chain 
Campaign for contributing extensively to this section.
---------------------------------------------------------------------------
    The needs and special circumstances of children \10\ were not 
sufficiently considered in drafting the 2000 TVPA. Although the 2003 
and 2005 Reauthorization bills contained some provisions for trafficked 
children, systematic solutions must be enacted to address the numerous 
issues that service providers, attorneys and trafficked children 
confront when they negotiate the legal system. Among the many concerns 
of service providers discussed below, the first issue is the most in 
need of urgent attention.
---------------------------------------------------------------------------
    \10\ For the purposes of this paper, the children are non-U.S. 
citizens or Legal Permanent Residents.
---------------------------------------------------------------------------
    Unaccompanied children are languishing in inappropriate housing and 
HHS should be empowered to transfer them quickly into the Unaccompanied 
Refugee Minors program. Congress recognized that minor victims of a 
severe form of trafficking should not be compelled to speak with law 
enforcement in order to receive visas, protections and services and so 
minor victims do not need the T visa requirement to ``comply with a 
reasonable request of law enforcement.'' Accompanied minors, who live 
with family members or guardians, are able receive a T visa and 
benefits without having to speak with law enforcement. Once they obtain 
their T visa, the Office of Refugee and Resettlement (ORR) issues a 
Letter of Eligibility that enables them to receive benefits on par with 
refugees.
    However, unaccompanied children are not so lucky. They have no 
guardian or parent or any supervised living situation and so they need 
long-term placement and care in the Unaccompanied Refugee Minors (URM) 
program.\11\ Children who are detained by Immigration are placed in the 
Division of Unaccompanied Children Services (DUCS) program, which is 
funded and monitored by ORR. Trafficked children in the temporary DUCS 
detention and other unaccompanied trafficked minors need to be moved 
into the long-term URM foster care program.
---------------------------------------------------------------------------
    \11\ Funded and monitored by ORR and administered by Lutheran 
Immigration and Refugee Service (LIRS) and U.S. Conference of Catholic 
Bishops (USCCB).
---------------------------------------------------------------------------
    In order to get into the URM program, ORR must issue a Letter of 
Eligibility for the child. According to the Interagency Memorandum of 
Understanding between the Departments of Health and Human Services, 
Homeland Security and Justice signed in 2004, minors will receive a 
Letter of Eligibility only after Justice or Homeland Security 
determines that the minor ``has been subjected to a severe form of 
trafficking in persons.'' \12\ The determination is made after an 
interview by Justice or Homeland Security with the unaccompanied child, 
which effectively negates the protections Congress included in the 2000 
TVPA to protect minors from the stress of such interviews. 
Unaccompanied minors are forced to meet the same requirement as adults 
to cooperate with law enforcement.
---------------------------------------------------------------------------
    \12\ See attached Memorandum of Understanding.
---------------------------------------------------------------------------
    Unaccompanied minors who are unwilling to speak with law 
enforcement are pushed into a legal limbo in which they can either try 
to fend for themselves or being held as a `material witness' and being 
forced to testify. In some cases, it could result in the child being 
faced with possible deportation.
                Example: A trafficked child was placed in removal 
                proceedings and sent to the DUCS program. Her attorney 
                informed her of her options--to speak with law 
                enforcement or forego services--and she decided not to 
                talk to law enforcement. As a result, she was sent back 
                to her home country where she had nobody to take care 
                of her and had no social support.
    Despite the fact that a large percentage of trafficking victims are 
children, only 34 letters granting eligibility for benefits to child 
trafficking victims were issued in FY2005, partly due to this mandatory 
requirement for minors to cooperate with law enforcement. This entire 
process and this result runs contrary to the intent of Congress.
    Members of Congress have called upon HHS to rescind the practice of 
requiring children to cooperate with law enforcement in order to 
receive letters of eligibility.\13\ ``By providing benefits and 
services to child victims as soon as they are identified, HHS will be 
in the best position to protect children and provide a safe and stable 
environment. Whether a child ultimately decides to serve as a witness 
in the prosecution of his traffickers is a decision the child can make 
after his situation has been stabilized.'' The response of Michael O. 
Leavitt, Director of HHS, was failed to address Members' concerns and 
simply reiterated existing policy to refer to Justice and Homeland 
Security.\14\ He also stated ``that HHS will [not] accept unreasonable 
delays in the enrollment of the juvenile or that the juvenile. . .''
---------------------------------------------------------------------------
    \13\ See attached letter to Secretary O. Leavitt, U.S. Department 
of Health and Human Services dated July 26, 2005 from Senator Sam 
Brownback, Congressman Frank R. Wolf, Congressman Joseph H. Pitts, 
Congressman Christopher H. Smith, and Congressman Tom Lantos.
    \14\ See attached letter of Michael O. Leavitt dated September 23, 
2005.
---------------------------------------------------------------------------
    From the child's perspective, what is a ``reasonable'' delay when 
it comes to living in an unstable situation, living in a DUCS facility, 
not receiving treatment for the serious trauma of trafficking and not 
receiving dental or medical care? Is it reasonable for a child to wait 
a day? a week? two months?
                Example: An unaccompanied child is a victim of horrible 
                case of trafficking in which she was beaten, abused, 
                denied access to medical care, school, sleep and food 
                and generally treated like a slave. Her attorney 
                submits information to Justice and, after making 
                numerous phone calls, an interview is finally arranged 
                a month later. In the meantime, the child is living in 
                very precarious living arrangements, in the basement of 
                a house, is not attending school, has very little 
                money, and is not being looked after by a responsible 
                adult. Several weeks later, Justice finally tells ORR 
                to issue a Letter of Eligibility, which allows the girl 
                to enter the URM program. Ironically, officials treated 
                this as a ``fast'' case because the child was on the 
                verge of ``aging'' out, meaning she was going to turn 
                18 soon and be ineligible for the URM program. Given 
                the conditions under which this child was living, 
                almost two months is certainly not `fast'.
    Furthermore, HHS claims it does not allow Justice or Homeland 
Security to veto cases, but a veto is unnecessary since HHS relies upon 
the decision of Justice or Homeland Security. Thus, each time neither 
agency interviews an unaccompanied minor, they are `vetoing' the case 
and each time they delay an interview, they are at least temporarily 
`vetoing' a case. This result is not and was not the intent of 
Congress. Unless Congress steps in, minor victims of trafficking will 
continue to be denied their right to a safe living environment and 
immediate assistance.
    An easy solution to the anomalous status of trafficked minors would 
be to empower HHS with exclusive authority and responsibility to make 
prompt determinations that a child is a victim of a severe form of 
trafficking. HHS would then be able to move children swiftly into the 
URM program where they can receive necessary emergency assistance such 
as medical care, relocation, family reunification, and mental health 
care.
    One proposed solution for members to consider is contained in HR 
270, which was introduced by Congressmen Smith and Wolf, in which they 
propose that HHS is to have exclusive jurisdiction for determining 
whether or not a child is a victim of trafficking.\15\
---------------------------------------------------------------------------
    \15\ Amending 22 U.S.C. 7105(b)(1) by adding: (i) DETERMINATION--
With respect to a person referred to in subparagraph (C)(ii)(I) who is 
seeking assistance under this paragraph, if credible evidence is 
presented on behalf of the person that the person has been subjected to 
an act or practice described in section 103(8), the Secretary of Health 
and Human Services shall promptly make a determination of the person's 
eligibility for assistance under this paragraph.
---------------------------------------------------------------------------
    Trafficked children should not be interrogated unless and until 
they are assessed to be stable and competent. Trafficked children are 
often picked up in raids and immediately interrogated by law 
enforcement officials who have no understanding of the fragile state of 
the trafficked child. Congress has determined that trafficked children 
should be spared the trauma of working with law enforcement in order to 
receive immigration relief and services. Similarly, children who have 
been psychologically and physically abused, even raped, should not be 
interrogated unless the Department of Health and Human Services has 
made an independent finding based upon an expert opinion that the 
child's mental and physical health is stable and that the child is 
competent and capable to participate as a witness in such efforts.
    Once minor children are identified as victims, their derivatives 
(family members) should receive parole, humanitarian assistance, or 
continued presence derivative status, whichever is appropriate. Under 
current law, parents, unmarried siblings under 18, spouse and children 
of a T visa holder under 21 (when filing the T visa application) may 
apply for a derivative T visa. However, many children do not receive a 
T visa for years and so they are separated from their family members 
for long periods of time, while they undergo very stressful 
circumstances, particularly if they are involved in an ongoing criminal 
litigation. Many children are forced to choose between returning home 
to be reunited with family members or pursuing criminal and civil 
sanctions against their traffickers. This is not a choice that a child 
should have to make.
    Family members are also often at risk of violence from the 
traffickers back home. The trafficking law requires the government to 
``protect trafficked persons and their family members from intimidation 
and threats of reprisals and reprisals from traffickers and their 
associates.'' \16\
---------------------------------------------------------------------------
    \16\ 22 USC 7105(c)(3)
---------------------------------------------------------------------------
                Example #1: The parents of an unaccompanied child in 
                the URM program want to come to the U.S. because the 
                organized criminal group that trafficked the child to 
                the U.S. has threatened them in phone calls and visits 
                warning them that their child should not testify.
                Example #2: An unaccompanied child was picked up in a 
                raid and has been working with law enforcement. She has 
                been diagnosed a severe illness. The trafficker is 
                threatening the child to harm her mother if she doesn't 
                pay off the debt. Additionally, the mother and brother 
                are being directly threatened in the home country. This 
                child's mother and eligible siblings should be allowed 
                into the country prior to her T visa being approved.
    Victims are much more able to recover from their experiences and to 
participate in investigations and prosecutions with the active support 
of their families and in the knowledge that their family members are 
safe from these types of threats, which are often acted upon to silence 
a witness.
    Interviews with children in the DUCS program should be maintained 
in confidence by ORR. According to Amnesty International 5,385 minors 
were in immigration custody in 2001 \17\ and Lutheran Immigration 
Refugee Services reports that more than 7,000 undocumented children are 
presently in immigration custody.\18\ Under the TVPA, victims of a 
severe form of trafficking who are in federal custody shall not, to the 
extent possible, be detained in facilities inappropriate to their 
status as crime victims. It follows, then, that trafficked children 
should be identified as such and then placed in a suitable facility.
---------------------------------------------------------------------------
    \17\ ``Why am I here? Children in Immigration Detention,'' Amnesty 
International, http://www.amnestyusa.org/refugee/pdfs/
children_detention.pdf
    \18\ The Division of Unaccompanied Children's Services (DUCS), 
http://www.lirs.org/InfoRes/faq/DUCS.html
---------------------------------------------------------------------------
    Currently, there is no requirement that children entering the DUCS 
program be screened for trafficking. Nonetheless, the DUCS program is 
conducting a trafficking screening and, if a potential trafficking case 
is identified, these children are being referred for an in-depth intake 
called the ``Trafficking Addendum.'' We applaud the DUCS program for 
this screening but are concerned with the use of the collected 
information. The Trafficking Addenda are submitted to ORR, which turns 
them over to Homeland Security. By turning over the Addenda to Homeland 
Security, ORR is violating the right of children not submit to an 
interview with law enforcement. In essence, the DUCS interview becomes 
a law enforcement interview that is carried out without the child's 
knowledge or consent, the presence of an attorney, a guardian ad litum, 
or even a basic understanding of how the information was to be used.
    Children should be screened in the DUCS program as potential 
trafficking victims without having to submit to a de facto law 
enforcement interview. However, Homeland Security, with the 
participation and acquiescence of ORR, cannot be allowed to make an end 
run around the clear intent of Congress to protect children from being 
retraumatized and revictimized interviewing them without their 
permission, since the interview could lead to the forced participation 
of the child in a criminal case.
    We call on Congress to correct this situation and ensure that the 
information collected is kept confidential and not turned over to law 
enforcement.

    3. Victims and their family members need a quicker means to obtain 
immigration relief.\19\
---------------------------------------------------------------------------
    \19\ I would like to thank Melynda Barnhart, Director, Anti-
Trafficking Initiatives, International Rescue Committee for 
contributing extensively to this section.
---------------------------------------------------------------------------
    The process for granting Continued Presence immigration relief is 
exceedingly slow and harmful to victim recovery. Continued Presence 
(CP) provides temporary non-immigrant status and allows holders to 
receive an Employment Authorization Document (EAD) and access to 
refugee benefits. It is a quick way to solve a trafficked person's 
immigration issue until a T visa is eventually granted (or denied). 
Federal law enforcement officials may apply for CP but CP requests are 
processed by Immigration and Custom Enforcement (ICE). In the past, ICE 
was able to process these applications quickly. However, in the last 
year, victims of trafficking and law enforcement have been facing 
delays in the processing of CP applications by ICE. Delays with ICE 
have caused victims of trafficking to wait months for CP.
    Delays by ICE cause trafficked persons numerous problems. The most 
egregious is the months the individual must live without an EAD, legal 
immigration status and access to benefits. Even when victims have come 
forward to work with law enforcement, CP is often, for whatever reason, 
delayed for an unreasonable amount of time. When trafficking victims 
have to wait months with no immigration relief or ability to work in 
sight, some decide to disappear and abandon the investigation, because 
they believe they will be better off working illegally than remaining 
indefinitely in legal limbo without the ability to support themselves 
and often their families back home.
    Without CP and an EAD, victims are unable to rebuild their lives. 
They are unable to work, lack access to medical care, are separated 
from their family members for long periods of time, and live in 
increased fear for themselves and their family members back in the home 
country, to name just a few of the problems endured by victims without 
CP.\20\ This immigration benefit was intended to be a quick solution to 
keep victims of trafficking temporarily safe in the US while they 
worked with law enforcement to investigate and prosecute their 
traffickers. Trafficking victims should not have to wait months for 
temporary revocable immigration relief.
---------------------------------------------------------------------------
    \20\ A related issue we would like to highlight is the need for 
increased funding for ICE to pursue trafficking investigations.
---------------------------------------------------------------------------
    Thus, we believe that CP should be mandatory if law enforcement 
opens a trafficking or related case. If evidence shows that it is 
highly likely a person has been trafficked, and even if a lesser crime 
is eventually charged, CP should be mandatory and applications for CP 
should be processed within 30 days.
    CP derivative status should be granted immediately to family 
members of trafficking victims who are in the U.S. Derivatives in the 
United States currently do not have access to parole or work 
authorization based on a grant of CP to the potential victim-witness. 
CP derivative status is not available and so family members in the U.S. 
can be out of status until they receive a derivative T visa, possibly 
years after the victim receives CP. As a result, family members are 
unprotected from removal and could be separated from their children, 
including trafficked children. They do not have access to a work-permit 
or public benefits until a T Visa has been filed and derivative status 
has been granted.
    In many states, derivatives without proof of an immigration status 
are unable to obtain a driver's license or state issued identification. 
Moreover, if it is necessary to relocate the victim and his/her family 
members because of safety concerns, then all family members need some 
form of valid and current identification to travel. In many cases, 
victims are not able to obtain employment immediately or for many 
months after captivity because of physical and psychological trauma or 
because they are minors.. With CP, family members in the country could 
provide much-needed financial support to the victim until she or he is 
able to enter the workforce.
    Family members of CP recipients should be paroled into the U.S. 
under a derivative status. The risk of harm to family members is always 
present in the victim-witness' mind. In order to ease the victim's 
concerns and facilitate collaboration, family members outside of the 
United States should be paroled under CP derivative status immediately 
upon the issuance of CP to the victim. Not only does this guarantee 
that family members are secure, as required by 22 USC 7105(c)(3), but 
also provides family support for victims, especially those who are 
minors. An exception should be carved out to ensure that family members 
who were involved in the trafficking scheme are not paroled in just as 
they are not admissible or eligible to obtain a T-visa.
    Thank you, Madam Chair, for allowing me this opportunity to speak. 
I would be happy to answer any questions you or members of the 
Committee may have.

    Ms. Sanchez. Thank you, Ms. Jordan.
    And now we will hear for 5 minutes or less from Mr. Cerda.

      STATEMENT OF VICTOR CERDA, PARTNER, SIFF & CERDA LLP

    Mr. Cerda. Good afternoon, Madam Chair. It is my privilege 
to appear before you as your committee evaluates our 
immigration system.
    I would like to highlight some observations from my 
experience at ICE on efforts to combat human trafficking 
organizations that prey on vulnerable migrant populations.
    Today, human trafficking has emerged as a lucrative global 
criminal industry that harms not only the victims themselves, 
but also the communities in the United States that must deal 
with these ruthless and often violent organizations. Clearly, 
ICE must continue its efforts to identify, criminally 
investigate, and ultimately dismantle trafficking rings. These 
efforts should be done with the same strength and focus DHS has 
placed on securing our borders.
    It should be understood that DHS's emphasis on border 
security is not exclusive of combating human trafficking, and 
does not occur at the expense of trafficking investigations. As 
you may know, many trafficking organizations exploit 
vulnerabilities at our borders and in our immigration system to 
transport their victims, including women and children, into the 
U.S. for exploitation and profit. In fact, increased border 
security may actually help to decrease the incidence of 
trafficking, and increase our ability to capture these 
criminals.
    Further, intelligence and information obtained from 
apprehended individuals may spur investigations into 
trafficking operations. Ultimately, enhanced border security 
will deter trafficking and prevent further victimization. 
Combining our nation's immigration investigative expertise with 
customs authorities and capabilities through the creation of 
ICE in 2003, created not only an enhanced ability to dismantle 
trafficking organizations with criminal and civil charges, but 
also the ability to attack their financial resources through 
asset forfeiture.
    Where trafficking cases under the Legacy INS would go cold 
and result solely in a civil immigration violation, the newly 
blended expertise in tracking assets across the world has 
proven an invaluable weapon to continue and expand 
investigations into trafficking organizations.
    Another example of ICE's enhanced capabilities is the use 
of Civil Asset Forfeiture Reform Act notices, an authority not 
utilized in Legacy INS. With this authority, ICE investigators 
can now attack trafficking organizations by identifying the 
assets of those that blindly or willfully permit their 
properties to be used by trafficking organizations to exploit 
their victims for profit.
    More importantly, these new capabilities have led ICE to 
other trafficking victims. Recent successful ICE trafficking 
investigations in New York City and Florida demonstrate these 
positive advances. While ICE utilizes its federal authorities 
in this mission, coordination and cooperation with state and 
local entities, as well as NGOs, has proven extremely 
beneficial. In fact, such coordination is almost essential for 
continued future success.
    For example, arrests that could have been treated as an 
isolated incident of prostitution have resulted in the 
identification of large national trafficking organizations as a 
result of cooperation between ICE and state or local 
authorities. The nature of trafficking and trafficking rings 
demand such cooperation in order to be truly effective against 
these organizations.
    I point out that this reality flies in the face of blanket 
policies by some state and local governments prohibiting their 
law enforcement agencies from partnering with ICE. Hopefully, 
the goal of combating traffickers will encourage the 
dismantling of such barriers in the interest of more effective 
enforcement.
    Congress is supporting highlighting the importance of this 
issue by appropriating additional anti-trafficking resources. 
Ensuring implementation of the Trafficking Victims Protection 
Act of 2000 has also been critical. Additional support to 
federal, state and local anti-trafficking efforts, including 
NGO support, are critically important as a means to effectively 
address this issue.
    In conclusion, I applaud this committee's effort to review 
and enhance our immigration processes. To say the least, it is 
a challenging task at hand. This hearing and last week's 
important hearing on detention issues will hopefully assist in 
this task. My written testimony includes additional thoughts on 
the role of detention in immigration.
    Regardless of the challenge, change is needed to help 
improve the system so that our nation's immigration system 
actually ensures our national security, while preserving our 
rich tradition as a nation of immigrants. Hopefully, 
legislative efforts will be taken to this effect soon.
    Thank you again for the opportunity to appear before you 
today. I would be pleased to answer any questions.
    [The statement of Mr. Cerda follows:]

                 Prepared Statement of Victor X. Cerda

                             March 20, 2007

    Good afternoon, Madame Chair, Ranking Member Souder, and 
distinguished Members of the Subcommittee. It is my privilege to appear 
before you to discuss the critical role of detention in our Nation's 
immigration policy, particularly as it pertains to human trafficking. 
My name is Victor X. Cerda, and I am a founding partner of the law firm 
Siff & Cerda LLP in Washington with a practice focused on immigration 
law and homeland security. Prior to this, I served for 10-years with 
the legacy Immigration and Naturalization Service and the recently 
created U.S. Immigration and Customs Enforcement (ICE), holding various 
titles including Chief of Staff and General Counsel. Prior to my 
departure in 2005, I was the Acting Director of Detention and Removal 
Operations (DRO).
    First, I would like to acknowledge the efforts of the men and women 
of ICE DRO who I personally believe have the most challenging mission 
in immigration. They are responsible for the apprehension, detention, 
and physical removal of individuals ordered deported. They must be 
effective in their mission in order to support our national security, 
protect the community from criminal aliens, and maintain the integrity 
of our immigration system. They are the funnel point for almost all of 
the removal cases in our immigration system, and are responsible for 
concluding the proceedings in instances where a removal order is 
issued. At the same time, recognizing our rich tradition as a Nation of 
immigrants, they must perform their duties in a manner that recognizes 
the importance of treating those in their care in a humane manner. It 
was a privilege and a learning experience to have worked with them 
during my government career.
    I would like to share my perspective on why I believe detention is 
a critical and necessary factor in our Nation's attempt to enhance our 
immigration processes. Before explaining the underpinnings of these 
thoughts, I would like to highlight a case that exemplifies in my 
opinion the complexity of the challenge we face in evaluating our 
immigration system and the role of detention for immigration purposes. 
In 2004, a sympathetic story on the detention of a Buddhist ``nun'' 
fleeing persecution from China was prominently displayed on the front 
page of the Washington Post. Understandably, the story caused a 
significant outcry from the public and some members of Congress. Adding 
to the concerns was the fact that she had been granted asylum by a 
judge, a decision that was under appeal by ICE while the ``nun'' 
remained in custody. Ultimately, ICE decided that she should be 
released while the appeal was pending, as the immigration judge had 
made a credibility finding on her identity and her claim of 
persecution. At the same time, an ICE investigation was ongoing 
regarding her claim and identity. After her release, ICE's 
investigation determined that her claim was completely fraudulent and 
that she was not in fact a nun. She was arrested and charged with fraud 
and eventually pled guilty in district court, admitting she was not a 
nun. The issues of this case reflect those seen in hundreds of 
immigration cases in the country each day. Unfortunately, immigration 
issues and cases do not always lend themselves to a black and white 
distinction, despite prominent articles in the press.

The Need for Detention in the Immigration Process:
    Fortunately, the case of the purported nun did not involve a 
national security threat. It did however highlight the national 
security vulnerabilities and issues of fraud in our immigration system, 
in this instance our asylum system. Unfortunately, we as a Nation have 
witnessed the potential deadly consequences of these vulnerabilities as 
they were exploited by individuals seeking to harm our Nation. Indeed, 
we should not forget the fact that 9/11 did not mark the first time the 
Twin Towers were subject to a terrorist attack. It was two asylum 
seekers who were released while their claims were pending--Ramzi Yousef 
and Sheik Rahman--who successfully carried out an attack on the World 
Trade Center in February 1993. Other past examples of terrorists 
exploiting vulnerabilities in our immigration system include Aimal 
Kasi's killing of CIA employees outside of Langley in 1993 and Abu 
Mezer's almost successful plot to bomb New York City subways in 1997--
both had claimed asylum in the U.S. These costly lessons serve as a 
strong argument on the important role detention plays in the 
immigration context, even with respect to asylum seekers.
    In addition to national security concerns, the need for detention 
is clearly spelled out in our abysmal 85-90% absconder rate that our 
immigration system experiences. These numbers make clear that the 
``honor system'' that we heavily relied upon in the past did not work. 
As a result, we face a fugitive alien population of over 500,000 
individuals that without drastic change in our strategy will continue 
to mushroom at a rate of over 40,000 new fugitives per year. We can all 
confidently conclude that something has gone awry. Detention has been 
the only proven guarantee for compliance with detention orders.
    Properly, ICE is aggressively exploring alternatives to detention 
in hopes of identifying a medium ground aside from outright release or 
detention that actually is effective in addressing the lack of respect 
for judicial hearings and orders of removal. Initial results appear 
positive and perhaps some will become more permanent mechanisms for 
addressing bona fide asylum seekers and victims of trafficking. 
However, the fact that our current laws treat fugitives who willfully 
disregard an order of removal the same as an individual who does in 
fact comply with a removal order may prove the undoing of any 
alternative to detention aimed at enhancing compliance with removal 
orders. It will be interesting to see the effects of these alternatives 
on compliance with removal orders. In the meantime, however, it is 
difficult to fault ICE's reliance on detention in its attempts to gain 
control over our borders and to enhance the integrity of our 
immigration system. Catch and return is a positive step forward in this 
goal.

The Need for Detention Standards and Their Effective Implementation:
    While detention in my opinion is a necessary tool under the current 
statutes and immigration processes, there is still the need to treat 
all detainees with respect and dignity. That need is even more 
pronounced in the context of dealing with families, children, and 
trafficking victims. The detention standards that were initially 
established in collaboration with the American Bar Association in 2001 
play a key role in ensuring that ICE's detainees receive proper 
treatment and are afforded sufficient access and tools to exercise 
their immigration rights. Theses 38 standards establish the conditions 
that are to apply nationally to all ICE detainees. These are 
supplemented by additional criteria that ICE establishes and that must 
be met before a facility or contractor is permitted to house ICE 
detainees. The promulgation of these standards was an achievement; 
however, implementation of these standards is an equally important 
mission that ICE must continually meet. Aside from DRO reviews, 
multiple levels of potential external agency review, ranging from the 
ABA, the United Nations, ICE Office of Professional Responsibility 
(OPR), DHS' Office of Civil Liberties and Civil Rights, DHS' Office of 
the Inspector General (OIG), and the General Accounting Office ensure 
compliance with detention standards and civil rights laws. All of these 
entities have authority to tour or audit these facilities and most have 
exercised this authority. The process is very open to review and has 
been for some time. Facilities housing ICE detainees undergo at least 
one yearly review for compliance, and allegations of mistreatment are 
referred to ICE OPR and the DHS OIG for investigation. Where standards 
are not being followed, action should be taken immediately to correct 
these deficiencies, and absent progress, the facilities should no 
longer be used. Similarly, DRO officers and contractors should be 
trained sufficiently on the standards and should be held to the highest 
standards when caring for detainees.
    The unique factor surrounding families, children, and trafficking 
victims require additional care and consideration than the general 
population. Efforts to create family friendly environments should be 
pursued, as well as viable alternatives to detention that meet both the 
individual's and the government's needs. Training and efforts should be 
undertaken to ensure that the unique needs of this population are in 
fact recognized and understood by both ICE and its contractors. 
Intelligence and questioning should be utilized to identify genuine 
trafficking cases as well as genuine asylum seekers. That being said, I 
would have to express my disagreement with any view that would 
eliminate any type of detention for such populations.

The Need to Deter Life Threatening Border Crossings:
    Aside from my previously noted concerns regarding fraudulent 
immigration claims, protecting and deterring life-threatening border 
crossings by families is a factor supporting DHS' family detention 
strategy. DHS, in its efforts to control the border, faces 
sophisticated criminal smuggling organizations that will take any steps 
necessary to ensure their financial livelihood. Smugglers do not view 
their ``clients'' as human beings, but rather perceive them as 
potential profit if they succeed in not only getting them across the 
border, but doing so in a manner that does not lead to their detention. 
Smuggling organizations will adapt their strategies based on DHS' 
initiatives to secure our borders. In this light, the implementation of 
the Catch and Return policy posed a new DHS tactic that threatened 
smuggling organization's financial interests. As anticipated, these 
organizations evaluated all remaining options for successful smuggling. 
One of the initial loopholes identified by smuggling gangs involved the 
use of children and family units to avoid detention given DHS' past 
policy favoring release of families and adults with children, even 
after the expansion of expedited removal. As a result, there was an 
increase in the use of ``rented'' children and organizations encouraged 
individuals to bring their family on the treacherous journey across the 
border, often through desert environments that pose a grave challenge 
to young male adults, let alone children.
    When evaluating and considering the issue of children and families, 
the concept of deterrence must be considered. In light of smuggling 
organizations using children as decoys and encouraging individuals to 
bring their spouse and children on the treacherous border crossing, it 
is essential to deter these strategies in hopes of preventing harm and 
death to vulnerable individuals. DHS has no other recourse but to take 
the strongest tactic to discourage this practice and in all likelihood 
save the lives of numerous family members and minor children. To take 
any other approach in the interest of families that may be perceived by 
the smuggling organizations or desperate economic migrants as a 
``loophole'' similar to the failed Catch and Release policy, may in 
fact induce deadly consequences. While it is understandable to question 
the policy and the conditions of confinement, I believe it is equally 
important to view the overall goal of deterring dangerous risks and 
avoiding the unnecessary loss of life.

Victims of Trafficking:
    While trafficking was not an area directly under my operational 
control while at ICE, I would like to take a moment to highlight some 
observations from my ICE experience on the human trafficking situation 
and organizations that prey on populations. ICE must continue to focus 
on identifying, criminally prosecuting and dismantling trafficking 
rings with the same strength and focus aimed at deterring smugglers 
from risking families in dangerous border crossings. It should be 
understood that DHS' emphasis on border security does not come at the 
expense of trafficking investigations, as most trafficking 
organizations have exploited vulnerabilities in our porous border and 
our immigration system to move vulnerable populations including women 
and children into the U.S. for exploitation and profit. Trafficking of 
vulnerable populations has emerged as a lucrative global criminal 
industry and threatens not only the victims being trafficked, but also 
the communities in the United States that must deal with these ruthless 
and often violent organizations. I believe advances have been made in 
successfully dismantling these criminal organizations since ICE's 
inception. ICE's capabilities not only to criminally charge such 
organizations but also to attack their financial resources through 
asset forfeiture have been a positive result of the merging of customs 
and immigration expertise. Whereas immigration cases before would go 
``cold'' and be treated as a minor immigration ring, the legacy 
custom's capabilities in tracking assets and property across the Nation 
and internationally has proven a new invaluable tool against 
trafficking organizations. Congress has supported these efforts with 
resources and any support to continue and enhance these new techniques 
both at ICE and in the state and local community should continue.
    While ICE utilizes its federal authorities in this mission, 
coordination and cooperation with state and local entities has proven 
extremely beneficial in the past. In fact, such coordination is almost 
essential. For example, simple arrests and investigations that may have 
initially been perceived as a local isolated incident involving a 
brothel have as a result of ICE and state or local taskforces resulted 
in the identification and dismantling of national and international 
trafficking organizations. Clearly, within the goal of border security 
and control, the identification and elimination of such organizations 
should remain a priority within ICE.
    Finally, similar to the context of dealing with families, efforts 
should be made to recognize the circumstances of genuine victims of 
trafficking and accommodations in the handling of their cases should be 
made, to include consideration of any benefits they may be entitled to, 
considerations on their housing or custody status, and consideration to 
their safety and protection from elements of the trafficking 
organizations that have preyed on them before. I believe the 
sensitivity involving victims of trafficking is understood at ICE and 
that efforts are made to address the unique needs of this population as 
any investigation or prosecution progresses.

Considerations Aside from Detention:
    While I perceive the use of detention as a necessary factor in our 
immigration system, I will close by highlighting other areas that 
should be considered. First, we should recognize that despite the 
challenge DHS faces in securing our borders, it does exercise 
prosecutorial discretion in the detention context numerous times every 
day across the country, particularly with respect to investigations 
involving victims of trafficking. The system in certain contexts 
affords this flexibility and it should continue to be used when 
appropriate. Second, we should continue to explore alternatives to 
detention in an attempt to identify a solution that objectively serves 
both the individual's interests and the government's interest in 
ensuring integrity in our immigration system. Finally, as you explore 
ways to reform the process, we may benefit by exploring the question of 
why it takes our Nation months if not years to come to a ``yes'' or 
``no'' answer on whether an individual or family under our laws should 
be permitted to remain in our country or be deported? While detention 
may be necessary in many cases, the length of detention which is often 
determined by the legal and judicial processes is something that we 
control. Similarly, genuine victims of trafficking should be able to 
have their claims for benefits as such victims reviewed and adjudicated 
properly and efficiently. Judicial and attorney resources to eliminate 
backlogged court dockets and prolonged periods of judicial review are 
factors that should be considered in the scheme of comprehensive 
immigration reform. Adjudication resources should be committed to those 
seeking benefits as victims of trafficking. A prolonged and delayed 
process, caused by the currently overwhelmed judicial and legal systems 
does not benefit the genuine asylum seeker, victim of trafficking or 
the government. If detention is required, shortening any decision 
making process would decrease the burden on the government and benefit 
individuals as they exercise their rights under our immigration laws.

Conclusion:
    In conclusion, I applaud this Committee's effort to review our 
immigration processes and attempt to address the numerous flaws in our 
immigration system that we as a Nation have witnessed since the last 
major attempt to reform our immigration laws. To say the least, it is a 
challenging task at hand. Regardless, change is needed to help improve 
the system so that our Nation's immigration laws and processes actually 
ensure our national security while preserving our rich tradition as a 
Nation of immigrants. Hopefully legislative efforts will be taken to 
this effect soon. Thank you again for the opportunity to appear before 
you today, and I would be pleased to answer any questions you may have.

    Ms. Sanchez. Thank you, Mr. Cerda.
    And again, thank you to all of you.
    I would like to ask all of you some questions, and I would 
like to begin with Lieutenant Marsh.
    Lieutenant Marsh, as you know, we have a large Asian 
population in particular in Orange County these days. I know 
the City of Westminster is very blessed to have a large 
Vietnamese population there. I had a friend of mine recently 
tell me that he lives in a particular city, not yours, in 
Orange County, and across the way he had a Vietnamese family 
that he was friends with.
    This gentleman had a young daughter, 16, and he said one 
day a leader of an Asian gang came and took his daughter and 
kept her for 2 years as a sex slave not too far away, and 
threatened the daughter that if she left the bed, basically, 
that the whole family would be killed.
    This lasted for a couple of years, and then finally this 
young lady was returned to her home. The whole neighborhood 
knew this. My friend knew this. Everybody knew this was going 
on, but they were so afraid of the retaliation by this 
particular Asian gang that nobody said anything and never 
brought it up to local law enforcement or anybody else. They 
let it happen.
    Why is that? Are we so out of control that really our law 
enforcement can't take care of these types of gangs and things 
going on?
    Lieutenant Marsh. I would hope not. We have taken a lot of 
efforts at the Westminster Police Department to outreach to our 
Vietnamese community, which is approximately 37 percent of our 
population. It is distressing to hear of a situation like that, 
and that a neighborhood would know and they wouldn't feel 
comfortable coming to the police.
    Ms. Sanchez. And this was a mixed neighborhood. It was 
Anglo, it was Hispanic, it was Asian. The whole block knew, 
grown people.
    Lieutenant Marsh. I don't know how to respond other than I 
would hope that they would feel comfortable talking to somebody 
from law enforcement.
    Like I said, with Westminster Police Department, we go out 
and do active community involvement activities with them, both 
at the Vietnamese, Hispanic and English-speaking communities. I 
am glad to hear it wasn't in Westminster, number one.
    But if you are going to ask me ``does it happen,'' it 
probably does, but we do everything within our power, or if we 
had a remote hint of something like that, we would be all over 
it. That is a technical term.
    Ms. Sanchez. ``All over it''?
    Lieutenant Marsh. All over it. Yes.
    [Laughter.]
    Ms. Sanchez. Talk to me about the collaboration that you 
have seen with ICE and the FBI, especially since you put 
together this task force. I know that you all have been part of 
leading this effort in Central Orange County.
    Is it working? What else do you need in order to do a 
better job of getting information and getting backup and 
everything when you are doing the legwork that it takes to find 
these in-flight people?
    Lieutenant Marsh. Well, I will say that our work with ICE 
and FBI has proven very beneficial. I think that they are 
following their federal mandates. They are compassionate and 
dedicated to pursue these investigations. I think there are 
threshold issues regarding what constitutes human trafficking 
and what does not. That sometimes gets in the way of pursuing 
cases more actively, and to pursue them beyond just the point 
of the initial arrests.
    If I were to say, again back to what I have written before, 
the first thing I would say is that we need to have a better at 
least understanding of the law, or a better definition of 
``trafficking'' so we can pursue more psychological force, 
fraud and coercion over the more severe physical abuse forms, 
though of course those do exist as well.
    Ms. Sanchez. I think you said this. I just want to get a 
clarification that sometimes it takes a lot to get these cases 
done. It takes a lot of local law enforcement work, and then 
the prosecutors don't prosecute because the laws are not 
written, or because maybe there was no physical torture or 
something of the sort.
    How does that make you feel? And sometimes when you come up 
to that, do you just say, well, we are just not going to do it 
because we know we are not going to get a prosecution on this?
    Lieutenant Marsh. We don't investigate towards prosecution. 
Whether it is pimping or pandering, whatever, we are going to 
take care of business. We are going to get these victims out of 
that situation.
    We have had victims that were being prostituted that 
actually qualified for federal aid as trafficking victims, even 
though the people who were the brothel owners or traffickers 
were only considered pimps at that point. The end result 
doesn't matter to us as far as whether they support it.
    Is it frustrating? Absolutely. Do I think that we could do 
a much better job and leverage both local and federal 
resources, both personnel and financial and surveillance and 
all kinds of other resources? Absolutely. But we are still 
going to go out there and address prostitution, brothels, and 
anything to do with that.
    Plus, again, I don't see it too much, but obviously there 
are labor issues as well, domestic servitude, folks in 
restaurants, things like that, that need to be addressed, too.
    Ms. Sanchez. What about the rest of you, Ms. Jordan and Mr. 
Cerda? Do you believe that the laws should change to reflect 
more of this mental imprisonment, if you will, versus physical 
and torture? Reaction?
    Ms. Jordan. From my understanding of the federal law, the 
definition, there is a new section in the federal law that is 
called ``forced labor,'' and that does include psychological 
coercion. It was specifically put in there at the request of 
DOJ prosecutors who were having that specific problem, in that 
there was a limitation in federal law on using psychological 
coercion as a basis for prosecuting somebody under a slavery or 
involuntary servitude statute.
    So I guess my question would be: Is there a problem even 
with that language that doesn't allow prosecutors to use 
psychological coercion? Or is it simply an unwillingness of 
prosecutors because that is more difficult, perhaps, when you 
don't have the physical manifestation on a body or something 
like that? I don't know what the answer is.
    Ms. Sanchez. Mr. Cerda, both from having been on the other 
side and now as an immigration lawyer on these complicated 
cases, what would you say? Is the law okay for us to be able to 
get what we need? Or do we need to change that?
    Mr. Cerda. I think right now you are looking at the early 
stages of the law. The challenges you face, as you pointed out, 
is that generally these organizations to prey on their own 
communities, and the coercion, the code of silence that they 
enforce is a significant challenge for any law enforcement 
officer to establish a case. So those are the realities you 
face in the development of the case.
    The law has been modified to try to address what has been 
identified as an early shortcoming with respect to the labor 
situation. I think you see how that develops in terms of case 
law, in terms of the ability of prosecutors to present, and 
also the ability of victims, as well as those supporting the 
victims, how it affects their ability to try to encourage the 
prosecutors to accept the case.
    At the federal level, regardless of what the arena is, what 
the law is, the burden is generally high, given the strain on 
the federal judiciary system in terms of accepting cases, that 
you do have to have your facts, yours T's crossed, your I's 
dotted. Right now, I do believe the law as it stands does 
afford an opportunity, but it is a challenging environment to 
develop a case.
    Ms. Sanchez. So you think because it is a harder case to 
really get your hands around that prosecutors may be walking 
away from some of this?
    Mr. Cerda. I think you have that, where clearly having 
myself presented before a judge on the government's behalf, you 
want a case that you can uphold and that withstands scrutiny, 
whether it is with a judge or an appeal on review. You don't 
want bad case law developed.
    In the immigration context and trafficking context as a 
whole, the organizations smuggling and trafficking are 
ruthless. The Chinese organizations are notoriously ruthless, 
not only with the victims here, but their families in China. 
Same thing with Russian organized crime. The code of silence in 
those communities is pretty impressive in terms of the stifling 
effect is has on case development.
    Ms. Sanchez. Mr. Cerda, you talked about, and I asked this 
of Lieutenant Marsh earlier, you said that there wasn't as much 
collaboration going on with some of the local law enforcement.
    Can you elaborate on what you meant by that, and what you 
think we could do to make more of that happen? Because it seems 
to me in Orange County at least, we are really taking care of 
business in trying to work together.
    Mr. Cerda. As we hear the debate on immigration, it is a 
very volatile, emotional debate. Some communities jump to 
judgment in the position of saying, ``we are not going to be 
looking at immigration issues or cooperation with ICE.'' Other 
communities, it appears like Orange County is one of those, 
there is coordination with ICE to really try to use the laws, 
both state, local and federal immigration included, to try to 
address the trafficking threats out there.
    Ms. Sanchez. So are you saying that maybe the local 
agencies that don't want to work are ones that want to be more 
of a sanctuary for people without the right documents? Or are 
they on the other side, the ones who just don't want to have 
anything to do with immigration, therefore we are not going to 
deal with the federal government because you are not doing 
anything anyway.
    Mr. Cerda. I think the political bodies, when addressing or 
contemplating debating the sanctuary issue with respect to 
immigration, should be careful not to be too broad, to the 
effect that their broad statements, mandates of non-cooperation 
on immigration issues, actually may impede cooperation on 
trafficking and smuggling investigations with ICE.
    Clearly, the bottom line here with everyone that I have 
heard is that to really address trafficking, it is a 
partnership effort with state and local entities, as well as 
NGOs. Anything that impedes that communication or the potential 
for that communication to exist, I think favors trafficking 
organizations.
    Ms. Sanchez. Thank you.
    Ms. Jordan, I wanted to ask you, because I had asked Mr. 
Garcia in the earlier panel about CP, and the fact that we had 
gotten information that continued presence status to victims 
was taking way too long. And he said that he thought under the 
current mode of operation that they were shooting for a month, 
but he really thought it should be taking no longer than 2 
weeks.
    What is your reaction to that explanation? How long do you 
think it is really taking? And why do you think it is taking 
that long?
    Ms. Jordan. Okay. I am not a service provider, so I rely 
upon others who are actually the service providers. What I have 
been told is that it may take them a month once they actually 
receive the application, but there first has to be a 
determination through an interview with the victim that 
somebody is, you know, they have to decide whether or not the 
person is or is not a victim of trafficking, and that can take 
months.
    So it is really the process of when ICE or the other 
federal agency interviews the person, and then makes the 
request. I have been told it can take even up to 8 months in 
total. So that 1 month is probably correct, but the rest of it 
is much longer, and apparently in the past, for a while it was 
done much more quickly?this process of determining that 
somebody is a victim of trafficking, and then getting CP fairly 
quickly?but that is not the case now.
    Ms. Sanchez. Okay. Thank you.
    And lastly, Ms. Jordan, your testimony refers to the 
complicated process that trafficked children go through, being 
transferred between several government programs.
    What are your recommendations for how to simplify and 
improve the bureaucratic process so that we can provide better 
support and care and nurturing, really, for these children who 
have been traumatized?
    Ms. Jordan. I think the first issue that was raised was 
that when children are found, they should not be re-traumatized 
immediately by going through any kind of an interrogation by 
federal law enforcement. They should immediately be put into a 
safe system, and there is this program that is carried out by 
ORR on behalf of ICE, which is called DUCS, Division of 
Unaccompanied Children Service. So the children go into that.
    But the process right now is that once children are either 
in that system or they are outside of the system, they are kind 
of on their own. They go to see a service provider. There has 
to be a determination made that this person is, first of all, a 
minor; and secondly, is the victim of a severe form of 
trafficking. And then ORR issues a recommendation that this 
child go into the Unaccompanied Refugee Minor Program, which is 
really an excellent program to take care of children.
    The problem is that the way that the statute is written, it 
says that ORR has to do this in consultation with Justice and 
Homeland Security. What ORR has turned this into is getting 
Homeland Security or Justice to actually tell them that this 
child is a victim of a severe form of trafficking, which then 
means that the child has to be interrogated by either Homeland 
Security or Justice, which means that the child is being 
interrogated in a way that was never intended by Congress. The 
statute itself doesn't require Homeland Security or Justice to 
say that the child is a victim of a severe form of trafficking. 
All it says is that ORR has to consult.
    So what we want is a process, then, once this child has 
come to the attention of ORR, that ORR itself makes the 
determination that the child is a victim of a severe form of 
trafficking, and does not subject a child to this interrogation 
by Homeland Security or Justice. Then they can consult with 
them and they can tell them about this, but they don't turn 
over the information about the child because that would, in 
essence, also be an interrogation of the child unbeknownst to 
the child without advice of counsel or anything else.
    Then once ORR determines that the child is a victim of a 
severe form of trafficking, that child should be moved 
immediately into the Unaccompanied Refugee Minor Program, 
because it is really the safest and best place for a minor 
child to be, and it is the only way that these children can 
access services.
    Ms. Sanchez. Thank you.
    With that idea that we are going to try to push some 
legislation this year to help in this arena, is there anything 
that I haven't asked, or some point that you would like to see 
asked from a policy standpoint, or from changing the 
bureaucratic process that people have to deal with? Is there a 
point that I haven't raised, or that you haven't told me that 
you think is important for us to know and have on record?
    I will start with Mr. Cerda.
    Mr. Cerda. Now that I am a little free, not being in 
government service, I always vouch for the need for resources. 
Clearly, resources under state, local and the NGO level, as 
well as the ICE level, the federal level, are something that 
should be contemplated when trying to determine how effective 
we truly can be against trafficking organizations.
    The enforcement mission is drained. It has a lot of 
missions, a lot of fronts that it has to deal with. Trafficking 
is one of them. It is always a difficulty to prioritize, but 
clearly you have to, and additional resources will make those 
decisions a little easier and highlight the need for a focus on 
trafficking.
    Ms. Sanchez. Thank you, Mr. Cerda.
    Ms. Jordan?
    Ms. Jordan. I think the most important thing that we can do 
at this point, because we have had 6 years of experience with 
the law, we know how it works and how it doesn't work, really 
is to take a look at the law from the perspective of the 
victims. The children and the adults also, but particularly the 
children because I was involved in the 2000 legislation and I 
know that we just didn't get around to really focusing enough 
on the issue involving children and family reunification with 
victims.
    So I think kind of trying to look at the entire process 
from the perspective of the victims, and are we really 
accomplishing the goals that were set out in 2000. That kind of 
information, you know, there are many organizations that could 
speak with you and give you first-hand knowledge about the 
limitations of the law. I think that would be an excellent 
place to start, to make sure that we respect the rights of all 
of the undocumented immigrants who come here and are victimized 
in our country.
    Ms. Sanchez. Great. Thank you.
    And lastly, Lieutenant Marsh?
    Lieutenant Marsh. I think you have made great strides. I 
don't want to minimize any of that. In a lot of my testimony, I 
feel almost negative, and I don't want to make it seem that we 
are not doing great deeds, and I don't think people from the 
NGO perspective or the federal perspective are trying their 
hardest to get things done.
    I think that the lack of documented successful prosecutions 
in human trafficking, though, should be a type of red flag to 
let you know, and I know there does exist some language 
reference to psychological coercion, fraud, force. It is not 
really being followed through with at the prosecutorial level. 
It is also not being mimicked at the state level legislation.
    If there is some way for your subcommittee or yourself or 
others to follow through with having those changes emphasized, 
or having a change of methods of change of priorities, follow 
through with in those different agencies, I think you would 
find many more human trafficking cases, more victims to 
support, and that we would be able to deal with a lot of the 
things that Ms. Jordan has been discussing, and Mr. Cerda, in 
reference to victim support and the services they need to make 
sure that they get reintegrated and dealt with all the 
emotional trauma they have had to go through.
    Ms. Sanchez. Great.
    I thank all the witnesses for your valuable testimony.
    I know that many of the members will have additional 
questions for you in writing. I would ask you again to get 
quickly back to us once we ask you those questions.
    Hearing no further business, the subcommittee stands 
adjourned.
    Thank you.
    [Whereupon, at 4:28 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


                             For the Record

                      Prepared Opening Statements

         Prepared Opening Statement of Hon. Sheila Jackson Lee

                             March 15, 2007

    Thank you, Chairwoman,am Sanchez and Ranking Member Souder for 
convening this very important hearing on the timely topic of the issues 
related to the detention of other-than-Mexican (OTM) immigrants who 
have been apprehended after crossing our borders illegally. I thank the 
witnesses for their attendance and look forward to their insightful 
testimony.
    Madam Chair, detention is a major enforcement issue. Mexican 
nationals who are apprehended crossing the southern border without 
proper documentation are returned to Mexico, usually the same day or 
the following day. However, OTMs are subject to different processes 
because Mexico will not accept them. Once Border Patrol fingerprints 
and processes such aliens and determines their nationality, verifies 
that they do not have any outstanding warrants, and confirms that they 
are not on any terrorist watch lists, they are designated for removal.
    Until recently, after an OTM was placed in the removal process 
Border Patrol would contact the Office of Detention and Removal 
Operations (DRO) within ICE to determine whether DRO had adequate bed 
space available for that OTM. If space was available, the alien would 
be detained. However, due to space limitations, OTMs were often 
released with a notice to appear before an immigration judge at a later 
time. Not surprisingly, very few OTMs actually appeared for their court 
date leading many to deride the policy as ``catch and release.''
    Alien smugglers sought to exploit this situation by bringing 
children across the border along with groups of smuggled strangers, 
attempting to pass the groups off as family units. As family units, the 
smuggled immigrants were almost certain to be released under the 
``catch and release'' policy.
    The use of expedited removal, coupled with increased detention bed 
space, allowed the Department to declare an end to the policy of catch 
and release in August 2006, and replace it with a policy of ``catch and 
return'' where 99 percent of OTMs are apprehended and detained. Under 
the policy, for the first time, significant numbers of families with 
children are being detained and removed from the U.S.
    Immigration and Customs Enforcement (ICE), the largest 
investigative branch of the Department of Homeland Security sought to 
address this problem by providing special facilities for families to 
remain together while awaiting their proceedings. One of these 
facilities resulted from the acquisition of the T. Don Hutto 
Correctional Center through and Inter-Governmental Service Agreement 
with Williamson County, Texas. Corrections Corporation of America (CCA) 
operates the 512-bed facility under a contract with Williamson County. 
The facility was opened in may 2006 to accommodate immigrant families 
in ICE custody. But history has shown that good intentions often go 
astray, which is what happened at the Hutto Detention Center.
    Due to the increased use of detention, and particularly in light of 
the fact that children are now being housed in detention facilities, 
many concerns have been raised about the humanitarian, health, and 
safety conditions at these facilities. In a 72-page report, ``Locking 
Up Family Values: The Detention of Immigrant Families,'' released last 
month by two refugee advocacy organizations, the Women's Commission for 
Refugee Women and Children and the Lutheran Immigration and Refugee 
Service concluded that the T. Don Hutto Family Residential Center and 
another family detention center, the Berks Family Shelter Care 
Facility, were modeled on the criminal justice system ``where residents 
are deprived of the right to live as a family unit, denied adequate 
medical and mental health care, and face overly harsh disciplinary 
tactics.''
    Every woman we talked to in these facilities cried, said Michelle 
Brane, director for Detention and Asylum at the Women's Commission. She 
stated further that, ``Many of the children were clearly sad and 
depressed. Some feared separation from their parents, a common threat 
used to ensure that children behaved according to facility rules. 
Alternatives exist that are not punitive and that keep families 
together while also addressing the enforcement concerns of the 
government.''
        In addition, the report found that:
        <bullet> Hutto is a former criminal facility that still looks 
        and feels like a prison, complete with razor wire and prison 
        cells.
        <bullet> Some families with young children have been detained 
        in these facilities for up to two years.
        <bullet> The majority of children detained in these facilities 
        appeared to be under the age of 12.
        <bullet> At night, children as young as six are separated from 
        their parents.
        <bullet> Separation and threats of separation were used as 
        disciplinary tools.
        <bullet> People in detention displayed widespread and obvious 
        psychological trauma. Every woman we spoke with in a private 
        setting cried.
        <bullet> At Hutto, pregnant women received inadequate prenatal 
        care.
        <bullet> Children detained at Hutto received only one hour of 
        schooling per day.
        <bullet> Families in Hutto received no more than twenty minutes 
        to go through the cafeteria line and feed their children and 
        themselves. Children were frequently sick from the food and 
        losing weight.
        <bullet> Familes in Hutto received extremely limited indoor and 
        outdoor recreation time (only one hour per day, five days a 
        week).
        <bullet> Access to Counsel is extremely limited due to the 
        remote location.
    After the report was issued, changes were instituted at the Hutto 
facility, including additional recreation time for the children, 
removal of the razor wire, and an end to the requirement that children 
wear uniforms at the facility. However, the groups that authored the 
report remain concerned that these improvements are largely cosmetic in 
nature, and do not address the fundamental problems of housing children 
in this type of a detention facility.
    Similarly, in December 2006, the Department's Inspector General 
(IG) issued a report that examined health and safety standards, as well 
as the overall conditions of confinement, at many of the facilities. In 
the report, the IG noted instance where:
        <bullet> detainees did not receive required medical screenings;
        <bullet> non-emergency medical requests were not responded to 
        in the required timeframe;
        <bullet> hunger-strike and suicide-watch detainees were not 
        properly monitored;
        <bullet> detainees were injured because of unsafe bunk bed 
        construction and excessively hot water;
        <bullet> lack of ventilation, inconsistent food service, and 
        pests made living conditions poor;
        <bullet> staff did not properly keep records of detainees' 
        detention files;
        <bullet> unprocessed detainees were held longer than the 
        allowed 12 hours and usually in rooms to small to accommodate 
        the number of detainees being held;
        <bullet> adequate clothing was not provided and the washing of 
        dirty clothes was irregular; and
        <bullet> visitation time was cut short.
    In sum, the IG made 13 recommendations addressing areas of non-
compliance and ICE proposed actions to implement nine others. While ice 
did take many actions to quickly remedy the IG's findings, some 
concerns still exist today.
    I have addressed this problem of detention facilities in Section 
622 of my Save America Comprehensive Immigration Act of 2007, H.R. 750. 
It would provide for a wide range of human and cost-effective 
alternatives to detaining families and other vulnerable populations in 
prison facilities. These alternative settings would be more humane 
while still ensuring an undocumented immigrant's appearance before 
immigration officials for removal or a hearing.
    These secure alternatives would be based on the best practices 
utilized by the Appearance Assistance Program and the Department's own 
Intensive Supervision Appearance Program which has achieved remarkably 
high compliance rates for aliens.
    It would address the need to provide non-penal facilities for 
members of vulnerable populations needing specialized care such as the 
families arrested with their children, aliens with serious medical or 
mental health needs, aliens who are mentally retarded or autistic, 
elderly aliens over the age 65, and victims of trafficking or criminal 
operations rescued by governmental authorities.
    The program would be implemented by non-govermental organizations 
in order to achieve a cost savings for the Department. This also would 
facilitate the alternative placement of members of vulnerable 
populations found by the Department not to be a flight risk or danger 
to the community.
    Placements would be based on the undocumented immigrant's need for 
supervision. The placements would range from individual or 
organizational sponsors and supervised group homes to a supervised, 
non-penal community setting that has guards stationed along its 
perimeter.
    An undocumented immigrant's selection for the program would 
entirely be within the discretion of the Department, and it would not 
convey any rights or benefits under the Immigration and Nationality 
Act. The Department's decisions regarding the use of the program would 
not be subject to administrative or judicial review.
    We have to find a way to ensure that the families and other 
vulnerable populations of detained immigrants are not housed in penal 
settings as if they are convicted criminals. We must not compromise on 
our humanity and decency.
    Thank you Madam Chairwoman. I look forward to the testimonies of 
the witnesses, and I yield back the remainder of time.

             Prepared Statement of Hon. Bennie G. Thompson

                        Thursday, March 15, 2007

    <bullet> I am pleased that the Subcommittee is holding a hearing 
today on an issue that has been in the news a great deal lately--the 
detention of other-than-Mexicans who have been apprehended crossing our 
borders illegally.
    <bullet> I have long supported ending the policy of ``catch and 
release,'' under which non-Mexicans who entered the U.S. without proper 
documentation were issued a notice to appear at a future hearing and 
then released.
    <bullet> Of course, the overwhelming majority of these people did 
not appear for their hearing, but instead made their way to the 
interior of the country and disappeared into American society.
    <bullet> It is clear that catch and release was a failed policy.
    <bullet> However, I am deeply concerned about the consequences of 
the Department's new policy, often called ``catch and return.''
    <bullet> Under this policy, virtually all other-than-Mexicans are 
being detained at facilities either operated by or under contract to 
ICE until they are returned to their home country.
    <bullet> The unprecedented rate at which the Department is 
detaining people raises questions about how to ensure their health and 
welfare and basic civil rights while in custody.

    <bullet> Also, for the first time ever, a significant number of 
families with children are being held in these detention facilities.
    <bullet> I am greatly troubled by some of the allegations we have 
heard about the treatment of children who are caught up in these 
unfortunate circumstances through no fault of their own.
    <bullet> That is why I am interested in hearing testimony today 
about what Immigration and Customs Enforcement is doing to address 
these concerns.
    I also want to explore whether there are equally effective and less 
costly alternatives to detention that may be appropriate, particularly 
when children are involved.
    <bullet> I intend to work with my colleagues to ensure that as the 
Department implements tougher border enforcement and detention 
policies, we do so in a way that honors the rights and values that make 
our country great.

         Prepared Opening Statement of Hon. Sheila Jackson Lee

                             March 20, 2007

    Mr. Chairman, I want to first thank you for holding this important 
hearing. I also would like to thank our witnesses today for their 
important testimony. The purpose of this hearing is to examine human 
trafficking issues. The United States is one of the leaders in the 
fight against human trafficking, and this is reflected in the recent 
legislation that defines and expands the U.S. Government's role in the 
war against human trafficking.
    The Trafficking Victims Protection Act of 2000 (TVPA), Pub. L. 106-
386, established new forms of protection and provided for additional 
assistance for the victims of human trafficking; revised the criminal 
statutory provisions and enhanced the penalties that are available to 
federal investigators and prosecutors; and its expanded the United 
States international role in preventing trafficking.
    The Trafficking Victims Protection Reauthorization Act of 2003 
(TVPRA 2003), Pub. L. 108-193, reauthorized the TVPA and established 
additional responsibilities for the U.S. Government's anti-trafficking 
operations. For instance, it required new information campaigns to 
combat sex tourism, established the Senior Policy Operating Group on 
Trafficking in Persons, and required a yearly report from the Attorney 
General to Congress on the U.S. Government's activities to combat 
trafficking.
    The Trafficking Victims Protection Reauthorization Act of 2005 
(TVPRA 2005), Pub. L. 109-164, reauthorized the TVPA again and created 
new anti-trafficking resources, such as grant programs that assist 
state and local law governments in dealing with human trafficking. It 
also expanded the victim assistance programs.
    The interagency Human Smuggling and Trafficking Center (HSTC) 
brings together federal agency representatives from policy, law 
enforcement, intelligence, and diplomatic sectors, so they can work 
together on a full-time basis to achieve increased effectiveness and to 
convert intelligence into effective law enforcement and other action. 
This includes the Department of State (DOS), the Department of Homeland 
Security (DHS), and the Department of Justice (DOJ). The HSTC also 
serves as a clearinghouse for trafficking information.
    Increased collaboration also is needed between the U.S. government 
and the state and local agencies who assist in dealing with human 
trafficking. This includes increased efforts to find victims, to ensure 
that they receive whatever support is available, and to efficiently 
provide them with whatever other services are available.
    Federal, state, and local authorities also need to cooperate in 
monitoring and combating labor trafficking within the United States. 
frequently, migrant workers are recruited from underdeveloped countries 
to work in countries where low-cost foreign labor is in demand. when 
they begin their new employment, they find themselves in a state of 
involuntary servitude. To prevent these nations of human trafficking 
from leaving, the unscrupulous employers confiscate and hold travel 
documents, and they use confinement, the threat of physical force, and 
withholding wages.
     I also believe that federal, state, and local agencies need to 
better monitor the use of family-based visa petitions to bring women 
and children into the country. According to a Government Accountability 
Office (GAO) study that I requested last year, in FY2005, at least 398 
of the U.S. citizen and lawful permanent resident petitioners who filed 
family-based visa petitions were on the National Sex Offender Registry 
that is maintained by the Federal Bureau of Investigations.
    It seems unlikely to me that 398 convicted sex offenders would have 
the knowledge and the contacts needed to bring women and children into 
the country that way. There may be a criminal organization that is 
facilitating these arrangements. In any case, we need to know whether 
the sex offenders are using our immigration laws to bring innocent, 
unsuspecting victims into the United States. Among other things, my 
foreign Anti-Sex Offender Protection Act would establish a task force 
of Federal, State, and local law enforcement agencies to investigate 
the cases in which it appears that the foreign woman or child may be at 
risk.
    Again, thank you Mr. Chairman for holding this important hearing 
and I look forward to the testimony of our witnesses.

           Prepared Opening Statement of the Hon. Mark Souder

                             March 20, 2007

    Thank you Madame Chair. I would like to thank our witnesses for 
being here today. On the first panel, I look forward to hearing from 
Mr. Gabe Garcia from Immigration and Customs Enforcement (ICE) on the 
investigations of human trafficking and the similarities in the 
criminal networks and techniques with criminal organizations involved 
in smuggling people and contraband.
    On the second panel, I would like to welcome Ann Jordan from Global 
Rights and Lt. Marsh from Orange County. I am very interested in your 
views on how human trafficking organizations operate and what tools are 
at our disposal to intercept and dismantle these criminal 
organizations. Lastly, I'd like to welcome Victor Cerda. As the former 
Director of the Office of Detention and Removal and now as a practicing 
immigration lawyer, I think that you will have a lot to offer this 
Subcommittee as a follow up to Part I of this hearing on the role 
detention plays in securing the border, particularly as it relates to 
asylum seekers and victims of trafficking. I am also interested in your 
perspective on the judicial review process for these cases and what 
changes might be necessary in that arena to facilitate the review 
process.
    During the hearing last week, John Torres, Director of ICE?s Office 
of Detention and Removal Operations, along with several private sector 
witnesses, testified before the Subcommittee on the issue of detention 
standards for illegal aliens with particular focus on the detention of 
children and asylum seekers. Concerns were raised about the amount of 
education, federal staffing, and medical care provided to illegal 
aliens.
    I am particularly interested in following up during this hearing on 
options to address the 90% absoconder rate for aliens not held in 
detention and the security risks associated with releasing individuals 
that have not been fully vetted and either granted admittance or 
ordered deported. We heard several examples where illegal aliens have 
exploited political asylum to avoid detention and remain in the U.S. 
For example, murderer Mir Aimal Kansi and 1993 World Trade Center bomb 
plotters Ramzi Yousef and Sheik Omar Abdel Rahman were granted 
political asylum.
    During this hearing, I hope through the testimony and questions to 
explore how human trafficking and narcotics smuggling cases are 
investigated, particular how DHS is able to investigate and dismantle 
criminal organizations and whether there is or could be links between 
these organizations and terrorist groups.
    Human trafficking is now considered a leading source of profits for 
organized crime, together with drugs and weapons, generating billions 
of dollars. In addition to the horrible human rights abuses suffered by 
victims of human trafficking, these pipelines can be used by smuggling 
and trafficking organizations for the clandestine entry of undocumented 
aliens, and may be exploited by terrorists to gain entry into the 
United States and attack our critical infrastructure.
    Several years ago (2004), there were public reports by people in 
the State Department providing evidence that terrorist groups are using 
human trafficking to acquire recruits and that some terrorists are 
?abducting children and making them child soldier slaves.? At the time, 
Secretary Powell also was quoted as saying that human trafficking could 
very well help to finance terrorist activity.\1\ Additionally, Italy's 
secret service has reported evidence that al-Qaeda is in the business 
of smuggling illegal immigrants into Europe to fund terrorist 
activities.\2\
---------------------------------------------------------------------------
    \1\ CNN Transcript: Insight with Correspondent Jonathan Aiken, 
Human Trafficking in Japan, http://transcripts.cnn.com/TRANSCRIPTS/
0408/19/i_ins.01.html
    \2\ Italy sees al-Qaeda link to human trafficking, The News 
International, September 8, 2003, http://www.freerepublic.com/focus/f-
news/978250/posts
---------------------------------------------------------------------------
    While many of these concerns cannot be discussed in a public 
hearing, I am very concerned that not enough work is being done 
analyzing these links and this is an area I hope the Subcommittee 
invests a significant amount of time this Congress.
    Thank you Madame Chair for yielding the time and I'll close by 
again thanking the witnesses for being here and I look forward to your 
testimony.

                                 <all>

</pre></body></html>
